<html>
<title> - OVERSIGHT OF THE NATIONAL FOOTBALL LEAGUE (NFL) RETIREMENT SYSTEM</title>
<body><pre>[Senate Hearing 110-1177]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1177
 
   OVERSIGHT OF THE NATIONAL FOOTBALL LEAGUE (NFL) RETIREMENT SYSTEM

=======================================================================


                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,

                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 18, 2007

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





                  U.S. GOVERNMENT PRINTING OFFICE
76-327                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 GORDON H. SMITH, Oregon
MARIA CANTWELL, Washington           JOHN ENSIGN, Nevada
FRANK R. LAUTENBERG, New Jersey      JOHN E. SUNUNU, New Hampshire
MARK PRYOR, Arkansas                 JIM DeMINT, South Carolina
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director and General Counsel
                  Paul Nagle, Republican Chief Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 18, 2007...............................     1
Statement of Senator Dorgan......................................     1
Statement of Senator Hutchison...................................     2
Statement of Senator Kerry.......................................    39
Statement of Senator Klobuchar...................................    37
Statement of Senator McCaskill...................................    39
Statement of Senator Nelson......................................    82
Statement of Senator Thune.......................................    40
    Prepared statement...........................................    40

                               Witnesses

Bain, Bill, Former NFL Player, Los Angeles Rams, Green Bay 
  Packers, New England Patriots, Denver Broncos, New York Jets...    17
Boyd, Brent, Former NFL Player, Minnesota Vikings................    23
    Prepared statement...........................................    28
Ditka, Mike, Member, NFL Hall of Fame; Former NFL Player, Chicago 
  Bears, Philadelphia Eagles, Dallas Cowboys; and Former Head 
  Coach, Chicago Bears, New Orleans Saints.......................    68
    Prepared statement...........................................    69
Duerson, Dave R., Trustee, Bert Bell/Pete Rozelle NFL Player 
  Retirement Plan; and Former NFL Player, Chicago Bears, New York 
  Giants, and Phoenix Cardinals..................................    12
    Prepared statement...........................................    15
Goodell, Roger, Commissioner, National Football League...........    62
    Prepared statement...........................................    64
Johnston, Daryl, Sports Broadcaster, FOX; and Former NFL Player, 
  Dallas Cowboys.................................................     6
    Prepared statement...........................................     8
Sayers, Gale Eugene, Member, NFL Hall of Fame; and Former NFL 
  Player, Chicago Bears..........................................    71
    Prepared statement...........................................    72
Upshaw, Gene, Executive Director, National Football League 
  Players Association............................................    42
    Prepared statement...........................................    45
Waters, Hon. Maxine, U.S. Representative from California.........     3
Webster, Garrett, Son of Mike Webster, Former NFL Player, 
  Pittsburgh Steelers and Kansas City Chiefs.....................    19
    Prepared statement...........................................    21

                                Appendix

Joint response to written questions submitted by Hon. John D. 
  Rockefeller IV to the National Football League (NFL) and the 
  National Football League Players Association (NFLPA)...........    89
Supplementary information provided by Eugene ``Mercury'' Morris, 
  Former NFL Player, Miami Dolphins and San Diego Chargers.......    85
Combined response to written questions submitted by Hon. Trent 
  Lott and Hon. David Vitter to Roger Goodell....................    95


   OVERSIGHT OF THE NATIONAL FOOTBALL LEAGUE (NFL) RETIREMENT SYSTEM

                              ----------                              


                      TUESDAY, SEPTEMBER 18, 2007

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Byron L. 
Dorgan, presiding.

          OPENING STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. I call the hearing to order. This is a 
hearing of the Senate Commerce Committee, a full committee 
hearing. I am chairman of the Subcommittee dealing with 
interstate commerce, trade, tourism, and sports. We will be 
joined by other colleagues, but I want to start on time, 
because we have a series of votes that begin shortly after 12 
o'clock today, and I do want to begin on time.
    I should say, at the start, that I am a football fan. I 
watched Monday Night Football last evening. Football is an 
unbelievably popular sport, very interesting and wonderful 
sport in many ways. It is also big business. I call it 
``sport,'' it is also big business, with mostly wealthy owners 
and players that are paid a great deal of money. There are, I 
believe, 32 teams. They are able to work with and speak with 
each other because of an antitrust exemption. Those 32 teams, 
of course, do not include teams from North Dakota or Wyoming or 
states similar to that. We reserve these national pastimes for 
the large population centers, and many states do not 
participate personally in them by having professional sports 
teams, and that's certainly the case with my state.
    It is a sport, the sport of football, that causes, and can 
cause, substantial physical injury to many athletes. We have 
about 8,000 former players of this sport. There is, and has 
been, controversy about disability issues, how former players 
have been treated. Those who have formerly played this 
professional sport believe that about 3 or 4 percent of the 
living retirees qualify for some type of disability benefit. 
The National Football League owners and the Players Association 
say that is much higher than the 3 or 4 percent.
    It seems to me that the Players Association represents 
active players, and the Commissioner represents the owners. We 
have many who will testify here who are former players in this 
sport, and I don't quite know who represents them, if anyone. 
In many cases, they are great athletes who ended their careers 
with real damage to their bodies. Some live in pain. And the 
question is, what happens to them? Who represents them? What 
role do they have with respect to this growing industry and the 
resources that this growing industry provides? It's a very 
large and a very profitable industry, and, it seems to me, an 
industry that ought to be able to take care of the needs of 
those who helped build this wonderful sport.
    When we called this hearing, I did not know what to expect, 
in terms of communications. I must tell you, I have received, 
as Chairman of the Subcommittee--and I'm chairing the full 
committee at the request of Senator Inouye--I must tell you, I 
have received a lot of mail, a lot of letters from former 
football players, and was surprised by that, and surprised by 
the message. I've had a chance to meet with people who feel 
strongly on both sides of the issue of the controversy over 
disability payments, and it is a worthwhile subject for us to 
discuss what has happened, how it has happened, what might be 
considered. And some would say, Well, why is it any business of 
the United States Congress? Obviously, we have, in the 
jurisdiction of this committee, sports. I've been involved in 
sports issues, with Senator McCain and others, dealing with the 
subject of boxing. Boxing is a sport in which too many young 
boxers are used up by promoters, and discarded, and end up with 
nothing. And so, we've attempted to create a National Boxing 
Commission. And, with respect to football, there is an 
antitrust exemption that allows the teams to work together and 
to negotiate various things together. So, there is a reason for 
us to be interested and concerned, and that's the purpose of 
this hearing.
    I'm going to call on Congresswoman Maxine Waters, who has 
asked to testify today, and we appreciate having her here. I'll 
take her testimony first. I don't expect we will ask questions, 
but we're happy to have her here. And then we will have two 
panels, and I will talk about the panels in a moment. But let 
me introduce Senator Hutchison for an opening comment.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Well, thank you, Mr. Chairman. I really 
appreciate the opportunity to be at this hearing. I want to 
thank Chairman Inouye, as well as Vice Chairman Stevens, and, 
of course, Mr. Chairman Dorgan.
    And I think you have laid it out very well. We know that 
there are players, before the era of the mega-salaries 
especially, who have had injuries that have manifested after 
the 5-year time period in which they have full coverage. And 
so, we read about these things, and it does raise questions. 
And my hope is that, with this hearing, we will hear some of 
the issues on both sides, and then, hopefully, the NFL will be 
able to work it out with a good, fair negotiation with the 
players and the former players, with everyone represented from 
their different perspectives, because I do think that 
perspectives are different, depending on the era in which a 
player was able to play. And I also think that your reference 
to boxing is one that does provide somewhat of a model, because 
this is a high-risk sport, there is no question about it, and 
so, we know that probably extra care on the medical side is 
something that is certainly warranted.
    However, I do hope that this can be settled in an amicable 
way and a responsible way by all the parties. And, as we gather 
information, maybe that will be helpful, and as we monitor 
those negotiations.
    Let me just say, on a personal note, that one of my 
constituents is here, Daryl Johnston. I have known Daryl, from 
a personal level, because our children go to the same school, 
and so, I have watched him and his wonderful wife, who are so 
active in the school and give back so much--so, I've known him 
personally, but know he also had to retire, after 10 years with 
the Dallas Cowboys, because of neck injuries, and has had a 
view on this that I think is worthy for us to hear. He is a 
person--Daryl ``Moose'' Johnston--who played for Syracuse--he 
was an All American there--then earned his bachelor's degree in 
economics, and is a FOX Sports NFL broadcaster now, has a great 
career. And I really am very pleased that he could become a 
part of the panel, and I thank the Chairman for allowing that 
to happen.
    And, with that, I will listen to the testimony. I do have 
to leave a little earlier than the end of the hearing, so I 
will say that ahead of time, but look forward to having all of 
the testimony in writing.
    Thank you.
    Senator Dorgan. Senator, thank you very much.
    First, we will hear from Congresswoman Waters.
    Thank you very much for being with us. You may proceed.

               STATEMENT OF HON. MAXINE WATERS, 
              U.S. REPRESENTATIVE FROM CALIFORNIA

    Representative Waters. Thank you very much. Good morning, 
ladies and gentlemen----
    Senator Dorgan. Is the microphone turned on?
    Ms. Waters. Can you hear me now? Yes? Good morning.
    I'd like to thank you, Chairman Dorgan, for holding this 
hearing. And I'd like to thank you, Senator Hutchison, for 
being here this morning. And I'd like to thank all of the 
witnesses who have come today to help shed some light on many 
of the concerns that have been identified by former players.
    The National Football League's current system of 
compensation for its disabled retirees is an issue that has 
been widely discussed in Congress and the media. This issue 
also has great personal significance for me. My husband, Sidney 
Williams, played football in the NFL for 5 years. The NFL, we 
believe, has failed to fairly compensate its retired players 
for injuries suffered while playing a game that is one of the 
hallmarks of our American sporting tradition. These players 
chose professional football as a career, dedicated themselves 
to training and practice, and worked and played hard in a 
highly competitive contact sport. These players have given much 
to the NFL, and, indeed, have given their blood, sweat, and 
tears to the game of football. In return, the NFL owes much to 
its retired players that were injured as a result of competing 
in the game that Americans cherish.
    My purpose here today is to talk about a very specific case 
that I worked on for almost a year for a gentleman by the name 
of Jim Shorter. Mr. Shorter was a friend of my husband's and a 
former NFL player. Mr. Shorter died a horrible death, a death 
caused by years of neglect of football-related injuries. These 
injuries were compounded by the onset of adult diabetes and a 
lack of healthcare. When he died, Mr. Shorter had undergone 
several amputations, was blind, had had a heart attack, and was 
on dialysis. Furthermore, Jim Shorter died a broke man, 
stripped of his dignity and his silver years by an unfair and 
unyielding NFL disabilities program. This program, which is 
built like the rest of the functions of the NFL, from the 
blood, sweat, and tears of men like Jim Shorter, was designed, 
in my belief, to refuse benefits for the very players that 
needed them most.
    At issue today are three components of the NFL benefit 
plan: pensions, disability benefits, and medical insurance. 
None of these adequately compensate the NFL's disabled players. 
Despite their hard work, injuries, and playing through those 
injuries, the average payout to retired professional football 
players is less than $2,000 a month. This is striking, given 
that the poverty level in the United States is approximately 
$1,800 a month. Many retired football players receiving 
pensions have serious physical problems stemming from their 
playing days. Some have trouble walking, others have trouble 
sleeping, some have undergone multiple surgeries. In a few 
cases, former players have even committed suicide. One thing is 
clear, nearly all need more money than is provided by their 
pensions.
    Employer compensation to the NFL's pension plan paled in 
comparison to Major League Baseball. Total pension 
contributions left an average payout of $13,000 per football 
player and $36,700 per baseball player. To make the picture 
even clearer concerning the disproportionate pension system 
between football and baseball players, if former Washington 
cornerback Darrell Green, who played 20 years, decides to 
collect, at age 55, he would get the largest pension in NFL 
history, $69,660 per year. A baseball player with a similar 
career, Cal Ripkin, Jr., stands to collect, at 62, about 
$160,000. These numbers are astounding, given that football 
grosses considerably more revenue and income than baseball. The 
MLB's gross income is approximately $4.3 billion, while the 
NFL's gross is over $7.1 billion. Baseball continues to prosper 
on less income and higher expenses. There is no excuse for the 
NFL retirement benefits plan not to at least match the MLB's 
benefit plan. The risk of long-term injuries to which NFL 
players are exposed are legend. For example, there are growing 
concerns regarding the frequency of concussions among NFL 
players. In an aggressive contact sport, there are likely 
thousands of cases of concussions, many of which may result in 
subsequent disabilities. These retirees do not receive 
disability payments, because they do not realize the 
impairments were caused by head injuries incurred years 
earlier. They are oftentimes too embarrassed to come forward, 
and the benefit system has been at least slow to recognize this 
phenomenon.
    Former safety Andre Waters, a 12-year veteran, recently 
committed suicide, 44. A study of Waters' brain tissue revealed 
a succession of football-related concussions that left Waters 
with the brain tissue of an 85-year-old man. The physical 
nature of the NFL often leaves veterans unable to lead normal 
lives, and many rely on their pensions to survive. Reform of 
the disability benefit system is necessary to allow retirees to 
receive the compensation that they deserve and need for their 
disability.
    Under the NFL's current medical insurance plan, the League 
provides insurance to vested players for 5 years after 
retirement. However, the 5-year period fails to account for the 
many injuries that will not manifest serious health effects 
until the end of this period. Because football is an intense 
contact sport, football players face long-term physical 
ailments that other athletes are lucky enough to avoid. A 2003 
University of North Carolina study found that 263 of the 2,500 
retired NFL players said concussions may have had a permanent 
effect on their ability to think and remember as they got 
older. In 2005, just before the Super Bowl, the Pittsburgh 
Tribune-Review produced an investigation on the number of 
injuries professional players suffer on the job. The 
investigation found that, in the 2000 through 2003 seasons, NFL 
players racked up 6,558 injuries. More than half the athletes 
were hurt annually, with the number spiking at 68 percent in 
2003 and 2004. During typical 4-year careers, one of every ten 
NFL receivers experiences a concussion. On average seven 
professional football players a week face potentially life-
altering head, spine, or neck trauma. The effects of these 
players' injuries do not become apparent until many years into 
the future. Long-term medical insurance is needed to treat the 
professional football players' injuries.
    As I mentioned at the beginning of my remarks, this issue 
of--is of personal concern to me. My husband, Sidney Williams, 
was an NFL player in the 1960s. During his 6 professional 
years, he served as linebacker on one championship team. 
Football is one of America's greatest sports. Our NFL football 
players give their all on the field and play hard for the glory 
of the game. The NFL should not forget the contributions of its 
former players, and should provide them with an adequate system 
to address their retirement and disability benefits.
    Mr. Chairman, I have here a folder about Mr. Jim Shorter's 
case. I worked on the case for almost a year. It started in 
January 1999, when he informed me that he had been trying to 
get the attention of the Association, and they had not returned 
his calls, they had not responded. I started writing letters to 
them, and I wrote to everybody, including Mr. Tagliabue, Mr. 
Upshaw. And, finally, they advised us what we needed to do, 
getting the health records. Not only did I get Mr. Shorter all 
of the examinations that he needed, I went back into records, 
years past, to get physical examination records in order to 
help present his case. I wrote letters to every member of the 
board. At that time, it was----
    Senator Dorgan. Congresswoman Waters, I'm going to have to 
ask you to summarize. We have ten witnesses today.
    Representative Waters. Thank you. Well, we wrote letters to 
the board. We reviewed the Bert Bell Plan. We discovered that 
Mr. Shorter had received early retirement after he left 
football, having made very little money. Of course he took 
early retirement, because he had no funds. But, at that time, 
the plan said, if you take early retirement, no matter what 
your disabilities are, you can never receive disability 
benefits.
    And so, these are the records, and the Committee is welcome 
to them. Some, perhaps we can share with you at a later date, 
but I wanted to share with you, today, my personal knowledge 
about the inadequacies of the plan. And I thank you very much.
    Senator Dorgan. Congresswoman Waters, we will include--if 
you will provide us with information, we will include relevant 
information in the permanent committee record.
    Senator Dorgan. We appreciate very much your coming over 
from the U.S. House today to provide testimony.
    Thank you.
    Representative Waters. You're welcome. And thank you.
    Senator Dorgan. Thank you very much.
    Representative Waters. You're welcome.
    Senator Dorgan. We have two panels today, and I want to 
mention the first panel. Let me introduce members of the first 
panel: Daryl Johnston, who has been introduced by my colleague 
from Texas, a FOX Sports announcer, former NFL player, Dallas 
Cowboys; Dave Duerson, a player Trustee for the NFL Player 
Retirement Plan, and former NFL player for the Chicago Bears; 
Brent Boyd, former NFL player for the Minnesota Vikings; Bill 
Bain, former NFL Player for the Los Angeles Rams; and Garrett 
Webster, the son of NFL player Mike Webster, of the Pittsburgh 
Steelers.
    My understanding is that we have a number of other retirees 
in the room who have traveled to Washington for the hearing. I 
have the names of at least four of them. Let me mention them. 
If you are in the room, if you would just identify yourself: 
Conrad Dobler--is Conrad Dobler here? Thank you. David Pear, 
Dwight Harrison, and Delvin Williams. Thank you for being here. 
We appreciate your attending the hearing.
    Let us begin with this panel, and let me call on you, Mr. 
Johnston. And let me say that the entire statement that you 
submit will be made a part of the permanent record. I would ask 
that each of you summarize your statements, if you would.

   STATEMENT OF DARYL JOHNSTON, SPORTS BROADCASTER, FOX; AND 
               FORMER NFL PLAYER, DALLAS COWBOYS

    Mr. Johnston. Thank you, Senator Dorgan. Welcome, to all 
the distinguished guests.
    My name is Daryl Johnston. I played 11 years in the NFL for 
the Dallas Cowboys, at the running back position. My career was 
ended prematurely due to a neck injury I suffered in the 
opening game of the 1999 season. I know, firsthand, the 
frustration that many NFL players experience when going through 
the disability process.
    The initial doctor that filed my claim, and the doctor who 
heard my appeal, are designated as neutral physicians, but, in 
reality, are handpicked doctors by the NFL Players Association. 
The Board that denied my claim is selected by NFL ownership and 
the NFL Players Association. Obviously, this is a system that 
is, by design, not interested in assisting the retired player.
    Going through this process, the frustration causes us to 
use such strong words as ``fraud,'' ``corruption,'' 
``cronyism.'' And I don't think that the NFL Retirement Board 
understands that they're not only impacting the player, but the 
families of these players. Divorce is high. People are fighting 
for the custody of their children. I was very fortunate to play 
at a time when the NFL Players Association had regained some of 
their bargaining power and used that in the 1993 collective 
bargaining agreement to implement some plans for current 
players, such as a severance package, a 401(k), a second-career 
savings plan, and 5 years in a COBRA health plan. But none of 
these programs benefit players before 1993. Players such as 
Mike Mosley, who played from 1982 to 1984, who received full 
disability for 6 years, until a doctor, hired by the NFL, ruled 
sedentary work was possible, and, without warning, withdrew his 
payments in 2004. Mike now lives at home with his 75-year-old 
mother, his 14-year-old daughter, and they're asked to survive 
on his mother's $306-per-month Social Security check.
    I also played in an era when player safety was emphasized. 
The artificial surfaces that we played on were much safer than 
those played on the generation previous to me. A gentleman such 
as Conrad Dobler, who spent his entire 10-year career playing 
on an experimental surface, known as Astroturf, that has a 
direct link to the multiple knee and hip replacements he's had. 
In a span of 1 year he had seven surgeries performed, and spent 
nearly 100 days in the hospital last year. He's been denied 
disability multiple times, even though he has been deemed to be 
90 percent disabled.
    During my career, there was also raised awareness about the 
concussion issue and it's impact on NFL players. Stricter 
protocols were put into place, with--about when a player could 
return to the field of play, and, also a whistleblower policy 
was implemented to make sure that these protocols were upheld 
within organizations. This type of policy would have benefited 
Garrett Webster's father, Mike Webster, who, if not the best, 
one of the best centers to ever pay in the NFL. Upon 
retirement, he was impacted by dementia, was homeless, living 
out of his car, and never received a dime of disability from 
the NFL plan.
    The NFL Players Association is trying to make amends. In 
the most recent CBA, they did create a program, that they are 
implementing the ``88 Plan,'' named for Baltimore Colts tight 
end John Mackey. The 88 Plan provides $88,000 a year for 
residential care facility or $54,000 a year for home care, for 
players suffering from dementia, early onset Alzheimer's, as 
John Mackey himself is. However, this is administered as a 
reimbursement plan. Kay Morris, who's the wife of Bears 
linebacker Larry Morris, who played in the late 1950s and early 
1960s, has yet to receive a disability payment off of The 88 
Plan, although she has already incurred $200,000 in medical 
expenses.
    The reason that we have the retirees in the situation that 
they're in right now is that we have no voice and we have no 
bargaining power. And I would like to ask the Senate oversight 
committee to help us find our voice, to help us increase our 
bargaining power, so that we, the retirees, can do the same 
thing that the NFLPA did in the 1993 collective bargaining 
agreement for the current players.
    I also would like to request that this committee call on 
the Government Accountability Office to conduct a study so all 
the data can be known by all the members that will be involved 
in negotiations as we move forward. The NFL, as has been 
mentioned, is a $7 billion-a-year industry. There is too much 
money here for this problem to exist. With the help of all the 
parties involved, Gene Upshaw, Roger Goodell, who will testify 
later, Dave Duerson, who sits to my left, the retired players 
who are in this room, we can fix this problem. The money is 
there to fix this problem. And there is no reason for our 
players to be in the situations that they're in. And, with your 
help, I hope that we can take the first steps in creating a 
disability program that gives NFL retirees a voice and ensures 
that the players who founded this league are no longer 
forgotten.
    Thank you for your time.
    [The prepared statement of Mr. Johnston follows:]

  Prepared Statement of Daryl Johnston, Sports Broadcaster, FOX; and 
                   Former NFL Player, Dallas Cowboys
    Chairman Inouye, Subcommittee Chairman Dorgan, Ranking Member 
Stevens, Subcommittee Ranking Member DeMint, Members of the Committee 
and distinguished guests, my name is Daryl Johnston. I had the 
privilege of playing professional football for the Dallas Cowboys for 
11 years as a Running Back. I was forced to discontinue playing when a 
neck injury sidelined my career. I am here today to help implement 
positive change to the NFL's existing disability system, which is in 
dire need of reform. As a member of a fairly recent generation of 
retirees who ended his career in 1999, I want to assure you that this 
problem is a crucial concern for anyone who has ever played or will 
play professional football.
    Growing up, I knew I always wanted to play football. My heroes were 
Larry Csonka, Rocky Blier, and Roger Staubach because of their 
unwavering courage and love of the game. They played with their hearts, 
they played with passion, and these men were my heroes. As a Pop Warner 
player, I always considered football a contact sport. At the college 
level, my coach taught us football is not a contact sport--that if you 
want a contact sport, then take ballroom dancing. Football is a 
collision sport. I was also taught the difference between pain and 
injury, which are quite different concepts in the world of the NFL. If 
you are not injured, the emphasis is to get back out on the field and 
perform your job. You play through the pain--and thus put yourself at 
greater physical risk for life after football. With the size and speed 
of the players today, and with the nature of new equipment design, the 
collisions have become more violent every year. The severity of 
collisions was evidenced once again just recently when Kevin Everett 
with the Buffalo Bills suffered a catastrophic spinal injury. A career 
ending injury is every player's worst fear when he steps onto a 
football field.
    In the late 1960s and early 1970s, the players competed on a new 
experimental surface called Astroturf. Astroturf basically consisted of 
a thin, carpet-like cushion between the playing surface and the 
concrete. NFL organizations chose to put down a low-maintenance, 
synthetic surface to allow for revenue producing events in their 
stadiums without regard for the damaging effects this hard surface 
would have on the players' bodies. For decades, the NFLPA has knowingly 
misled players to believe that artificial turf posed no more threat to 
injury than natural grass. As a player, one knows and experiences 
firsthand on Monday morning, from the aches, pains, bruises, and 
abrasions that result from playing on an inferior artificial surface 
the day before. And this type of surface is responsible for as many 
concussions--probably more--than the actual collisions you see on the 
field.
    I recently met Conrad Dobler, a 10-year veteran Offensive Lineman 
for the St. Louis Cardinals. He has had multiple knee and hip 
replacements from playing on Astroturf. He has had as many as seven 
surgeries in 1 year, and he's spent nearly 100 days in the hospital 
this past year. He has been denied disability benefits numerous times 
by the NFL Players Union, yet has been told by doctors he is severely 
disabled. He's never received a penny of disability money from the 
union or the league. The NFLPA has nothing in place to take care of 
players suffering these medical challenges from the physical abuse of 
an NFL career. Another issue unaccounted for under the NFLPA's 
disability plans are the degenerative nerve conditions that result from 
the violent collisions associated with the game of football. As a 
player, you always believe the Union will be there for you at the end 
of your career. However, as I learned, that is not the case. The union 
is only obligated to represent and protect active employees--not 
retired players. Therefore, they only focus on the interest of active 
players.
    Highly recognizable players are suffering heart-wrenching setbacks 
and near hopeless predicaments. Mike Mosley, a receiver for the Buffalo 
Bills from 1982-84, experienced knee, neck, and back injuries that 
shortened his career and left him permanently disabled. Mosley played 
20 games in 3 seasons as a wide receiver. He received full disability 
payments for 6 years, and then a doctor assigned by the NFL ruled 
sedentary work was possible so, in 2004, all his disability payments 
were immediately cutoff without warning. He has lost his house, his 
truck, his savings, and his entire quality of life. He's had to move in 
with his 75 year old Mom (living off a $306 social security check), and 
has sole custody of a 14 year old daughter he's trying to raise--for 
whom he cannot even buy clothes. He also has no health insurance and 
cannot afford any medical care. It has ruined his life. In a medical 
emergency, he will no doubt become the responsibility of the state. So, 
much as you and I send tax money that should pay for our schools and 
teachers to build NFL stadiums, we will pay for Mike's care someday 
because the NFL doesn't want to pick up their own check.
    Brian DeMarco, a former offensive lineman for the Jacksonville 
Jaguars and Cincinnati Bengals, is damaged so badly from his 5 years 
playing pro football that he is only a fraction less disabled than a 
quadriplegic at age 35. He has had so many injuries that only people 
who have been in horrendous car crashes might understand--all from 
playing America's favorite sport. DeMarco's career ended amid severe 
health problems after the 1999 season. After 4 attempts over several 
years to navigate the NFL's disability system's red tape, he was unable 
to even get his application process started and be assigned a doctor 
for evaluation--even though his back was broken in 17 places. He's been 
homeless 3 times in the last 4 years, and has lived in storage units 
for 5 months with his wife and 2 children. He has constant pain from 
his crushed spine, numerous physical ailments, and is unable to hold a 
job. This is a man who's given up his quality of life for this sport. 
Because of injuries and runaway medical bills and an inability to work 
or get any kind of health insurance, the once proud and well-off 
DeMarco was as down and out as you can get in this country. The NFL 
Players Association has given him virtually no help. He has called the 
NFLPA over 100 times in the last year but has experienced no success in 
getting a claim opened. At one point, he was actually told that he 
needed to help himself before the NFLPA could help him and he was told 
to get a job and sent bus fare to search for one by an NFLPA 
representative. And, finally, whenever he has had the temerity to raise 
his voice and discuss his problems in public, the NFL's and NFLPA's 
representatives have branded him a fraud.
    The urgency and demand in the NFL to get back on the field creates 
a greater risk. The cumulative effect of multiple surgeries throughout 
your career is damaging to the body. This toughness, a sign of the 
times in that NFL era in the early 1960s explains why Larry Morris, a 
linebacker for the Bears from 1959 to 1965, once returned to action 6 
weeks after knee surgery, removed a cast on his broken thumb during a 
game and played through 4 concussions. After one such knock in the head 
during the 1964 season, the NFL encouraged Larry to ignore dizzy spells 
and ringing in his ears so he could play. Larry is best known for being 
the most valuable player for the Bears in the 1963 NFL Championship 
game. Larry now suffers from dementia at age 73 and cannot be left 
unattended. His healthcare expenses have sapped more than $200,000. His 
wife of 50 years, Kay Morris is still waiting for the full benefits to 
which Larry is entitled under the new ``88 Plan''--named after the 
number of Baltimore Colt great John Mackey--but the award to date is at 
a lower level and administrative difficulties with that Plan have 
prevented her from obtaining adequate support. It has been proven that 
almost all medical claims coming from brain trauma due to concussions 
are denied or only given lesser benefits stating that the injuries and 
mental issues such as depression and early onset dementia cannot be 
proven that they are a direct result of football. (In a recent article 
in the Charlotte Observer, an NFL Plan attorney divulged that there 
have only been four such claims made successfully in the history of the 
Plan--only four concussion cases!) It is difficult for families who are 
technologically challenged and struggling to afford food and healthcare 
to navigate this bureaucratic maze.
    My own career was ended prematurely. I had five remaining years of 
a seven-year contract. I suffered a herniated disk at C-6 and C-7. 
After surgery, I battled my way back onto the field and played 1 year 
and one game. I herniated a disk again at C-5 and C-6. I had an 
agreement with my doctor that, if this happened, I would retire and 
walk away from the game. I chose quality of life with my new family 
moving forward under the impression that the union would provide 
financial assistance in lieu of the money I left on the table with my 
contract. I discovered by going through the NFLPA Disability process 
that this system was put in place to deny claims by former players. The 
only concern that they had was that I could maintain another job--any 
other job--and generate income with no regard to the injuries that were 
a direct result of playing the game of football.
    The doctor I met with is considered a neutral physician but, in 
reality, he was a physician designated by the NFLPA. I was not allowed 
to bring in x-rays, MRI's, and the doctor could not consult with the 
trainers from my team or the doctor who performed my surgery. He denied 
my claim. His only interest was whether I was capable of holding 
another job. He showed little interest in my physical condition and the 
injuries sustained from an 11 year NFL career.
    Upon appeal, to another designated NFLPA physician, my claim was 
denied as I walked into the office. He did not examine me, nor did he 
interview me. My impression was the decision was made long before I 
walked through the door. I am not the first to have experienced this 
routine treatment of injured players. When I talked to other colleagues 
about my case, their instructions to me were to just keep fighting and, 
eventually, I would be accepted. The system has no set standards that 
instill confidence and trust with any player going through the process 
that they will be granted disability benefits.
    Former NFL players are hurting physically, emotionally, and 
financially. There is a tremendous amount of pride in NFL players. We 
don't ask for much but we will beg for nothing. This system forces us 
to beg for benefits that we have earned and to which we are rightfully 
entitled. The League needs to take care of these legendary players who 
made the game of football what it is today.
    The NFL claims to have paid benefits to 284 former players--only 
about 3 or 4 percent of the estimated 7,000 NFL retirees who have 
received disability payments (this is the Plan's own figure; it has 
also used 8,000 in testimony before the House of Representatives and 
9,000 in public statements afterwards, but I'll use the lower number to 
give the most flattering picture of their efforts). A meager 3 or 4 
percent at most who have received disability payments is not nearly 
enough for a game that takes the unique toll on human bodies that 
football does. That this discrepancy should exist in a game that 
realizes over $7 billion in annual revenue is a stain upon the game's 
integrity. The issue of former NFL players' needing financial and 
medical assistance is hardly is a new one. The story of former 
Pittsburgh center Mike Webster, a Hall of Fame player, came to light a 
decade ago. Crippled by the constant banging during his career, Webster 
became homeless. He applied several times for disability, but was 
unanimously turned down each and every time. He died of a heart attack 
in 2002, and his family sued the NFL for benefits the league had denied 
him. They won $1.5 million.
    In recent months the league has taken positive measures to 
acknowledge those realities by implementing ``The 88 Plan'' into the 
most recent labor agreement in honor of former Baltimore Colts tight 
end John Mackey. Like Morris, Mackey suffers from dementia--but on a 
more severe level. The ``88 Plan'' provides up to $88,000 a year for 
families to put toward a residential care facility or up to $54,000 for 
home care. In the case of Kay Morris, Kay doesn't believe a nursing 
home is the best place for her husband, and the $54,000 allotted for 
home care just isn't enough money to pay for nursing help and necessary 
medical attention. This added program is a step in the right direction; 
however, it is not enough. Moreover, since the Mackey Plan is 
administered as a reimbursement plan, many qualifying players do not 
have the front money to participate and obtain care.
    To protect their economic interests, the NFL and the current 
players' union have allowed the Plan's procedures to become an obstacle 
course for former players in order to prevent them from getting 
benefits. They have not published or prescribed rules or standards for 
the determination of benefit eligibility. There are documented cases, 
such as Brent Boyd's, in which the Plan has disregarded the medical 
opinions of its own ``Plan Approved'' doctors when the Board does not 
want to pay benefits. In order to minimize the amount owners must pay, 
the Board denies many former players' claims. This is an inherent 
conflict of interest that favors the owners and active players and has 
led to tragic results for many severely disabled NFL retirees.
    The Retirement Board created a 42-month limit on retroactive 
disability amounts for retired players, which is not only against the 
retired player's best interests but also a direct violation of the 
ERISA law. The imposition of a limitation on the amount a player is 
able to recover reduces the accrued benefit. Degenerative conditions do 
not always show up within 42 months. Therefore, this makes applying for 
this benefit impossible due to the time limitation.
    The NFL Retirement Board, not the NFLPA, determines disability 
claims. Representatives are appointed by the NFL owners and the NFL 
Players Association. There is no one on the board looking out for the 
interests of former players. This six-member board votes unanimously 
almost every time. The Groom law firm who established the pension fund 
in the 1993 Collective Bargaining Agreement also serves as counsel to 
defend the distribution of disability payments. They have earned $3.15 
million for defending claims in the past year--about one-sixth of what 
the Plan says it pays out in disability benefits. This is an obvious 
conflict of interest. The emphasis is only on the current player. The 
players who built the NFL have been left behind.
    The retired player has no voice in the current system. The salaries 
paid to players who built the NFL pale in comparison to the salaries 
the players receive today. The NFLPA, however, continues to focus on 
the current player and his financial stability. In 1993, the Collective 
Bargaining Agreement (CBA) added many new benefits in addition to the 
pension. It added a severance, a 5 year COBRA Health Plan after 
retirement, a 401k Plan, and a second career savings plan--none of 
which was retroactive before 1993 and there had been no changes in 
benefits for the previous twenty-three years.
    Delvin Williams, who played 8 years as a running back in the NFL, 
experienced this firsthand. After 8 years, 6 surgeries, 2 concussions, 
broken ribs, a dislocated thumb, knee and spinal injuries, as well as 
numerous other joint and vertebrae injuries, his professional football 
career ended in 1981, when the Green Bay Packers released him. He was 
one of approximately 285 out of 7,000 retired NFL Players who received 
degenerative disability benefits. However, it did not come without a 
fight and persistence. He started the process in 1983 and was awarded a 
football degenerative disability benefit in July 1995--12 years later! 
In 12 years, he was turned down twice and lost at arbitration before 
being awarded the disability pension benefit.
    The NFL may be concerned about the small number of players who 
might abuse the system, but in ostensibly protecting against this small 
problem, they are turning their backs on literally hundreds of players 
who need assistance. The NFLPA looks at this as protecting themselves 
against a player, however, this is destroying the family unit and 
quality of life--families are divorcing, players are losing custody of 
their children, losing their houses, living in homeless shelters, etc. 
There are lots of players in dire need. They were the foundation of the 
NFL. The league and active players are making millions of dollars. 
These former players are losing their health, homes, and dignity. Even 
the great Johnny Unitas was denied disability.
    The retirement plan has been contorted into a way for the players 
association to aid the active players. They have cut out the retired 
players and diverted this money into new plans for active players. 
Major League Baseball, which draws annual revenues of $4.3 billion, 
pays out an average of $36,700 in benefits to its participating 
players. Compare that to the NFL, which is currently drawing $7.1 
billion in annual revenues, yet its average benefit payout is $13,000. 
This is an incredible injustice.
    These disabled football players helped build the NFL into a multi-
billion dollar industry that continues to grow. Many of these 
individuals are suffering from debilitating injuries, post-traumatic 
stress, and dementia after sacrificing their bodies and minds for the 
League--for the NFL's success. They face mounting medical problems and 
financial hardships and the League must do more to assist them. The 
league has not only forgotten them, but has attempted to strangle their 
quality of life through an unwieldy retirement and disability benefit 
system. This disability plan is grossly inadequate for those who need 
it the most--the former players.
    Why am I here? I am not here to cause controversy, but to affect 
positive change. We want to fix this issue. As Senators, you have the 
ability to make a difference and the power to create change 
immediately. After presentation of these facts, my hopes are high that 
this situation will be resolved. There is an excessive amount of money 
generated by the NFL--the money is there to solve this problem. This is 
a $7 billion dollar industry. Why is it not being funneled into the 
right areas and why is it not being administered to accomplish what it 
was set up to do? I implore you to make educated decisions and take 
care of those retired players--the heroes that have made the game of 
football the number one spectator sport in America. These retired 
players are being denied benefits while the NFL continues to profit off 
their work. These are the giants that helped build the league.
    I am asking the Senate Committee for oversight to ensure the NFLPA 
is working toward correcting the problem in good faith. I would like to 
request the NFLPA be fiscally responsible in paying disability claims. 
Claim information needs to be publicly divulged so all can see the 
record of disability claims that have been paid. A major frustration 
has been the lack of openness on the part of the NFLPA to share the 
financial aspects of the Plan. The Plan completes a valuation once a 
year, which compares the assets to the liabilities for the past year. 
There is nothing confidential or privileged about the information 
included in this report. If copies of this report for the past 5 years 
were made available to retired players, a huge increase in trust could 
be achieved. Why has this not happened before now? This simple request 
for information should be volunteered by the NFLPA with openness as 
evidence of proper administration of the plan.
    What do we hope to accomplish? Our hope is to bring a measure of 
fairness to the relationship between the League and retired disabled 
football players. We would like to rework the structure of the 
disability system. The system must be neutral to all parties. The 
framework must include a designated group of retirees from each decade 
of the NFL in order to provide a voice for forgotten players. The 
voices that need to be heard are those of retired players who are 
suffering medically and financially from the harsh realities of their 
post NFL careers. It is necessary they be voted in by their peers, not 
appointed or hand picked by the NFL Committee. The league needs to take 
a hard look at doing more for veteran players, and address the core 
issue of overhauling the current disability system. My goal is to help 
create a system that addresses the needs of former players that are in 
dire straights because of the injuries they suffered as a direct result 
of playing professional football. There are unique circumstances to 
some of these individuals that the system must account for and take 
into consideration. The retired players from the previous era must be 
provided a voice as the NFL moves forward.
    Roger Goodell, the Commissioner of the NFL is forming its first 
alliance to improve medical services for ailing retired players. As a 
form of recognition that a serious problem exists, this is a step in 
the right direction, but the alliance was devised and announced without 
gaining sufficient input from advocates who have represented the 
interests of retirees for years. A better negotiation process would 
have produced a better alliance. To his credit, Mr. Goodell is cleaning 
up the NFL regarding the actions of certain contemporary players, but 
now he needs to restore the dignity of the Players who built this 
league, which has been robbed from many of them by the disability 
process. According to the Integrity Clause of the NFL, ``The 
Commissioner is in charge of the integrity of the game, its management 
and its players.'' Webster defines the term ``integrity'' as ``a noun . 
. . [that] means honesty. . . . A trustworthiness and incorruptibility 
to the degree that one is incapable of being false to an agreement, 
contract, responsibility or pledge.'' We have an ethical and fiduciary 
responsibility to the Public--the people who drive the ``engine of 
success'' of the NFL. The fans and retired players are counting on the 
Commissioner and the Senate to be truthful and honest, and to make a 
difference in the lives of these broken heroes and past football giants 
that made football the number one spectator sport in America.

    Senator Dorgan. Mr. Johnson, thank you very much.
    Next, we'll hear from Mr. Dave Duerson, the player Trustee 
for the NFL `Player Retirement Plan, and former NFL player for 
the Chicago Bears.
    Mr. Duerson?

 STATEMENT OF DAVE R. DUERSON, TRUSTEE, BERT BELL/PETE ROZELLE 
  NFL PLAYER RETIREMENT PLAN; AND FORMER NFL PLAYER, CHICAGO 
         BEARS, NEW YORK GIANTS, AND PHOENIX CARDINALS

    Mr. Duerson. Mr. Chairman, it's a pleasure to be here. It's 
been quite some time since I've walked these halls, back as a 
summer intern in 1982, for Senator Dick Lugar. So, please say 
hello for me to him.
    But, to you, Chairman and the members of the Committee, I'm 
David R. Duerson, an 11-year retired NFL veteran. It is my 
privilege to serve as a trustee of the collectively bargained 
plans covering NFL players.
    I was born in Muncie, Indiana, in 1960, to Julian Arthur 
Duerson, Jr. My parents were married for 59 years, until my 
mother's death, almost 4 years ago. My father is my hero. He 
has two Bronze Stars from World War II, having fought in the 
European theater, yet the medal he is most proud of is his 
Medal of Conduct. He also believes that every male child should 
serve 2 years in the armed services. My dad spent 38 years with 
General Motors, and was an active member in the UAW. I stood 
alongside of him, as a very small child, on many picket lines, 
and I can still remember the day, in 1974, that we became a 
two-car, and then a three-car, family. I asked my dad, ``What 
changed?'' And he said that GM had just given him the job, in 
1974, that he was qualified to do in 1945, upon returning from 
the war. My dad also told me that he was not raising any 
average kids. God, integrity, and education forms the 
foundation from which the Duerson name is built upon.
    I attended the University of Notre Dame on a football/
baseball scholarship, graduating in May 1983 with a BA in 
economics. I was a 4-year starter, two-time All-American 
captain, Most Valuable Player, and was drafted by the Bears in 
1983 as the 64th player overall. I also graduated from 
McDonald's Hamburger University and Harvard Business School's 
Owner/Presidents Management Program.
    Since retiring from the NFL, I have owned three McDonald's 
restaurants and two world-class meat processing companies. My 
first company ranked as high as the 44th largest African-
American-owned and -operated business in the United States, 
with 2001 revenue in excess of $63 million.
    I had an extremely blessed NFL career, which included four 
consecutive Pro Bowls, two World Championships, 1987 NFL Man of 
the Year, and 1988 NFLPA Humanitarian of the Year. My service 
to the NFLPA has been uninterrupted since the end of my rookie 
year, when I was voted assistant player representative, until 
today, as a trustee. I represented both the Bears and the 
Giants as player rep, and the Arizona Cardinals as rep, and as 
a member of the NFLPA Executive Committee. I was also a named 
plaintiff in the Federal lawsuit which brought free agency to 
the NFL in 1993, along with Reggie White, Michael Buck, Hardy 
Nickerson, and Van McElroy.
    I personally observed Gene Upshaw and his staff take our 
union from insolvency to an organization with a for-profit wing 
that generates millions of dollars for the players. I also 
watched them take us through decertification and 
recertification of the exact same union, the first time in the 
history of organized labor that that occurred. It was Gene who 
coined the phrase, ``Past, Present, Future.'' The focus has 
always been on honoring those players who played before us. I'm 
very proud of the role my teammates had in leading the strike. 
The union meeting to strike was held in Chicago. I will never 
forget the comment that our head coach, Mike Ditka, made when 
we returned to work. During the strike, the league brought in 
replacement players. Mike kept four of those replacement 
players, and he told all of us that, ``Those guys, the four 
SCAB players, are the real Bears.'' Mike's comments furthered 
my resolve, which ultimately led to my role as a plaintiff in 
U.S. District Court.
    Fighting for players' rights became a passion for me, and 
it's even stronger today. I was honored when I received an 
invitation, upon retiring from the NFL, to become alternate 
trustee of the players' plans, to serve alongside of Tom 
Condon, Jeff Van Note, and the late great Len Teeuws. Each man 
has operated with absolute integrity and with great resolve in 
carrying out their fiduciary responsibility.
    Our meetings with the NFL trustees have oftentimes been 
spirited, and, on occasion, contentious, but always with both 
sides operating within ERISA guidelines. In all cases, Federal 
law requires us to follow the terms of the plan, which states 
that if an individual is, quote, ``employable,'' he does not 
qualify for total and permanent disability. That is not an 
arbitrary decision being made on the part of the board. It is 
the law.
    1993 was a pivotal year in regards to player salaries and 
benefits as a result of collective bargaining in Dallas, Texas, 
and a new collective bargaining agreement was agreed to. In 
that same meeting, the Executive Committee moved to create a 
pension benefit for the pre-'59ers, those men who played prior 
to the creation of benefits. We got there with Mike Kenn as 
President and an 11-member Executive Committee, and a few 
strong player reps who wouldn't bend. Since 1993, with every 
negotiation and extension, the players have reached back to 
fund increases and pass players benefits.
    Can the process be improved? Absolutely. Can the process be 
sped up? It must be. But, remember, we are bound by Federal law 
and the terms of the plan. Can more be placed into the coffers 
for disability benefits? Again, absolutely. But those decisions 
are made by the current players, who, by the way, are putting 6 
percent of their collectively negotiated package into total 
benefits. That's $82,000 per player per year, that comes 
directly from additional salary they would realize, that's 
going into benefits to the benefit of retired players.
    Gene and his staff have done yeomen's work on more than one 
occasion. I pay tribute to all of those players who, over the 
years, sacrificed time with family--and, oftentimes, careers--
to join in this fight. I can personally recall numerous men who 
lost their jobs because of their union involvement. Today, we 
are as close to labor peace as we've ever been, but the day is 
coming when the agreement will run out, and a system very much 
like pre-1993 becomes a possibility again, with salaries being 
set and no free agency. I can uniquely relate to the players, 
both current and retired, as well as management, since I had as 
many as 252 employees. I paid their benefits out of my pocket. 
And I can also relate to the players, who are feeling a 
significant financial crunch, as I lost my business in 2006 to 
receivership due to a cash-flow challenge associated with a 
late startup after construction. I won a Federal lawsuit in 
October 2004, for $34.592 million, but, because the company is 
based in the Netherlands, I have been unable to secure any of 
the individuals' assets, as of yet, but I will. It has cost me 
my business and my home, and I'm exhausting assets as I speak. 
But God has been good, and he has been good to those men who 
take issue with where they find themselves today.
    This, Capitol Hill, is not the proper venue for this 
discussion of, How do we improve disability benefits? I am a 
retired player, and every man playing today will very soon join 
our ranks. The place for this discussion is at the annual 
player rep meeting. Retired players need to be there, 300 
strong. It's there that the decisions are made, and it's there 
that our voice will be heard, and influence felt. Eight men 
thoroughly immersed in a truly united spirit are far greater 
assets than 80 with lukewarm enthusiasm.
    The game is better than it has ever been, and the players 
are compensated at unprecedented levels. I didn't realize the 
impact of it, but one of my sons might, or their children, when 
they have them. I'm excited about what we've accomplished so 
far, and it's been a very fair life.
    I thank you. God bless you.
    [The prepared statement of Mr. Duerson follows:]

Prepared Statement of Dave R. Duerson, Trustee, Bert Bell/Pete Rozelle 
 NFL Player Retirement Plan; and Former NFL Player, Chicago Bears, New 
                   York Giants, and Phoenix Cardinals
    Chairman Dorgan and Members of the Committee, I am David R. 
Duerson, an 11-year retired NFL Veteran. It is my privilege to serve as 
a Trustee of the collectively bargaining plans covering NFL players.
     I was born in Muncie, IN, in 1960, to Arthur and Julia Duerson, 
Jr. My parents were married for 59 years, until my mother's death, of 
almost 4 years. My father is my hero! He has 2 Bronze Stars from WWII, 
having fought in The European Theatre, yet the medal he is most proud 
of is his Medal of Conduct! He also believes that every male child 
should do 2 years in The Armed Services! My dad spent 38 years with 
General Motors, and was an active member in The UAW. I stood along side 
of him, as a very small child, on many picket lines. I can still 
remember the day, in 1974, that we became a 2-car, and then 3-car 
family. I asked my dad ``what changed?'', and he said that GM had just 
given him the job in 1974 that he was qualified to do in 1945, upon 
returning from the War. My dad also told me that he was not raising any 
``average kids!'' He proved it to me, by taking Baseball (my best 
sport) away from me one summer, because I brought home less than 
acceptable grades! GOD, Integrity, and Education forms the foundation 
from which the Duerson name is built upon.
    I attended The University of Notre Dame (1979-1983) on a Football/
Baseball Scholarship, graduating in May 1983 with a B.A. in Economics. 
I was a 4-year starter, 2-time All-American, Captain and MVP of The 
Fighting Irish, and was drafted by The Bears in 1983, as the 64th 
player overall. I also graduated from McDonald's Hamburger University 
in 1994, and am an Alum of Harvard Business School's Owner/President/
Management Program (OPM30), finishing in May 2001.
    Since retiring from NFL football in April 1994, I have been in the 
private sector. While finishing my career in Phoenix, with The 
Cardinals, I would play on Sunday and be behind a McDonald's counter on 
Monday and Tuesday . . . which ultimately led to my having 3 McDonald's 
restaurants in Louisville, KY for 6 months, before moving to the 
supply-side. From April 1995-December 2006 I owned 2 world-class, 1st-
tier meat processing companies, serving internationally the likes of 
McDonald's, Burger King, The Olive Garden, and Sara Lee, as well as, 
The USDA's National School Lunch Program and military bases throughout 
The European Theatre, and others. In 1998-99, we were the 44th largest 
African-American owned and operated company in The United States. Our 
2002 revenue was in excess of $63M.
    I had an extremely blessed NFL career, which included: 4 
consecutive Pro Bowls, All-Pro 3-times as a Strong Safety and once as a 
Free Safety, 2 World Championships (Chicago Bears SB XX, and NY Giants 
SB XXV), 1987 NFL Man Of The Year and 1988 NFLPA Humanitarian Of the 
Year. My service to The NFLPA has been uninterrupted, since the end of 
my rookie year (1983) with The Bears, when I was voted Assistant Player 
Representative, until today as a Trustee. I represented both The Bears 
and The Giants in the role of Player Rep and The Arizona Cardinals as 
Rep and as a member of The NFLPA Executive Committee. I was also a 
named plaintiff, in The Federal Lawsuit which brought Free Agency to 
The NFL, in 1993, along with Reggie White, Michael Buck, Hardy 
Nickerson, and Van McElroy.
    I personally observed Gene Upshaw and his staff take our union from 
insolvency to an organization with a For-Profit wing that generates 
millions of dollars for the players. I also watched him take us through 
Decertification and Recertification (of the exact same union) . . . the 
first time in the history of Organized Labor that that occurred! It was 
I who moved to give Gene and his staff a Vote Of Confidence . . . it 
was unanimous! I also recall during those lean years the number of 
times that Gene and his staff would not cash their pay cheques, because 
there was not enough money to pay them . . . they kept their cheques in 
their desk drawers! It was Gene who coined the phrase, our motto and 
mission statement: ``Past, Present, Future!'' The focus has always been 
on honoring those players, who played before us!
    I became team Player Rep in 1987, the year of our strike. I am very 
proud of the role my teammates had in leading the strike, and we were 
the last group of men to return to the practice field, when the strike 
was called off, and no one crossed the picket line! The union meeting 
to strike was held in Chicago. I will never forget the comment that our 
Head Coach, Mike Ditka, made when we returned for our first meeting. As 
a result of the strike, The League brought in replacement players 
(SCABS) who played (3) games in place of the striking players. Mike 
kept 4 of those replacement players, when we returned, and he told all 
of us that ``Those guys (the 4 SCAB players) are THE REAL BEARS!'' 
Mike's comments furthered my resolve, which ultimately led to my role 
as a plaintiff in U.S. District Court. It stung my conscience, as much 
as my dad's comments regarding GM and the 29 years it took them to give 
him the job he was qualified to do in 1945. And also of my first 
meeting with Buddy Ryan, my rookie year, who asked me: ``Golden Domer, 
you one of those doctors or lawyers?'' I said ``yes sir!'' He said 
``well, you won't be here too long, because I don't like smart 
Niggas!'' I called my dad and told him that ``I didn't graduate from 
college to go through this!!!'' My dad said: ``It sounds to me like 
you're in The Army!'' It was a very short phone call. From that, I 
learned to persevere.
    Fighting for players' rights became a passion for me and it's even 
stronger today. I was honored when I received an invitation, upon 
retiring from the NFL, to become Alternate Trustee of the player plans, 
to serve along side of Tom Condon, Jeff Van Note, and the late great 
Len Teeuws. Each man has operated with absolute integrity and with 
great resolve, in carrying out their fiduciary responsibility. In fact, 
during the years that we played without a union representing us, those 
men were totally naked, in terms of liability, without any financial 
backing from the players, had a suit arisen!!!
    I recall receiving my first set of documents with players' 
applications and renewals, with all of their medical records, and 
turning to my wife and saying: ``I now know far more than I care to 
know about these men and their financial & family situations.'' Our 
meetings with the NFL Trustees have oftentimes been spirited and on 
occasion contentious, but always with both sides operating within ERISA 
Guidelines. I can say, without question, that Tom, Jeff, Len, and I 
have fought for every individual player who has filed an application 
for benefits. Len was a tireless champion for the men who served in The 
Armed Services, to get accredited seasons for them, during those years 
when they were serving our country. In replacing Len, as a full 
trustee, upon his retirement, I have continued that fight. Trace 
Armstrong now serves as the Alternate. We are even more diligent in our 
efforts to gain benefits for any and all players who are deemed totally 
& permanently disabled! In all cases, Federal law requires us to follow 
the terms of the Plan, which states that if an individual is 
``employable'', he does not qualify for total and permanent disability. 
That is not an arbitrary decision being made on the part of the Board. 
. . . It Is The Law!
    1993 was a pivotal year, in regards to player salaries and 
benefits. As a result of collective bargaining, in Dallas, TX, a new 
CBA was agreed to. The very first thing negotiated was Benefits, and I 
immediately left the room to go and call Daryl Stingley to let him know 
that his benefits were tripling! In that same meeting, the Executive 
Committee moved to create a Pension Benefit for The Pre-59'ers . . . 
those men who played prior to the creation of benefits, who had not 
received one from the guys who came after them. We got there with Mike 
Kenn as President and an 11-membered Executive Committee, and a few 
strong player reps who wouldn't bend! Since 1993, every negotiation and 
extension of the current agreement, the players have reached back (out 
of their pockets to the tune of $82K per year, per player this year) to 
fund increases in PAST PLAYER'S BENEFITS!
    Can the process be improved? Absolutely! Can the process be sped 
up? It must be! But remember, we are bound by Federal law and the terms 
of the Plan, and quite frankly, the only reason the players have a seat 
on the Board is because it was collectively bargained . . . just as 
with my companies, I as management could run the benefit portion 
without employee input! Can more be placed into the coffers for 
Disability Benefits? Absolutely! But, those decisions are made by the 
current players who, by the way, are putting 6 percent of their 
collectively negotiated package into total benefits. That $82K per 
player per year comes directly from additional salary they could 
realize!
    I have seen our benefit numbers grow from under $7M to over $2.5B, 
since the year I became a rep. Gene and his staff have done yeoman's 
work, on more than one occasion. I pay tribute to all of those player 
reps, who over the years, sacrificed time with family and oftentimes, 
careers, to join in this fight. I can personally recall numerous men 
who lost their jobs because of their union involvement. Today, we are 
as close to labor peace as we've ever been. . . . The ``Poison Pill'' 
at the end of the agreement, placed their by The Special Magistrate is 
responsible for that. The day is coming when the agreement WILL run 
out, and a system very much like pre-1993 becomes a possibility, again, 
with salaries being set and no Free Agency. On that day, benefits will 
be frozen or simply taken away.
    I can uniquely relate to the players, both current and retired, as 
well as, management, since I had as many as 252 employees . . . I paid 
their benefits out of my pocket. I can also relate to the players who 
are feeling a significant financial crunch, as I lost my business in 
2006 to receivership, due to cash-flow challenges, associated with a 
late startup, after construction. I won a Federal Lawsuit in October 
2004 for $34.592M, but because the company is based in The Netherlands, 
I have been unable to secure any of the individual's assets, as of yet, 
but I will. The Hedge Fund wasn't concerned with my challenge, nor my 
family's. It has cost me my business and my home, and I'm exhausting 
assets as I speak. But, GOD has been good, and HE has been good to 
those men who take issue with where they find themselves today.
    I have had some great coaches: Terry Hitchcock, Dan Devine, Jim 
Johnson, Mike Ditka, Buddy Ryan, Bill Parcells, and Bill Bellichek. 
I've had and have great mentors and known great leaders.
    This (Capitol Hill) is not the proper venue for this discussion, of 
how do we improve disability benefits. I am a retired player, and every 
man playing today will very soon join our ranks. The place for this 
discussion is with the current players, at their Annual Player Rep 
Meeting, in March. Retired Players need to go there 300+ strong! It's 
there that the decisions are made, and it's there that our voice will 
be heard and influence felt! ``Eight men thoroughly immersed in true 
unionized spirit are far greater assets, than eighty, with lukewarm 
enthusiasm!''
    The game is better than it has ever been, and the players are 
compensated at unprecedented levels. Salaries and benefits skyrocketed 
as a result of Reggie White, Michael Buck, Hardy Nickerson, Van 
McElroy, and myself, and others. I didn't realize the impact of it, but 
one of my sons might, or their children (when they have them). I'm 
excited about what we've accomplished so far and it's been a very fair 
life.
    Thank you. GOD Bless You!

    Senator Dorgan. Mr. Duerson, thank you very much. As you 
know, we have arranged the sounds of a carpenter as 
accompaniment for your testimony. We apologize for that. But--
see if we can stop it. Thank you for your statement.
    Mr. Bill Bain is a former NFL player for the Los Angeles 
Rams.
    Mr. Bain, you may proceed.

           STATEMENT OF BILL BAIN, FORMER NFL PLAYER,

  LOS ANGELES RAMS, GREEN BAY PACKERS, NEW ENGLAND PATRIOTS, 
                 DENVER BRONCOS, NEW YORK JETS

    Mr. Bain. Good morning, Mr. Chairman, Senators, and members 
of the Committee.
    My name is Bill Bain. I am happy to be here in support of 
the NFLPA. I played 12 years in the NFL, most of them on 
running teams. It was my pleasure to spend 8 years with the 
L.A. Rams. I got to play with Hall of Famers Jack Youngblood, 
Jackie Slater, and Eric Dickerson. In 1983, Eric set the rookie 
record, which still stands after 24 years. In 1984, Eric set 
the NFL rushing record, which still stands after 23 years. I 
was very proud to be part of that L.A. Ram offensive line.
    Now, as I stated before, I've been on running teams most of 
my career. The injuries I have received can best be described 
by an equation developed by a physicist that says, ``Two 280-
pound linemen hitting head-on 60 times a game is the equivalent 
to two cars hitting head-on at 40 miles an hour.'' On running 
teams, you practice run-blocking on Wednesday, Thursday, and 
Sunday. By doing so over 12 years, I developed a condition 
called venous insufficiency in both legs. That means that the 
veins have collapsed, making it difficult for blood to return--
back up to my heart. It just pools into my feet, in my legs. My 
legs, from my calf down, are the color of this tie. After 
retiring, in 1987, I could not use my college degree to help my 
family, because the employers that wanted to hire me were 
afraid that my medical conditions would increase the future 
medical insurance premiums beyond their acceptable levels. It 
was then that I was forced to take various physically demanding 
jobs to help my family out. This deteriorated my legs even 
further, causing ulcers, which would ooze and bleed and take 4 
to 6 months to heal. An ulcer can best be described as a worm 
in an apple, with stuff oozing out of it.
    In 1993, I received two letters from the NFL Players 
Benefits Office advising me of a financial condition of two 
funds that were negotiated by the NFLPA in the most recent CBA, 
which was negotiated after I had retired. I called the NFL 
office. My call was directed to Miki Yaris-Davis. And she is a 
godsend. Anyway, she explained to me what the two programs 
were. I got off the phone, explained what the two programs were 
to my wife. She--we both looked at each other and, kind of, 
laughed. And she said, ``You can easily qualify for this.''
    I called the NFLPA and requested a physical exam. A form 
was sent to me immediately. I had a doctor's appointment made. 
However, when I got to that doctor's appointment, unbeknownst 
to me, I needed to pay $300 up front for the exam. The doctor 
would not see me. Finally, on September 15, 1996, 2 years 9 
months after receiving the two letters, I was able to save up 
$300 to pay the up- front fee for the physical and take the 
examination. On January 16, the Retirement Board met, and on 
January 18th I received a letter of denial. The letter stated 
that Dr. Schultz did not consider me permanently damaged goods.
    Between January 19 and March 15, I started the appeal 
process. I collected letters from two workman's comp attorneys, 
three physicians, and two personal friends, all who have known 
me well and had followed my career. One of the attorneys was 
Mike Bagby. Mike's a great friend. Mike Bagby is a lawyer, and 
he has associates, and they specialize in workman's comp 
attorney law for the employer; and he's out of Santa Ana, 
California. Mike read Dr. Schultz's report and asked me if I 
had a surgically repaired scar on my right knee. My answer was 
no, it's on my left knee. Then Mike asked me how come there was 
no reference to the venous insufficiency? And I answered, 
``Mike, because he didn't ask me to take my socks off.'' I 
presented these letters to the board on April 24, 1997. I had 
my appeal hearing. It ended at a 3-3 tie. And that's a good 
thing--it's three players and three owners--it was a good 
thing, because, with that decision as a tie, I get to go see a 
MAP doctor. ``MAP,'' meaning Medical Advisory Physician.
    On May 28, 1997, I was examined by Dr. Tiboni. Thank God I 
took my wife with me, who's an RN. During the exam, Dr. Tiboni 
stated, ``You're kinda messed up, but not so badly that you 
should receive disability.'' That's when my wife said--as I 
said, ``She's an RN''--that's when my wife said, ``Bill, take 
down your socks.'' Well, Dr. Tiboni--looked--he just went like 
that, a look of complete astonishment. Dr. Tiboni examined my 
feet and my legs for the next 10 minutes, and then said, 
``Congratulations, you've flunked your physical.'' This is a 
good thing.
    On July 23, the Board granted my appeal for total and 
permanent disability benefits. On August 15, 1997, the Feast of 
the Assumption, I received my first check. During that tough, 
long year process, I wanted to quit several times, but due to 
the support of the NFLPA and Miki Yaris-Davis, I didn't.
    In closing, I want to say that, without the NFLPA's 
efforts, I'd be upside down. Without the Federal Social 
Security disability benefits, I'd be inside out. Without my 
wife and her job and the medical benefits her job provides, I 
don't know where I would be, my four daughters would be, my 
whole family would be. I thank the NFLPA so very much for all 
their help, because they stuck by me.
    Thank you very much.
    Senator Dorgan. Mr. Bain, thank you very much for being 
with us and sharing that story and your testimony.
    Next, we'll hear from Mr. Garrett Webster, the son of NFL 
player Mike Webster, from the Pittsburgh Steelers.
    Mr. Webster, you may proceed.

       STATEMENT OF GARRETT WEBSTER, SON OF MIKE WEBSTER,

          FORMER NFL PLAYER, PITTSBURGH STEELERS AND 
                       KANSAS CITY CHIEFS

    Mr. Webster. Thank you, Senator.
    Ladies and gentlemen, before I begin my testimony, I would 
just like to express my gratitude for being included in today's 
proceedings. I am humbled to be here today in the capital of 
the greatest country in the world and to share the story of a 
great football player and a great man who was abandoned by the 
League he helped build.
    Today, you will hear firsthand from former players about 
what it's like to try and obtain disabilities from the NFL. You 
will hear what it's like to be in constant pain. You will hear 
what it is like to fear the loss of your mind, body, and 
perhaps even your very soul while you are still relatively 
young.
    But that's not my story. I cannot tell you what it's like 
to wake up and not be able to walk out--walk to the shower 
without being in constant pain. I cannot tell you what it's 
like to fear the loss of your mind and then to feel it actually 
happening. I cannot tell you what it's like to become a 
stranger even to yourself.
    However, what I can tell you, and what I will tell you, is 
what it's like to stand by, helpless, as your father's life is 
turned into a constant living hell that most people would take 
their own lives to escape from.
    My father was Iron Mike Webster. He played 17 years and was 
perhaps the most widely respect player in the League during 
that time period. For--he was mainly respected for his work 
ethic and his devotion to his city and his team, the Pittsburgh 
Steelers. He was the Steeler the fans viewed as one of their 
own, a blue-collar man who would dedicate countless hours to 
help raising millions of dollars for spina bifida, who would 
stay long after autograph shows so everyone got their souvenir 
signed, who greeted everyone with a handshake from those 
massive hands, and made them feel like they were a personal 
friend. Ask all of these people who Mike Webster was, and they 
will tell you he is the definition of an all-time great.
    I am proud of my father, and, as all sons are, I think my 
dad was the greatest dad in the world. When I was young, I 
remember my dad wrestling with my brother Colin and I in the 
pool, chasing robins with my sisters, Brooke and Hillary, out 
in our front yard, and reading stories into a tape recorder so 
we could hear his voice while he was on long road trips. My 
mother, who could not be here today, remembers my dad as a good 
father and husband, who could remember the street layouts of 
Chicago after taking one look at a map, and a man who would 
play practical jokes on the neighbors, not limited to putting a 
few rubber snakes in Mrs. Gregg's mailbox.
    But, as I grew older and I grew more and more aware of my 
dad and his condition, I knew that the Mike Webster that I grew 
up and loved was dying. I remember the day that I knew 
something was wrong, when, on my 10th birthday, my dad was 
nowhere to be found. I didn't even receive a phone call, which 
was not like him, because he would usually call me every single 
night before I went to sleep, and call me his ``Little Buddy.''
    Later that month, I found out why, when our family 
discovered Iron Mike Webster, bloated to over 300 pounds, 
shivering naked in a bed in a rat-infested motel, and, at his 
side were not pictures of his kids, nor his Super Bowl rings, 
nor autographs or any glory that you associate with football, 
but a bucket of human waste, because he was too weak to make it 
to the bathroom.
    As time passed, my dad's condition only got worse. I have 
lived through things I would not wish on my worst enemy. Have 
any of you people around here had to shock your own father with 
a taser so he could go a few minutes without pain? Have any of 
you had to receive a phone call from your father telling you he 
was about to kill himself so he could get away from it all? 
Have any of you had to witness a once-proud, strong man as Mike 
Webster, have to beg for KFC and perhaps offer autographs just 
so he could eat something? Well, I have. And I cannot forget 
those experiences.
    My father is gone now. I cannot help him. But I can do what 
he would do for his teammates and fellow football players if he 
were here, healthy, and the man that he was before the repeated 
head injuries suffered on the football field took his mind and 
body from him at an early age, and took him from me far too 
soon.
    What I'm asking is that the NFL Players Union and the 
National Football League, as a whole, look beyond the bottom 
line and help the past, present, and future gladiators, in 
every way that they can, to find peace, self respect, and a 
measure of health when their very short time in the game is 
over, and they don't end up relieving themselves in the oven 
as--in a flash of dementia, as my father once did. Believe me, 
there are millions of kids who play this beautiful game of 
football and have no idea of the risks. I'm calling on the 
League, the Players Union, the Commissioner, the retired 
players, and the U.S. Government to put aside egos and hurt 
feelings and work in a way to educate people about the health 
risks involved with playing the game, and to take care of those 
athletes who got hurt while playing it in a fair and balanced 
way, whether it be with healthcare, social workers, insurance, 
or whatever can be provided by a multibillion-dollar 
corporation.
    A final plea, I will make to you, Commissioner Roger 
Goodell. I personally think that you're a good man who wants to 
promote positive change in today's game. You have shown good 
leadership with things, such as making sure the NFL players are 
accountable when they break the law, so they are good role 
models for kids today. I am making a plea to you, not as the 
son of Mike Webster, not as a 23-year-old kid who has lost his 
best friend and father, but as a young man who desperately 
wants no one to ever feel the pain that I feel every morning, 
to feel the loneliness that I feel when I have to turn to my 
father for advice and he is not there, to feel the heartbreak 
that I feel when I hear about Chris Benoit, Andre Waters, 
Reggie White, Justin Strzelczyk, and the web of people 
connected to them that have had brain injuries, and those brain 
injuries have destroyed their lives by repeated concussions and 
head--other head injuries. I ask you, Mr. Goodell, to use your 
position as NFL Commissioner, to lead the charge to educate the 
public about brain injuries and show them how to rehab and take 
care of those injuries, and take care of people that are slowly 
becoming a stranger to themselves and those around them. I 
pledge to offer whatever help I can, and support. My father 
would like that, I know. I would give my life to never see 
another family end up like mine. I am ready to help. Please 
join me.
    Ladies and gentlemen of the Senate, I thank you for your 
time.
    [The prepared statement of Mr. Webster follows:]

Prepared Statement of Garrett Webster, Son of Mike Webster, Former NFL 
           Player, Pittsburgh Steelers and Kansas City Chiefs
    The following people all helped Mr. Mike Webster in his final 
years, and I would like to include their names on this document----

        Bob Fitzsimmons
        Sunny Jani
        Devin Jani
        Alexis Jani
        Dr. Charles Kelly
        Dr. Jim Vodvarka
        Freddy Shaheen
        Sam Nuci
        Terry Despoy
        Cy Smith
        Pamela Webster
        Brooke Webster
        Colin Webster
        Garrett Webster
        And the entire Pittsburgh Steelers Family.

    Ladies and gentleman, before I begin my testimony, I would like to 
express my gratitude for being included in today's proceedings. I am 
humbled to be able to appear here today, in the capitol of the greatest 
country in the world, to share the story of a great football player and 
a great man who was abandoned by the league he helped build.
    Because I am proud of the way my father lived and still agonized at 
the way he died, I may struggle in my oral presentation of this 
testimony against being inappropriate. I hope I am at my best for you 
Members of the Committee who have kindly taken oversight of the great 
injustices of the NFL's disability system, and for the men who have 
suffered, and who continue to suffer, under it. I know that, for their 
sake and for the memory of my father, whom I represent today, that I 
must try to put hurt feelings aside and coolly expose the deceptions in 
that system that will rob other children of fathers, mothers of sons, 
and wives of husbands if it is allowed to continue. I ask you to listen 
with open hearts and open minds with concern not for icons, superstars, 
quarterbacks, lineman, or football players, but for your fellow human 
beings. In return, I will try to be as brave before my task as my 
father was in life.
    Today you will hear, first hand, from former players about what 
it's like to try and obtain relief for their disabilities from the NFL. 
You will hear what its like to be in constant pain. You will hear what 
its like to fear the loss of your mind, body, and perhaps even your 
very soul while you are still relatively young. But that is not my 
story. I cannot tell you what its like to wake up and not be able to 
walk to the shower without being in constant pain. I cannot tell you 
what its like to fear the loss of your mind and to feel it actually 
happening. I cannot tell you what its like to become a stranger even to 
yourself. However what I can tell you, and what I will tell you, is 
what its like to stand by, helpless, as your father's life is turned 
into a constant living hell that most people would take their own lives 
to escape.
    My father was Iron Mike Webster. He played 17 years and was perhaps 
the most widely respected player in the league during the 1970s and 80s 
for his strength, for his work ethic, and for his devotion to his team, 
the Pittsburgh Steelers. He was the Steeler the fans viewed as one of 
them--a regular man who dedicated hundreds of hours to helping raise 
millions of dollars for spina bifida, who would stay long after 
autograph shows so everyone got a souvenir signed, who greeted everyone 
with a handshake from those massive hands and made them feel like they 
where a personal friend. Ask all of these people who Mike Webster was 
and they will tell you that he is the definition of an all time great.
     I would love to tell you that Iron Mike Webster lived out his 
remaining years, a proud man, sharp as a tack, humorous, warm, and 
caring, a wonderful husband and father. But I cannot lie and, because I 
care about my Dad's memory and I care about the people that are here 
today who are suffering under the same system that failed him so 
miserably, I must try to tell the truth as I saw it, through the eyes 
of a surviving son.
    I'm proud of my father, and as all sons are, I think my dad was the 
greatest dad in the world. When I was young, I remember my dad 
wrestling with my brother Colin and I in the pool, chasing robins with 
my sisters Brooke and Hillary in our front yard and reading stories 
into a tape recorder so we could hear his voice when he was away on 
road trips. My Mother, who could not be here today, remembers my dad as 
a good father and husband who could remember the street layouts of 
Chicago after taking one look at a map, and who would play practical 
jokes on the neighbors, not limited to putting a few rubber snakes in 
Mrs. Gregg's mailbox.
    But, as I grew older, I grew more and more aware that the Mike 
Webster I knew was dying. I remember the day I knew something was wrong 
when, on my 10th birthday, my dad was nowhere to be found. I didn't 
even receive a phone call, which was not like him. Later that month I 
found out why, when our family discovered ``Iron Mike'' bloated to over 
300 pounds, shivering in a bed at a rat infested motel. At his side 
were not pictures of his kids, nor his super bowl rings, but a bucket 
of human waste because he was too weak to make it to the bathroom.
    As time passed, my dad's condition only got worse. I have lived 
through things I would not wish on my worst enemy. Have any of you had 
to shock a family member with a tazer so he could be without pain for a 
few moments, have any of you, at the age of 13, received a phone call 
from your father in which he tells you he is about to kill himself? 
Have any of you witnessed a once strong, proud man, reduce himself to 
begging for Kentucky Fried Chicken? I hope not. I have and I cannot 
forget.
    My father is gone, now. I cannot help him. But I can do what he 
would do for his teammates and fellow football players if he were here, 
and healthy, and the man he was before repeated head injuries suffered 
on the football field took his mind and body from him at an early age, 
and took him from me far too soon. What I'm asking is that the NFL 
Players Union and the National Football League as a whole look beyond 
the bottom line and help the modern day gladiators in every way they 
can to find peace, self respect and a measure of health when there very 
short time in the game is over so they don't end up relieving 
themselves in an oven in a flash of dementia as my father did once. 
Believe me, there are millions of kids who play this beautiful game of 
football who have no idea of the risks. I'm calling on the League, the 
Players Union, the Commissioner, the retired players, and the U.S. 
Government to put aside egos and hurt feelings and work on a way to 
educate people about the health risks involved with playing the game, 
and to take care of those athletes who got hurt while playing it in a 
fair and balanced way, whether that be with healthcare, social workers, 
insurance or whatever help can be provided by a multi-billion dollar 
corporation.
    The final plea I will make is to you, Commissioner Goodell. I 
personally think that you're a good man who wants to promote positive 
change in today's game. You have shown good leadership with things such 
as making sure NFL players are accountable when they break the law, so 
they are good role models for kids today. I'm making a plea to you, not 
as the son of Mike Webster, not as a 23 year-old kid who has lost his 
best friend and father, but as a young man who desperately wants no one 
to ever feel the pain that I feel every morning, to feel the loneliness 
when I feel when I need to turn to my father for advice and he is not 
there, to feel the heartbreak that I feel when I hear about Chris 
Beniot, Andre Waters, Reggie White, Justin Strylzick and the web of 
people connected to them, that have had there lives destroyed by 
repeated concussions and head injuries. I ask you, Mr. Goodell, to use 
your position as NFL Commissioner to lead the charge to educate the 
public about brain injuries and show them how to rehab and take care of 
someone that is slowly becoming a stranger to himself and those around 
him. I pledge to offer whatever help I can in support. My father would 
like that, I know. I would give my life to never see another family end 
up like mine. I am ready to help. Please join me.
    Ladies and gentlemen of the Senate, I thank you for your time.

    Senator Dorgan. Mr. Webster, thank you very much for being 
here today and for providing your testimony, as well.
    Finally, we will hear from Brent Boyd, who's a former NFL 
player for the Minnesota Vikings.
    Mr. Boyd, you may proceed.

 STATEMENT OF BRENT BOYD, FORMER NFL PLAYER, MINNESOTA VIKINGS

    Mr. Boyd. All right, thank you, Senator Dorgan and the 
Committee, and especially your dedicated staff, who's been so 
generous with their time and hard work going--leading into this 
hearing.
    Before my clock starts, as I was allowed in the House, I 
request a chance to explain my invisible disability, because it 
affects my testimony. I do have brain damage. It's been located 
on brain scans. The damaged part of the brain gets--when I'm 
under stress, gets less blood, instead of more, like normal 
people, in--besides causing problems communicating, it causes 
excruciating pain. So, you know, this is a Senate hearing, it's 
fairly stressful, and, you know, the 5-minute clock is a little 
stressful, so I need to--I beg of you to let me go slow and 
tell the story. There's a lot to tell. I'm going to need 
questions to tell--I can't get it all into 5 minutes. Thank you 
for accommodating my disability.
    And now, to begin, I'm Brent Boyd. I'm a native 
Californian. I graduated with honors from UCLA, am now a 
resident of Reno, Nevada.
    My wife, Gina, a U.S. Postal mechanic, and son, Anders, 19 
years old, fireman in training, they couldn't make it with this 
trip. My neurologist prefers, I don't travel alone, so I want 
to thank and acknowledge that I have been escorted by one of 
America's most decorated Vietnam heroes: retired Colonel Jack 
Kelly, United States Marine Corps, has escorted me from the 
West Coast and around town.
    Although I just turned 50 this year, I am already on 
medications for dementia and Alzheimer's. As is all too common 
for NFL players, the snowball of dementia has started rolling, 
so please grant me the opportunity to tell this whole story 
while I'm able. I have a lot to tell. The Committee needs to 
hear a lot. So, as long as we're here and we have this time 
together, let's take advantage of it, please. And exhaust me 
with questions. I am fighting for my life, I'll stay here all 
day to answer questions.
    In addition to my own story, in the last week or two, 
players who have found my e-mail address have written their own 
stories. And I haven't counted them. There are 150, 200 
letters, probably. I would like to submit this into the 
official record. Instead of a form letter, where, you know, 
faceless signatures are on it, each story here tells their own 
story of their disability and their journey through the rigged 
disability board. And each story is different and unique in its 
own way, but each has the common thread of the fraud and 
corruption of this disability process.
    May I submit this?
    Senator Dorgan. Without objection, we will include it----
    Mr. Boyd. OK.
    Senator Dorgan.--in the permanent record, Mr. Boyd.
    Mr. Boyd. Also, I wrote the Boyd Plan, which is attached to 
my written testimony, and this was in answer to Chairwoman 
Sanchez's written follow up question, but it's the only--to 
date--comprehensive solution to this. So, I'm here to complain, 
but there is also a solution to the process of the plan. So, I 
would like--just to let you know, I can answer questions not 
only anecdotally about myself, but about these other things.
    Now I got lost.
    There are--they keep changing the number of former players, 
but, you know, there are approximately 8,000 former players in 
this most violent sport since the gladiators. We read, Sunday, 
only four qualify for concussion disability. They claim 317 
disability recipients, which is a ridiculous number, to begin 
with, but their 2006 tax filings show only 121 of the 8,000 
former players are receiving any disability payments.
    The most disgusting number is this. They're taking $3.1 
million out of our own pension fund to pay Doug Ell and Groom 
law firm to fight us, with our own money, and to alter and 
change the plan, and turn it into a jungle of red tape. By 
contrast, baseball is paying their attorneys $170,000 to do the 
same job.
    Now, I love football. Everybody in this room loves 
football. I am aware that I'm putting a damper on this party. 
Everyone loves football. They play Fantasy Football. They don't 
want to hear about this ugly side, about all the carnage. It's 
like hearing Santa Claus beat up the reindeer. When a horse 
gets crippled, like Barbaro, you'd think President Lincoln got 
shot again. When decades of NFL players are crippled and are 
denied benefits and left destitute by a rigged system, we are 
shoved into the shadow so the party can continue.
    I am depending on your questioning to allow for details, 
but here is the story, in short.
    It was not until 1999 that doctors correctly diagnosed my 
problems as being connected with concussions. Once they did 
that, I was sent for a 2-day neurological report--brain scans 
show, clear as day--it's on the brain scan, there is brain 
damage. It's on the picture. It's important, because when they 
shopped and got to the third doctor who denied me--in his 
report, he admits he never looked at any brain scan.
    Well, hearing this, friend and baseball agent Barry Axelrod 
helped me file my claim. When I called the NFL to alert them 
that I was filing my claim, I was told not to bother, and their 
quote was, ``The owners would never open that can of worms by 
approving a claim for head injury.'' The liability is so great, 
it's like tobacco companies fighting against the link between 
smoking and cancer, it's like automakers, when they have faulty 
designs, trying to deny any liability. This is a $7 billion to 
$8 billion industry. I'm just a guy who has been, off and on, 
homeless, and am fighting, you know, on the computer in my 
bedroom. But that's--this is the truth of the situation.
    So, you have the statement saying they will never open this 
can of worms. Shortly after that, my Viking medical files 
disappeared. Out of the blue, you know, it has to be, the NFL 
destroyed these files to remove the pesky contemporaneous notes 
that would prove my claim instantly, and then to allow the Path 
& Groom Law's experts at manipulating ERISA.
    I was sent to a doctor picked by the NFL, as expected. This 
doctor was picked off a preapproved list of physicians. I was 
living in San Diego at the time, single father with a young 
son. This neurologist enthusiastically supported my claim, to 
the point of--the NFL only asked him to examine me 1 day; he 
voluntarily brought me back a second day, because, at the end 
of the first day, he said, ``I suspect you have vertigo as a 
result of these concussions, and I need another full day to 
confirm that.'' His tests confirmed, I have vertigo from NFL 
concussions. This report was sent to the NFL Disability Board. 
NFL Disability Board does not care. The NFL Disability Board 
ignores the basic tenet of ERISA. They only look for reasons to 
deny a claim, they never look for reasons to approve a claim.
    Importantly--after they ignored him, they sent me to a 
second doctor; this time, a psychiatrist--first one was a 
neurologist. And the second--the psychiatrist was even more 
enthusiastically in support of my claim. He sees NFL players 
often, and he says mine was the most profound that he had seen. 
And then--most importantly, these first two NFL doctors--there 
is a mandatory NFL form that the NFL asked these doctors to 
fill out. The reason for this form is to remove any doubt as to 
cause of--causation, make sure there are no claims of 
ambivalence or ``equivalitization,'' if I said that right. The 
first two doctors checked the boxes--you know, it asked them if 
I was fully disabled, permanently disabled, yes; part of the 
body: brain. Question is, on both of these--I'll just hold up 
one--Is the disability a result of injury? Yes. Is the injury 
resulting from football-related activity? Yes. Both NFL--
remember, they're NFL doctors--checked these claims, sent them 
to the Disability Board. The Disability Board doesn't want to 
hear it, because it's in support of a player.
    Now, again, this form proves causation and removes doubt 
about equivocating. The third doctor, who had denied my claim, 
has yet, to this day, to fill out this questionnaire. His name 
is Dr. Barry Gordon, from Johns Hopkins. This third doctor 
never says, in his report what they used to deny me, that--it's 
not found in his report that he says--even says I am not 
disabled by the NFL. He does make a ridiculous statement that 
says, ``Concussions could not cause headaches.'' And anybody 
who believes that, raise your hand. ``Concussions don't cause 
depression, dizziness, and fatigue,'' my four symptoms he 
admits I have, says they are impossible to link to concussions.
    To this day, despite what you're told in the misleading NFL 
white papers, we still have no idea what Dr. Gordon's answer is 
to the question, whether my disability is football-related. But 
that I was close enough for them to vote unanimously to deny my 
claim.
    Now, again, I was a single dad, often homeless. I was kept 
alive by charity. To the disgrace of the National Football 
League, it was Major League Baseball who kept me alive. Through 
Barry Axelrod, baseball players Mark Grace, Rick Sutcliffe, 
Jeff Bagwell, along with UCLA alums, actor Mark Harmon, Bill 
Walton, and others, formed a charity to move my son out of a 
campground or out of the cheap motel we were living in, into an 
apartment near my son's school. And I need to thank the San 
Diego Native American Health Clinic, of which I don't qualify, 
but they provided emergency medical and dental care, just out 
of pity.
    So, after a 9-month delay, in which I was still reliant on 
charity, I was forced to leave my young son in San Diego and 
travel to Baltimore to see Dr. Barry Gordon. We fought this. 
There are plenty of doctors in Southern California--Doug Ell 
said, ``You see Dr. Gordon--only Dr. Gordon, or you're 
denied.'' So, I had no choice but to go.
    Importantly, those first two doctors were selected off that 
preapproved list, Dr. Gordon was handpicked by Doug Ell of 
Groom Law.
    Since I had already seen a neurologist, they can't just 
send me to another neurologist and--say they weren't happy with 
the first neurologist's report, they needed to have another 
excuse to go. So, I was told I was being flown coast to coast 
to take a complex, sophisticated neuropsychological exam. And, 
before we get into that plan, I want to--it's important for you 
to know that, after these first two doctor reports, the wording 
of the plan, the hangup for Mr. Ell, was--the plan says that I 
am to be awarded full disability if my disability is ``caused 
by, or even relates to, a head injury.'' No percentage of 
causation, just if it relates to a head injury. So, again, 
incredibly, Dr. Gordon admits, in his report, he never bothered 
to look at existing brain scans, never ordered his own. He 
ruled on a body part he never looked at. As they teach in law 
school, ``Don't ask, if you don't want the answer.''
    And now, this neuropsychological test, that was all 
important to deciding my case, that they forced me to fly coast 
to coast, was not given by Dr. Gordon, as they had been telling 
me the whole time. This story gets more ridiculous as we go 
along, so hang with me. I show up in Baltimore, and this 
neurological test, which takes years to learn how to 
administer--is supposed to be only given by a Ph.D., especially 
if it's a case with legal ramifications, and it takes years to 
understand the nuance--this is--it's not just reading what was 
checked, you know, on the paper, you've got to understand the 
nuances of the person taking the test. It's supposed to be 
given by a neuropsychologist. They didn't bother hiring a 
neuropsychologist. It was a young linguistics student named 
Laura Atella, who kept telling me, over and over, as a running 
joke, she had never seen the test til the day before. She took 
it home the night before, and practiced on her boyfriend. This 
was the test they flew me coast to coast, this was the test 
that was going to decide the fate of me and my son. They don't 
hire a neuropsychologist, they pull a linguistics student, with 
no medical training, off the street, she gives me the test.
    Her test was paired with Dr. Gordon's report. And Dr. 
Gordon's report, again, says, ``concussions could not cause 
headaches.'' And, again, I'm asking anybody to raise their hand 
who agrees with that. My--now, this claim that, for years, 
while all the reports were in my favor, stretched for years, 
once they got this report I was denied, by the end of the week. 
It only took days.
    Now, after my Ninth Circuit case--too late for my case--I 
found a 1990 medical journal, fully documented by our same Dr. 
Barry Gordon, who said all of my symptoms--he admitted my 
symptoms had expression--dizziness, fatigue--when paid by the 
NFL, said, ``You can't link those symptoms to concussions.'' 
Here's an article, called ``Postconcussion Syndrome,'' written 
by Dr. Barry Gordon at Johns Hopkins. The very first paragraph 
says, ``Overall, headache, fatigue, and dizziness are the most 
common symptoms.'' And then, to make it easier, on his--page 
one, he creates a chart, Table 1. Title of the chart is, 
``Symptoms of Postconcussional Syndrome.'' All the symptoms--
all my symptoms are on this chart, the same symptoms, when paid 
by Doug Ell, he wrote, ``you can't link to concussions.'' This 
is his own medical independent research for review by other 
neurologists by his own peers.
    So, this process took years. And, to this day, my supposed 
advocates have never returned a call or e-mail. That's why so 
many veterans are so angry. Mr. Upshaw's in the paper, saying, 
``Why are they mad at me? Why are they mad at Tom Condon?'' 
This is why Lanny Davis is brought into the process.
    During these years, they kept getting it wrong. You know, 
we get 90 days between when we can get a report. I tried to try 
to call Gene Upshaw or Tom Condon or members of the Disability 
Board and say, ``Hey, it's wrong. Fix it before the next 
meeting.'' They don't answer a call. To this day, they have 
never answered a call. They're not--they are our trusted 
advocates. We don't get to pick them. They're supposed to stand 
up and defend us. They don't return our calls. They are like 
dirty cops, sitting idly by in these meetings, as doctor-
shopping and schemes for false denials are cooked up and 
executed right in front of them.
    We wouldn't be here, we wouldn't have a need for this 
hearing today, if they would just stand up and do their job and 
advocate. We wouldn't be here today if not for the willing 
collusion of all sides--the Commissioner--the previous 
Commissioner, at least--Mr. Upshaw, who are--both attend the 
meeting. There are three owners and three people appointed by 
Mr. Upshaw who are the six who actually vote. They all have 
to----
    Senator Dorgan. Mr. Boyd, I'm going to have to ask you to 
summarize. I have----
    Mr. Boyd. OK. I know I got--that's why I say----
    Senator Dorgan. But we have----
    Mr. Boyd. In review, I can speak for thousands of players, 
I can speak about solutions. I suffer both from the rigged 
system and the extra issue of concussions. To review--I was 
told they would never open a can of worms. My medical files 
disappeared. I was flown cross-country for a sophisticated 
neuropsychological exam that was given by a young linguistics 
student. The doctor who denied me didn't bother to look at the 
brain scans. He wrote ``concussions could not cause 
headaches,'' but his independent medical research is totally 
contradictory to what he wrote when paid by the NFL. This is 
fraud, corruption, collusion. It's rampant in the NFL. I have 
over 150 letters from--saying the same story.
    Thank you. Please exhaust me with questions. And--sorry to 
go on so long.
    [The prepared statement of Mr. Boyd follows:]

 Prepared Statement of Brent Boyd, Former NFL Player, Minnesota Vikings
    Dear Members of the Senate Committee on Commerce:
    I am Brent Boyd, disabled former National Football League player. I 
am here for double duty . . . to explain to you the corrupt NFL 
Disability process in general, and to also address the more 
controversial issue of concussions. The NFL would rather you not look 
into the topic of head injuries, their liability is huge.
    I want to thank you for inviting me to testify, I have an 
incredible but true story that is guaranteed to open your eyes in 
anger. I thank you for your interest in this issue on behalf of 
thousands of hurting former players, I tip my hat to your courage on 
taking on this $7-8 $BILLION sports league. While they have owned the 
legal process, today is our time for justice.
    I am 50 years old, a native of Southern California and currently 
reside in Reno, NV. My wife Gina, a U.S. Postal mechanic, and son 
Anders, a firefighter in training, could not accompany me today. My 
neurologist prefers I don't travel alone, and I am honored to be 
escorted cross-country by one of America's highly decorated Marines 
from Vietnam, Retired Colonel John ``Jack'' Kelly, USMC.
    For your convenience, and edification, I have broken up my 
testimony into 3 parts. One, my written testimony from the June 26th 
House hearing, for which I was also a witness. This is invaluable to 
walk you through the NFL disability process and makes clear as day the 
false disability claim denials and doctor shopping. This testimony 
spells out clearly what happened in my case, and I pray you ask plenty 
of questions because 5 minutes is not near enough time to explain the 
crime committed against me.
    Also, you will see how fiercely the NFL is fighting to avoid full 
liability for our concussions. Another issue is the generations who 
served as guinea pigs for the horrible Astroturf playing surfaces. We 
literally played on concrete, and many concussions did not involve 
hitting another player but just the ground, and it ruined knees and 
bodies as well as minds.
    The second section, entitled ``Delay, Deny, and Hope We Die'' 
(after the NFL's famous delay tactics hoping for the OSHA life 
expectancy of 52 years or the destitution and depression to force 
suicides) describes the problem in a more general sense, with facts and 
figures that will outrage you. This is a presentation first written for 
Senator Harry Reid's staff on August 20, 2007.
    Only 4 players in the history of the NFL qualify for disability due 
to concussions. Only 121 TOTAL are receiving any benefits for any 
reason, according to their 2006 tax return. $3.1 million per year spent 
on legal fees out of our own retirement fund solely to alter the plan 
and fight us in court . . . baseball spends approx. $170,000 by 
contrast. This section also tells you why not to be tricked by the 
boasts that we lost in court . . . once the process has been corrupted 
in the early stages, all courts are hogtied by ``full discretion'' 
wording, courts do not rule on medical evidence. For the NFL to claim 
we had a fair day in court is disingenuous.
    But I am not here only to complain. . . . I have written the only 
comprehensive solution to this process, ``The Boyd Plan'', the final 
section. This is a response to chair Linda Sanchez' written follow up 
question after last June's House hearings. The Boyd Plan is a simple 
solution to solving the ``Process'' players must go through to receive 
a claim, how to streamline, make transparent, add actual medical 
professionals to interpret stacks of doctor's reports instead of the 
plan's attorneys. The Boyd Plan at worst is a starting point for 
debating the answers to how to fix the ``process'' side of the problem.
    The current process is so corrupted, so rigged against disabled 
players, and is done in medieval secrecy. Doctor shopping is flagrant 
and in the open, the NFL, with their absolute power, are like war 
criminals in that they once had total power and never dreamed they 
would be caught, exposed, and held accountable for so many unforgivable 
offenses. That includes needless homelessness and suicides. Doug Ell 
and Groom Law can manipulate the legal process, but they can't fool the 
distinguished members of this Commerce committee.
    I am fighting for my life here today, for benefits for my family--
in full and fully retroactive--we do not expect half-measures or 
partial settlements. There are countless proud men who are destitute, 
homeless, on the brink of suicide from the pain and financial shame.
    Lastly, it is important for all of you to know that I received over 
a hundred e-mails in the last 2 weeks, each from a different player 
with a different injury and a different story. But each has a common 
thread, the thread of a rigged system, of doctor shopping, of a union 
that doesn't care.
    Because I have received so many letters, which will be made part of 
the record, and the fact I authored the ``Boyd Plan'', I ask you to 
exhaust me with questions. Not just anecdotal regarding my own 
experience, but perhaps on the general nature of the widespread problem 
for which I can speak with confidence. And because ``the Boyd Plan'' 
offers solutions, I ask to be also included in questions and answers 
regarding what to do next.
    Please allow me to help you understand this NFL disability issue 
and how to fix it.
            Respectfully,
                                                 Brent Boyd
                              Attachment 1
Testimony of Brent Boyd, Disabled Former NFL Player to the Subcommittee 
       on Commercial and Administrative Law of the U.S. House of 
              Representatives' Committee on the Judiciary
    Hearing on the National Football League's System for Compensating 
Retired Players: An Uneven Playing Field?
                                                      June 26, 2007
    Madam Chairwoman, Ranking Member Cannon, Members of the Committee:
    My name is Brent Boyd. I played for the Minnesota Vikings from 
1980-86. I am a native Southern Californian, was raised in La Habra, 
CA, graduated WITH HONORS from UCLA and am a proud resident of Reno, NV 
since 2002. I am here today with my wife Gina, who is a mechanic for 
the U.S. Postal Service. My 18 year old son Anders couldn't come, he is 
home fighting wildfires for the BLM. I am on Social Security disability 
due to my post concussion injuries from the NFL, but receive only the 
minimum ``non-football related'' disability benefits from the NFL.
    First of all, thank you for having the courage to hold these 
hearings. It's long overdue and I am sure what you hear today will lead 
to immediate further hearings and big changes demanded by Congress of 
the NFL leadership. It's high time to expose the corruption of the NFL 
Disability Board, especially with Groom Law Group's absolute power and 
members like Tom Condon, whose unforgivable co-chairmanship is 
responsible for all this needless suffering that lead to you calling 
this hearing.
    I would also like to thank Jennifer Smith and the Gridiron Greats 
for making my travel here today possible. We could never have afforded 
to be here and I am grateful for their assistance.
    I am here today because I have a remarkable but true story about my 
claim denial, doctor shopping and fraud. And betrayal by the League I 
love. My case also involves the subject of concussions. Just like the 
tobacco companies fought like hell to deny any link between smoking and 
cancer, the NFL is desperately fighting to avoid any liability for all 
the carnage left behind by these NFL concussions.
    Joe Montana was recently asked about my NFL concussions disability 
claims denial by Mike Sullivan of San Diego's North County Times,

        ``Once they say there is an issue, then they have to fix it,'' 
        Montana said. ``As long as they never admit that there is one, 
        then they never have to fix it.
        ``They're never going to admit it because then they have to go 
        about and try to correct it.''

    I am here to illustrate for you how the NFL disability process is 
corrupted, how Tom Condon, Gene Upshaw, the NFL, and Doug Ell of Groom 
Law orchestrate these fraudulent decisions, and I am sure if I can walk 
you thru my experience you will get a feel for the travesty that has 
befallen countless other disabled players.
    Before I get to the details of my case, I would be remiss if I 
didn't point out to you that another loser when we are denied benefits 
are the hard working American taxpayers. These 32 NFL billionaire team 
owners hire their ``dream team'' of attorneys to get them out of paying 
their legal obligation. So we are then cast upon the taxpayers, thru 
Social Security and Medicare, and our communities through local 
charities and churches. The same Taxpayers who are already paying for 
the stadiums they can't afford to go watch a game in, are the poor 
people stuck with the bill every time the NFL's money buys them a 
disability denial in court.
    Plus, our court cases set legal precedents that make it harder for 
the average truck driver, saleswoman, office worker, mechanics and so 
on to ever collect a disability claim. The NFL Disability Board isn't 
just sticking it to football players, they are sticking it to the 
American workers and taxpayers as well.
    My concussions started in August 1980 . . . that was one of only 
God knows how many concussions I suffered. This one sticks out in my 
memory because I temporarily lost sight in my right eye and became very 
frightened. We didn't even count concussions or keep track of them back 
then, a concussion was not considered a serious injury, as opposed to 
an injury to a weight bearing bone. A concussion was a ``nuisance'' 
injury, like getting hit in the funny bone. It's a pain in the butt, 
hurts like heck for a while. But like a hit to the funny bone the 
symptoms faded away soon and you never considered it again once it 
subsided . . . you surely didn't think getting ``dinged'' was going to 
affect you the rest of your life, and in fact in my case, destroy my 
life.
    A little background info about myself first,
    I was an ``A'' student growing up in La Habra, Ca.
    A month prior to going to my first NFL training camp, I graduated 
WITH HONORS from UCLA, June 1980. That took a tremendous amount of 
drive and determination. I was drafted in the third round to Minnesota, 
a feat which also requires a great deal of effort and self sacrifice. 
My whole life up to that point was of hard work, dedication, and an 
ability to set goals and successfully reach them.
    As a rookie, we had only 9 days between the start of training camp 
and our first exhibition game. We didn't have all the off-season 
practices they have today. In those 9 days as a rookie I was able to 
learn and play all five offensive line positions, something I'm told 
hasn't happened often if at all in the NFL.
    The end of that month was when that first concussion occurred in a 
preseason game in Miami, that's the concussion I remember most because 
of going temporarily blind, but there were so many more in the 7 years 
that I played.
    When I complained to the medical staff about headaches, I was told 
it was from the anti-inflammatory medications I was taking for my 
knees. Mainly a drug called Indocin, which was notorious for giving 
headaches but worked miracles on injured knees. I kept asking for a 
brain scan because of my headaches. . . . I think I was more afraid I 
had a brain tumor, because I was never told my concussions would have 
these long lasting effects. I was always denied the brain scan.
    Upon being released mid-season 1986, I was given an ``exit exam''. 
I was released because of poor performance and lackadaisical effort. I 
had been complaining of a sore leg all season, and was told it was just 
shin splints. On my exit exam I asked for both a leg x-ray and a brain 
scan.
    Again, I was denied a brain scan for headaches, but was granted the 
x-ray. The leg x-ray showed I had been playing 8 weeks on a broken leg. 
This was never announced to the media or my coaches or teammates, they 
were left to think I was dogging it, physically with my leg and 
mentally with my inability to retain plays and keep the energy and 
focus required to play in the NFL.
    I continued to take Indocin until the mid to late 1990s, dealing 
with the headaches but still believing it was from Indocin. When I 
stopped taking Indocin, my headaches never subsided.
    I tore my knee again around 1996 while playing with my son at 
Disneyland, and had more surgery. A friend told me about the NFL 
disability plan and said if anyone qualified, I might because of my 
knee. In 1996 or 1997, I called the union, Miki Yaras-Davis helped me 
write a letter, and they sent me to a doctor, who said I didn't 
qualify. I left it at that, I thought this was some informal process 
between ex-players and NFLPA. I don't believe I even submitted my own 
doctor's reports, it was not presented to me as any legal thing, I was 
never told to get an attorney or about this behemoth called ERISA that 
a few years later would rule my life. I simply asked if my knee 
qualified, they said no, and that was that. I didn't even know I was 
allowed to appeal.
    After a life of hard-driven success, suddenly the 1980s and 1990s 
were nothing but one failure after another for me. I couldn't 
concentrate, I always felt sick--dizzy, a little nauseous, and always 
very tired. I had a splitting headache that never went away, but was 
eased through self medication. In the 1980s, before the news my son was 
conceived, I was like many 20-somethings and used cocaine, in my case I 
was desperate for the energy to make up for my fatigue. (my cocaine use 
was stopped for good in 1987 with news of a son on his way.)
    And the alcohol numbs my headaches and physical pains.
    I spent years searching for a medical answer, doctors could find 
nothing wrong below the neck. They were also trying to treat 
depression, which they came to believe was the cause of my fatigue . . 
. over the years I took every anti-depressant in every dosage and in 
every combination with other drugs.
    I stopped drinking for many years with no positive change in my 
symptoms.
    From mid to late 1990s I was checked for every form of cancer, and 
had every organ x-rayed, MRI'd and ultrasounded. I had tubes and 
cameras stuck up both ends.
     After years of hoping to find relief but not getting any better, 1 
day one of my psychiatrists told me a probable reason NONE of these 
drugs had any effect could be if I had an organic brain injury. He then 
asked if I ever had a concussion? That was in 1999, and that was the 
first time any doctor had ever asked me about concussions.
    I was sent to neurologists and had brain scans and SPECT scans and 
all kinds of testing done. The scans showed the exact location of the 
brain injury, and they explained how the areas damaged correlated to 
the symptoms I was having, both the temporary loss of sight in 1980 and 
the lingering symptoms of depression, headaches, fatigue, dizziness. 
They said the concussions also gave me ``trauma-induced A.D.D.''.
    I was relieved to find a medical cause after all those years. For 
over 15 years I had been stung by words like ``lazy'', ``crazy'', 
``alcoholic'' , ``failure'', and all this was from my loved ones! My 
employers were even harder on me. Worst of all, I came to believe it 
myself. I thought my failures were from a character flaw.
    I lost my home, my car, my first marriage, and job after job after 
job. I was then a single father, and we were scrambling for a roof over 
our heads. (I divorced in 1992, and was a single Dad until marrying 
Gina in 2004) We lived in some nice places sometimes, but we were 
homeless at others. We lived in cheap motels and even had to pitch a 
tent in a campground more than once.
    My son went without getting his needs met, my son Anders is the 
REAL victim of this crime. Even in the years after we filed our 
disability claim, and the NFL knew we were in dire straits, my son lost 
teeth because of lack of basic dental care, he had a significant vision 
problem that needed surgery in kindergarten and glasses thereafter. He 
went to school every day with old beat up scratched glasses that no man 
could see thru. He has learning disorders that I could not afford 
tutoring help for, and he was always grading poorly in school.
    But this kid has tenacity, he still showed up to school everyday 
with a smile, did homework without argument, got straight ``O's'' for 
Outstanding citizenship but D's and F's for the class grade. He never 
quit, never gave up, never gave in and took up drugs or any of the 
temptations of this era . . . and he is now a fine young man, a high 
school grad in 2006 and a fireman in training. He is spending this 
summer fighting wildfires for the BLM. My son Anders has suffered so 
greatly, so much of it purposefully at the hands of Tom Condon and the 
NFL, and I love and admire him for his perseverance.
    When I think of what the corrupt NFL Disability Board needlessly 
put my child through is when I get my angriest!
    We did get help from the NFL Players Assistance Trust, but it was 
$5,000 that could not be given directly to me. It helped pay past 
doctor bills, yes, but it did not alleviate the stress and fear of 
where would we sleep tomorrow and how was I going to feed and clothe my 
son.
    Now to what I'm here to describe, the fraud and corruption of the 
NFL Disability process.
    Once my team of treating doctors concluded clearly that I had 
suffered organic brain damage from NFL concussions, and that I was 
total and permanently disabled, we filed my claim with the NFL. I was 
helped by a good friend and fellow UCLA alum Barry Axelrod. Barry is 
both an attorney and a prominent sports agent, but he was neither to 
me. He was just a friend helping a friend, for free. We submitted piles 
of doctor's reports and brain scans.
    Upon filing my claim, I was told by Miki Yaras-Davis of the NFLPA 
not to bother filing, her exact words were ``the owners will never open 
that can of worms'' by granting a claim for concussions.
    Shortly after that, my Vikings medical files mysteriously 
``disappeared''. The courts were never made aware of this. Medical 
files are sacred to a player, we were not ever allowed in the same room 
with them. We had to trust that after our career the NFL would store 
the files and present them in the event of a claim.
    In essence, they destroyed the evidence that would have easily 
proven my claim. The 9th Circuit would mistakenly hold that against ME, 
not them, and said without any contemporaneous notes the Disability 
Board could send me from one doctor to another.
    There were contemporaneous notes, I believe Groom Law destroyed 
them to clear their path for manipulation of the process.
    Now starts the process of seeing an NFL doctor to see if he agrees 
or disagrees with my claim. I am living in San Diego, they send me to 
an NFL chosen neurologist in San Diego, Dr. J Sterling Ford. Dr Ford 
not only totally agrees with my doctor's and approves my claim, this 
NFL doctor voluntarily asks me to come back a second day to test for 
vertigo, which he suspected I was suffering as a result of the 
concussions. His testing confirmed his suspicions; according to the 
NFL's own neurologist I do have vertigo caused by head injury.
    So at this point we have several of my treating physicians and the 
NFL's own doctor all agreeing, we feel that will mean automatic 
approval.
    Barry Axelrod organizes a group of his Major League Baseball 
clients and friends and other UCLA alumni to create a charity to move 
my son and I out of the cheap motel we were living in and into an 
apartment near his school. They believe, with all of this overwhelming 
evidence in my favor, it will only be a matter of weeks until the next 
Board meeting that they will need to support me. There was no way I 
could be denied my claim! These guys were not doing this for publicity, 
quite the opposite. The individual identities of this group from 2000-
2002 was not known to me, other than Barry Axelrod, until last 
February's ESPN report.
    The group included the great baseball players Mark Grace, Rick 
Sutcliffe, Jeff Bagwell; actor Mark Harmon, NBA legend Bill Walton and 
his ex-NFL player brother Bruce, and many others. Without the help of 
these guys, I would not have survived to be here today. Along with 
Pastor Don Seltzer and the folks at North Coast Presbyterian Church in 
Encinitas, CA. They cared about my son and me . . . while at the exact 
same time the NFL didn't give a damn if we died, in fact they hoped I 
would put a bullet in my head and solve their problem, and were busy 
scheming a way to deny my benefits.
    The NFL decided not to listen to their own first doctor, because 
his opinion was in favor of a player, so the NFL selects a second 
doctor of their own choosing, this time a psychiatrist in Long Beach, 
CA. His name is very long, Dr. Branko Radisavljevic, but he says to 
call him Dr. Branko.
    Dr. Branko enthusiastically supports my claim, and joins every 
other doctor to this point. Every doctor had the same opinion, it was 
all one voice that included my own doctors and now TWO NFL doctors. 
Unfortunately for Condon and Ells, all these reports were FAVORABLE to 
a disabled player . . . that's no good. . . .
    The Board meets every 90 days, we know there is no way they can 
delay approving my claim any longer . . . but instead my case is 
``tabled'' at their next meeting, meaning 90 more days of stress. Only 
the next meeting doesn't bring approval either. That means 6 extra 
months now of relying on charity to survive.
    They DO decide at this point that I AM totally and permanently 
disabled and begin giving me the $1,500/mo ``non-football'' related 
disability, Despite the glaring fact that every doctor had said it was 
concussions that caused my suffering. But remember, they don't want to 
admit it is concussion-related, they ``don't want to open that can of 
worms''.
    So after an 8-month delay to give them time to buy a doctor, and 8 
more months of relying on charity to survive, I am forced to travel 
from San Diego to Baltimore to see Barry Gordon at Johns Hopkins. The 
reason given is they wanted me to take a sophisticated 
neuropsychological exam. I can take this test at any neuropsychologist 
in San Diego, as Social Security sent me to when they approved my 
disability claim for post-concussion . . . but they insisted I see 
Gordon and ONLY Gordon. If I refuse or hold out for another doctor, I 
am told, I am denied.
    Gordon is not on the list of pre-approved ``neutral'' physicians 
normally used by the Board, he is hand picked by Doug Ells of Groom 
Law. Gordon is also walking distance to NFL Benefits headquarters in 
Baltimore. Axelrod and I smell a rat, but we have no choice, if I don't 
go I am denied anyway, they will not agree to a doctor in Southern 
California.
    So, I arrange for care for my son, they fly me coast to coast, pay 
for taxis, meals, hotels, even replaced clothes when my luggage was 
lost.
    They went to ALL that expense, but they didn't go to the most 
important expense, HIRING A NEUROPYSCHOLOGIST to give me the test. This 
test takes years to understand the nuances and complexities, and, 
especially in cases with legal ramifications, should only be given by 
someone with a Ph.D., . . . a neuropsychologist!
    I thought Gordon was going to be giving me the test himself, that's 
why all the bother to fly across country. But I wind up seeing him for 
only about 30 minutes. He bangs my knee with a hammer, tickles the 
bottom of my feet, and conducts tests I now am told by neurologists 
were just for show and his tests only tested the NERVE ENDINGS, not the 
brain.
    Barry Gordon writes in his report that ``the records available to 
me are incomplete in ways that may be relevant for my impressions.'' He 
also admits he didn't bother to look at the existing brain scans and 
ordered none of his own. This is like diagnosing a broken leg without 
seeing an x-ray--he was deciding my fate by opining on a body part he 
never bothered to look at!
    Instead of hiring a neuropsychologist to give me this 
neuropsychological test they deem SO important to deciding my case, 
this neuropsychological test was instead given to me unsupervised by a 
young grad student in LINGUISTICS, with no medical background. Her name 
is Lara Atella.
    Lara Atella keeps apologizing and laughing, she keeps telling me 
she had never seen this test until the day before, and she took it home 
to practice on her boyfriend. I spend 99 percent of my time in Johns 
Hopkins with Lara, and am sent home wondering why I didn't see much of 
Dr. Gordon.
    Atella's test result was paired with Gordon's ridiculous report 
stating that my symptoms of headaches, depression, dizziness, and 
fatigue COULD NOT BE CAUSED BY CONCUSSIONS!
    Let me repeat in case you didn't grasp that--concussions COULD NOT 
cause headaches!
    Does anyone REALLY believe that?
    This process has been stretched out years when all the doctor's 
reports were in my favor.
    Armed with a report unfavorable to a player, Within DAYS I am 
immediately denied my claim by a unanimous vote. Upshaw and his 
appointees, Tom Condon and Jeff Van Note, and Len Teeuws, my advocates 
in those Board meetings, never said a word of protest . . . at this 
point they should have been screaming bloody murder, crying out this is 
a bunch of bull, and insisting this fraud stops right there. You know, 
advocating! Doing their appointed duty!
    None of this could have been possible without the FULL knowledge, 
cooperation, and participation from all sides on the Board. Commisioner 
Taglibue, Upshaw, the NFLPA, and especially Tom Condon and Jeff Van 
Note. And it was all masterfully orchestrated by Doug Ell of Groom Law 
Group, located at 1701 Pennsylvania Ave across the street from the 
White House.
    What's worse, as my only advocates allowed in Board meetings, 
Condon and Upshaw and Upshaw's other appointees never once, including 
to this day, returned my phone calls, letters or e-mails. Or made any 
effort to understand my case. They simply followed orders from Doug Ell 
and Groom Law.
    They will tell you they found the first two NFL doctor's reports 
``equivocal.'' I have spoken with those two NFL doctors since, and they 
are furious I was denied and furious they were characterized as 
equivocal. I hope you can subpoena them. These doctors will tell you NO 
ONE, not even my advocates, had ever called for clarification. The NFL 
couldn't risk clarifying, they didn't want the truth. It was easier to 
wait 8 months and fly me cross country than to pick up a phone?
    As they teach in law school, don't ask a question if you don't want 
the answer.
    If you read Dr. Gordon's report, you will find a gold mine of 
equivocalization. The fine tooth comb used by Groom Law to play 
semantics with doctors who approved my claim is suddenly missing when a 
report supports denial.
    Not only that, but the first two doctors filled out the required 
NFL questionnaire. This is where they avoid confusion and are asked to 
check boxes simply yes or no. Both Ford and Branko checked ``yes'' to 
the questions ``am I disabled from an injury'' and ``was this injury a 
result of playing football'' Both checked Yes. Period. Case closed.
    Despite many demands on record from NFL Benefits Office to Gordon 
to attach his questionnaire to his invoice or he wouldn't get paid, he 
never filled that form out. And he was paid. That leaves HIS report 
incomplete. Gordon never answers the question ``is my disability 
``football-related''!!!
    Gordon's report gives possible alternative reasons for my symptoms, 
which included chronic pain and other football-related causes, so maybe 
he still could have checked the box ``yes'' when asked if my disability 
was football related . . . all he said was it was impossible to link 
headaches with concussions. We still don't know Gordon's answer to that 
question!
    Wait, you think this is bad enough already? Here's where it gets 
even better. . . .
    The most important and most damning proof of fraud and doctor 
shopping comes from Dr. Gordon himself. After my 9th Circuit case, I 
found this 1990 medical journal, containing an article by our same 
Barry Gordon. It's titled ``postconcussional syndrome''. You only need 
read the first paragraph to see he is adamant that my symptoms, 
headache, depression, dizziness, and fatigue are THE MOST COMMON 
SYMPTOMS of post concussion. He even makes it easier for the reader, he 
creates a chart, table 1, titled ``most common symptoms of post 
concussion'' . . . right there in that list are ALL of my symptoms, the 
same symptoms, that when paid by the NFL he wrote were impossible to 
link to concussions.
    His article also says he orders a brain scan ``in essentially all 
patients''. He didn't go to that bother with me.
    If that's not proof of fraud and corruption, than we need to remove 
the words fraud and corruption from our vocabulary.
    The only reason they aren't in jail is that there are some holes in 
Federal Laws that you in Congress need to fix to help EVERY American 
worker, mainly the ``full discretion'' allowed to the Board, and you 
need to return the ``treating physician rule'' removed from law by 
Groom Law Group's secret intervention in Supreme Court ``Nord v. Black 
&Decker'' (my attorney was on the losing end of that decision).
    The NFLPA fiercely tries to claim no responsibility in our claim 
denials. Here is a quote from Feb. 11, 2007 ESPN article on my case by 
John Barr and Arty Berko, that accompanied their story on me on ESPN 
TV's ``Outside the Lines,'' catching Gene Upshaw in flat out lies:

        ``While nobody from the NFLPA would speak with ESPN about 
        Boyd's case, NFLPA Executive Director Gene Upshaw did address 
        Boyd's allegations at a recent news conference.
        ``To say that the NFLPA is `doctor shopping,' we don't have 
        anything to do with it, with the process,'' Upshaw said.

    The facts say otherwise. The retirement board, the ultimate 
authority on disability cases, is made up of three league and three 
union representatives. To say the union has nothing to do with the 
process is simply untrue.
    Upshaw went on to say, ``If a doctor determines that a player is 
entitled to a disability and he meets the standards he gets it.'' But 
in Boyd's case, two doctors, chosen by the retirement board, determined 
his disability was football-related and his claim was still rejected.
    The NFLPA is quoted recently as saying they were only doing what 
ERISA demands them to do. In other words, ``The devil made them do 
it!'' Nonsense. ERISA demands that they look EQUALLY as hard for 
evidence to APPROVE a claim as they look for evidence to DENY a claim. 
That clearly is not happening in the NFL.
    The real ``devil that made them do it'' is in reality Doug Ell and 
Groom Law, with their scorch and burn, leave no witnesses, win at all 
cost strategies.
    This NFL Disability Board has blinders on and only seeks reasons to 
DENY.
    Courts are hogtied by the ``full discretion'' wording, and the 
absence of discovery and depositions in ERISA cases. Only you in 
Congress, with your oversight of the NFL, and your gifting of anti-
trust exemptions, and your power of subpoena under oath, can fix this 
scam.
    ERISA gives the Board ``full discretion'', which is the opposite of 
what they are claiming now in public. Instead of LIMITING their 
options, ``full discretion'' gives the Board the widest possible range 
of options possible. The only restrictions on their ``discretion'' are 
what their stomachs and conscience had handle.
    ERISA does not ``force'' the Board to ignore evidence supporting 
players' claims, nor to draw up elaborate doctor shopping schemes to 
defeat them, as Dave Duerson recently hinted. (Duerson is the newest 
robot member of the Board)
    Congress gives the Board ``full discretion'' through ERISA, which 
gives the Board absolute power. AND WE ALL KNOW THAT ABSOLUTE POWER 
CORRUPTS!. Please eliminate the ``full discretion'' wording in ERISA.
    A 1994 OSHA study said life expectancy for NFL players is 55 years, 
52 for linemen . . . that is why Condon and the Board's tactics are to 
``delay, deny, and hope we die. . . .''
    I beg this Committee to hold further hearings, subpoena Tom Condon, 
Gene Upshaw, Doug Ell, Paul Tagliubue, and Barry Gordon. Clean house in 
the NFL Disability Board, punish Groom Law and Tom Condon and Gene 
Upshaw for their conflicts of interests and selfish greedy actions.
    And most of all, someone FINALLY hold the NFL/NFLPA accountable for 
all the needless suffering that their blatant doctor shopping and 
fraudulent claims denials have caused countless NFL retired players.
    I also welcome questions regarding ``88 Plan''.
    I have e-mailed several attachments to my testimony and ask that 
they all be officially included in the record.
            Thank You,
                                                 Brent Boyd
                              Attachment 2
                           ``The Boyd Plan''
    Brief Outline:
    1. Fire Groom Law--there can and will be no trust until Groom is 
replaced. Groom Law is a symbol of years of too many unfair decisions, 
questionable tactics, doctor shopping, needless suffering, needless 
homelessness, needless deaths, needless suicides--Groom Law must go 
before any healing begins!
    2. Eliminate the ``full discretion'' wording or implication in our 
plan; investigate etiology of ``full dicretion'' into our plan; full 
discretion equals absolute power; absolute power corrupts--and 
predictably we have seen that abuse as the outcome of allowing full 
discretion to NFL disability board. We need checks and balances.
    3. Define the plan's definition of ``disability'' in terms set in 
stone and easily understood by all, in definitive terms that will be 
easily interpreted the same way by players, the board and every court--
not open to Groom's manipulation (full discretion--and Groom--will be 
gone so that will help) and remake this new definition of disability so 
that it is not so overwhelmingly prohibitive to approval of claim--
don't continue with Groom's ever changing and impossible to meet 
definition.
    Current unwritten but strictly adhered to definitions of disability 
include the infamous ``can he sell pencils on the street corner'' quote 
or ``wash windshields'' criteria, which are obscene and must be 
eliminated along with all those who support these draconian standards. 
The men who built this multi-billion dollar league deserve dignity if 
not wealth.
    And eliminate the ``15 years after playing'' limit for full 
benefits, most disabilities don't degenerate into full disabilities 
until long after that period. It is when guys enter their 50s and 
beyond that these disabilities become debilitating and they can't live 
on the lesser benefit amount . . . and remember, OSHA says NFL linemen 
life expectancy is 52 years.
    4. Ensure transparency--shine the light! Print the minutes of board 
meetings, record all debates, report each vote--allow Congressional 
representatives to sit in on any meeting at will. The NFL disability 
board shall no longer act as a secret medieval organization.
    5. Treating physician rule--give more weight to our own doctors who 
treat us regularly for years than is given to opposing doctors who see 
us for 30 minutes. Reimburse the plan for all fees paid to Groom Law 
when they covertly helped remove treating physician rule from ERISA--by 
joining non-football related court cases (e.g., Nord v. Black & Decker 
in Supreme Court) those fees paid to Groom were taken out of our own 
pension funds--using our own money to take our own rights away, all 
without our knowledge!
    6. If NFL's own chosen physicians agree with a player's claim, so 
should the disability board.
    Doctor shopping carries ``death penalty''--similar to NCAA football 
programs in violation of certain rules--or gambling in NFL----
     If NFL's own chosen doctor agrees with player's claims, no more 
ignoring that doctor and sending players to endless doctors until 
finally one supports denial. If board claims a doctor to be 
``equivocal,'' simply pick up phone and clarify instead of delaying for 
months and doctor shopping.
     Any knowledge of or connection with doctor-shopping or 
fraudulently denying a player his rightful benefits will result in no 
further association with NFL in any capacity, ever--this must be 
considered a sacred intolerable offense!
    7. Let retired players select our own 3 advocates to the board, not 
selected by NFLPA executive director. Replace all existing board 
members. Active players' agents and actual or de facto employees of NFL 
are not acceptable as players reps board members, they have blatant 
conflict of interest.
    Destroy the longstanding mentality of board that defines 
``fiduciary duties'' to mean only to protect the ``pot of money''. 
Players rights and disabled players receiving their rightful benefits 
have equal or greater weight to the fiduciaries as does the ``pot of 
money''.
    The board must look equally as hard for reasons to approve a claim 
as they look for reason to deny a claim. ``Fiduciary duties'' do not 
mean solely to automatically reject a player's claim and save the 
plan's money. Give players' rights equal attention, equal rights, and 
even more protection than the ``pot of money.''
    8. Allow players and/or representative to attend board meetings--
that's not currently allowed (at least not at time of my claim)--
especially allow them to attend the final appeals meeting.
    Stop holding board meetings at 5-star resorts, meet at more 
practical locations so players can afford to attend; also it will stop 
wasting our precious plan money! (Aren't they claiming we are short on 
cash?)
    9. Add 3 medical professionals to board, not just to explain 
complex medical issues to the otherwise all-laymen board--but give 
these doctors votes! This will eliminate the 3 to 3 votes that lead to 
doctor shopping. Pay these doctors out of a blind trust favoring 
neither side, rotate these doctors often to prevent the buying of 
doctors by the league that has been suspected in the past.
    The doctors on the board shall have no information as to the 
financial health of the pension fund, and shall leave the room when any 
issues other than medical are discussed.
    10. Write the rules. Once and for all. This sounds simple but has 
not happened successfully. Currently Groom Law unilaterally makes up or 
changes rules on the fly to suit their needs, at the expense of 
players' rights. Right now rules and regulations are a moving target.
    11. No more lengthy, strategic, and painful delays. Keep the claims 
process and voting a fluid process.
    Hold meetings monthly instead of every 90 days--more often using 
modern technology. Send player to a doctor immediately after he files a 
claim. Send all doctor's reports immediately to player/attorney to 
allow speedy response. Use today's technology to keep the process 
moving.
    12. The current system of two ``gatekeepers'' was not in place at 
time of my claim, but like most elements of Groom Law's changes to our 
plan, all without valid plan purposes, this one doesn't pass the 
``smell test'' either. A one to one tie means denial? This is obviously 
Doug Ell's ideal vision of a plan, the player has no chance from the 
get-go.
    13. This one is for Congress only--remove ``full discretion'' and 
``deference'' from not only the NFL plan but from ERISA; sit in on NFL 
disability board meetings at your pleasure;
    Set goals and expectations for the disability board to meet 
annually in order to keep anti-trust and other Congressional gifts, 
without which they could not exist.
    Do not allow certain disabilities--especially concussions!--to be 
constantly denied as disability claims. Congress must step in to 
permanently protect the brain damaged players.
     For the sake of all American workers everywhere, rework ERISA! 
ERISA is a mess. ERISA is a disaster for American workers, a gold mine 
for attorneys.
    Keep Congressional oversight and pressure on the NFL disability 
board . . . players desperately depend on your protection!

    Senator Dorgan. Mr. Boyd, thank you very much. Let me thank 
all the members of this panel.
    We have two panels today, with ten witnesses. I want to 
have the next panel begin testifying at a quarter after 11. 
That's 10 minutes from now. And I'm sorry we don't have 
unlimited time, but we will begin a series of votes on the 
floor of the Senate at 12:15. So, we're--let me make a couple 
of comments.
    First of all, the panel that we have heard from first is a 
panel that has very strong feelings about this issue. I think 
it--you contribute to a body of knowledge here, and 
information, that describes a problem. You know, I mean--and 
we're going to have a second panel in which some of that will 
be reacted to, some of it will be described again.
    But I've written a list of questions. I--what I'm going to 
want to do is submit some questions to you in writing, if 
you're willing to respond to them.
    You raise a lot of important things. You know, Mr. 
Johnston, just very quickly, the concussion issues--seems to me 
that's probably a very significant issue in this sport, 
probably not very well described, or not very well discussed in 
the early years of the sport. Do you think it's been addressed 
now for current players? It is obviously safer, they have more 
procedures. Is it addressed sufficiently for current players?
    Mr. Johnston. More so now than it was in the past. There 
are improvements in equipment. There are a lot of different 
things that have contributed to that. But the protocol for 
getting a player back onto the field, he has to pass a series 
of tests. They are forced sometimes, with the severity of the 
concussion, to sit out the game the following week. So, they 
are making some strides there. But, back in the day, back when 
Mr. Boyd played, it was a badge of honor to go out on the 
field. We joked with each other, ``The light's on, but nobody's 
home.'' ``The elevator doesn't go to the top.'' So, we wore 
that as a badge of honor back at that time. It's changed, but 
it's an issue that is going to affect the players from the 
previous generation, absolutely.
    Senator Dorgan. One of the overlying questions here is that 
Commissioner Goodell represents the owners and Mr. Upshaw 
represents current players for the Players Association. The 
question is--and I will ask others about this in the next 
panel, as well--the implication, I guess, is that the retired 
players don't have an advocate, or are not represented. And I 
think Mr. Upshaw will say, ``Well, we have bargained and made 
some substantial changes to try to improve things.'' But we 
will ask some questions about that.
    I've been joined by several colleagues. I'd like very much 
to call the second panel up at 11:15. We, unfortunately, don't 
have unlimited time this morning, because of the votes that 
will occur in the Senate.
    Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you, Mr. Chairman. Thank you for 
putting this together.
    I wanted to welcome Mr. Boyd, who's a former Viking. And 
Mr. Boyd knows well that my father used to cover the Vikings 
and wrote several books including ``True Hearts and Purple 
Heads,'' and ``Will the Vikings Ever Win the Super Bowl?'' and 
``Will America Accept Love at Halftime,'' my favorite one.
    [Laughter.]
    Senator Klobuchar. But I just wanted to thank you for 
sharing your difficult story today. And I think that all active 
players will one day be former players, and the average career, 
of an NFL player is short, and I would hope that active players 
have a strong interest in the fair treatment of retired 
players. I appreciated you coming, Mr. Boyd, and sharing your 
story with me, as well as the other players. I'm sure that 
everyone can agree that the NFL and the NFL Players Association 
would do best if they came to an agreement in a fair and an 
appropriate way about how former players should be treated.
    I have one quick question, Mr. Chairman, and that is--of 
some of the retired players--what were your understandings 
about your retirement when you were an active player? Did 
anyone ever explain to you how your retirement plan worked? 
What advice would you give now to active players about their 
consideration of their benefits as they go forward?
    Mr. Boyd. Real quickly--and they can answer, too--but we 
understood that it would be physical, orthopaedic risk. And, 
you know, I have all that--replaced knee and replaced hip's 
coming next, and--but they never explained to us was that 
concussions would have the--would--a mild concussion would--
could destroy your life. We thought that we'd have a safety 
net. NFL players take incredible risks with their health and 
their life, and we thought at least there would be a safety 
net. But, incredibly, they're paying millions of dollars--the 
process is there, the money is there--they're paying millions 
of dollars to get great attorneys to make sure we don't get 
those benefits.
    Mr. Duerson. If I understood the question in regards to 
what the players knew, in terms of benefits and that 
information, that education process is quite thorough, and the 
players have a full understanding in regards to the choices 
they make. And, even for those players who--some years ago, who 
played--perhaps in the 1960s and 1970s, who took the early 
retirement benefits, signed documents that they, in fact, yes, 
understood the penalties associated with taking early 
retirement, and the ramifications of that. So, from the 
standpoint of player reps on each team, those meetings, and--as 
well as seminars that take place--were taking place, certainly, 
in the 1980s when I played, and they're most certainly taking 
place now--that education process is quite thorough. But, for 
individual players, they have to make those decisions 
themselves.
    And also, in regards to the issue of Alzheimer's, my 
father's 84, and, as I had mentioned earlier, Senator, spent 30 
years with General Motors. He also has--he has Alzheimer's and 
brain damage, but never played a professional sport. So, the 
challenge, you know, in terms of where the damage comes from, 
is a fair question, and one that--you know, that has been 
addressed, and that--and is one that we, in fact, ask.
    But I would just say, to Mr. Boyd, that I've never received 
a phone call from him.
    Mr. Boyd. Well, he is new, he wasn't----
    Senator Klobuchar. All right.
    Mr. Boyd.--there during my process.
    Mr. Duerson. Well, but various names were mentioned, and 
so--and then I was a trustee at that time, as well, and I can 
tell you that, for any player who's ever given me a call, 
I've----
    Mr. Boyd. They don't--ask my wife--there are plenty of 
people--we've got a stack of letters--who had called.
    Mr. Johnston. Mr. Duerson's statement that his father has 
Alzheimer's and he worked for GM at a plant, and that 
automatically excludes NFL----
    Mr. Duerson. No, I didn't say----
    Mr. Johnston. Well, that's the reasoning, that's the--
that's the line you're trying to connect.
    Mr. Duerson. No, I'm not, Moose, I----
    Mr. Johnston. And--well, but if--just let me finish. Let me 
finish.
    Senator Dorgan. Can we let Mr. Johnston speak, here, 
please?
    Mr. Duerson. Well--but he's putting words in my mouth.
    Mr. Johnston. Well, I'm not--but that's----
    Senator Dorgan. One at a time, please.
    Mr. Johnston.--the process--that's how we understand the 
process to be, that they're looking for ways to deny claims. We 
don't know if it's a 100 percent certainty that playing in 
the--the National Football League will cause you to have early 
onset Alzheimer's or dementia. We don't know that 100 percent. 
But there is definite information that leads us that way. And, 
you know, trying to--trying to prevent one or two or three 
people going through this system and receiving benefits, and 
tightening the purse strings down is turning your back and 
denying benefits to the other 98 percent, 99 percent of the 
people who rightfully qualify. That's the impression that we 
get, as players, is there is so much concern about opening 
Pandora's Box and these funds being depleted, that you're 
turning your back on everybody that rightfully deserves this 
disability payment.
    Senator Dorgan. Let me just say, we will not serve the 
interests of the inquiry of this hearing if we don't get the 
second panel up, because we've spent nearly an hour on this 
panel.
    I'll call on Senator McCaskill and then Senator Kerry, and 
then I want to call the second panel up.
    Senator McCaskill?

              STATEMENT OF HON. CLAIRE McCASKILL, 
                   U.S. SENATOR FROM MISSOURI

    Senator McCaskill. Thank you, Mr. Chairman--I heard you 
call Conrad Dobler's name, and I guess he's not here?
    Senator Dorgan. He's here.
    Senator McCaskill. Oh, hi, Conrad. I used to represent 
Conrad on some matters as a lawyer in Kansas City. And I 
certainly was a big fan of your dad's, Mr. Webster, as a Chiefs 
season ticketholder for a number of years.
    I really am going to please you, Mr. Chairman, because my 
questions really are probably more appropriate for the second 
panel, because what I want to talk about is financial 
transparency. I want to talk about the fact that the disability 
fund and pension fund has a billion dollars in assets, and the 
fact that the retired players don't have a good sense of 
exactly how that's earning money, exactly how it's being paid 
out, whether or not it is financially viable, in terms of being 
more generous, in terms of disability determinations and taking 
care of the players that have taken care of fans for as long as 
the game has been in existence. And so, I will withhold my 
questions, and hopefully I'll be here by the time it's time to 
do that. If not, I'll make sure they get answered for the 
record.
    But thank you all for being here. And we will do our best 
to see if we can't alleviate some of the pain and suffering 
that is ongoing with retired NFL players.
    Mr. Boyd. Thank you.
    Senator Dorgan. Senator McCaskill, thank you very much.
    Senator Kerry?

               STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. Mr. Chairman, thank you. I apologize for 
being late.
    Just very quickly, because we do want to hear from the 
second panel--obviously, America loves this game. It's 
important to our national fabric. And it's a great game, and 
people respect those of you who played it, and particularly 
those retired players who have built what we have today, this 
extraordinary franchise, something like 67,000 spectators per 
game across the country. It's the highest-watched domestic 
sport--professional sport in the Nation. The revenues are 
extraordinary, $6 billion annually. And you have this fund of 
$1.1 billion. And I think most Americans would look at this 
today and say, ``Wow, what is the Congress doing getting into 
this, and why do they have to, and what's going on in this 
relationship?''
    It seems to me that a league as wealthy and as successful 
as the National Football League, built on the contribution of a 
bunch of gifted athletes, who, two-thirds of them have suffered 
an injury that required either surgery or an eight-game 
absence, 50 percent of whom retire because of an injury, 60 
percent of whom had had a concussion, a quarter of whom have 
had multiple concussions--it seems to me the League itself is 
dropping the ball here, no pun intended, in terms of, just, its 
relationship with these people.
    What do you do in the face of that kind of wealth, that 
kind of money being made by people who never touch the field 
except to walk on it, congratulate the guys who played, and 
people are struggling with the aftereffects in the way that 
they are? There isn't any physician in the country, or any 
person who's a weekend athlete, who doesn't understand what 
happens to the body as it gets older and what happens to you as 
a consequence of early injuries of any kind.
    So, my hope is, the League will get its act together here. 
That's really what's needed. Better communication, a 
standardized sort of understanding of the process. And, 
frankly, a presumption in favor of those who went out on the 
field and put themselves at risk in the way that they do on a 
weekly basis.
    So, I hope we don't have to do something. And, Mr. 
Chairman, I'm sure you are--I am prepared, if the League 
doesn't do that, to introduce--which I would hope we wouldn't 
ever have to do--legislation to create some kind of appropriate 
accountability and oversight. I hope that it never comes to 
that.
    Senator Dorgan. Senator Kerry, thank you very much.
    Senator Thune, we have just finished with the first panel 
and are about to call up the second panel. Would you want to be 
recognized now, or would you like to wait til the----

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Mr. Chairman, I'd be happy--I've got an 
opening statement I'll include for the record. I want to thank 
you for holding the hearing, and appreciate those who have come 
today to share their stories and testify.
    [The prepared statement of Senator Thune follows:]

 Prepared Statement of Hon. John Thune, U.S. Senator from South Dakota
    I would like to thank Senator Dorgan for convening this hearing. I 
would also like to thank our witnesses for taking time out of their 
schedules to testify before our committee today.
    I grew up watching the Green Bay Packers and it pains me to think, 
as it does many Americans, that some of our former football heroes are 
struggling to make ends meet. Some of the stories we have heard today 
at the hearing as well as those recently highlighted in news and 
magazine articles are heart-wrenching. It is counter-intuitive to think 
of strong, well-paid NFL players, leaving the game, and falling into 
lives of pain, disability, and even poverty.
    I hope today's hearing helps shine the light on these issues and 
helps bring players, management and former players together to find a 
solution. If we step back and compare the pension and disability plans 
for NFL players to the plans most Americans have access to, the NFL 
players are well ahead of the curve. Therefore I hope the opposing 
sides can work this out on their own.

    Senator Dorgan. Thank you very much.
    Let me just say, as we release this panel, we will be 
submitting some questions to you.
    Mr. Bain, Mr. Boyd, for example, your testimony--I 
understand the passion and the emotion. This is not a debate 
about some idea, this is about your lives. And so, I understand 
that, and I very much appreciate your willingness--and, Mr. 
Webster--your willingness to come--Mr. Duerson, thank you for 
being here, and Mr. Johnston, as well--to come and be a part of 
this discussion. It's a very important discussion. And so, we 
will be submitting some questions to you. But many of you have 
come great distance to present testimony, and we are very 
grateful for that. Thank you very, very much.
    Mr. Boyd. Ms. McCaskill, if I can add one stat that'll be 
important before you get to the second--and it's only 5 
seconds. 1994 OSHA study, life expectancy for NFL players, for 
total players, is 55 years; for the big linemen like us, is 52 
years. And that's--thus, our slogan is, what they're doing 
``Delay, deny, hope we die.'' They have incentive to drag their 
feet and hope that nature takes its course and solves this 
problem.
    And the second point is, they say, ``Well, you--if you work 
for IBM, you know, when you're 50, they don't take care of you. 
But if you walk in the room, a 50-, 60-year-old IBM veterans, 
you know, most of them aren't crippled, and half of them 
aren't--don't have dementia. So, I just wanted to let you know 
there was a--that OSHA study is very important for you to know.
    Senator Dorgan. Let me thank this panel. We will excuse the 
panel and ask for the second panel to please come forward. 
Thank you very much for your testimony and your appearance.
    The second panel will include Mr. Gene Upshaw, the 
Executive Director of the National Football League Players 
Association; Mr. Roger Goodell, the Commissioner of the 
National Football League; Mr. Mike Ditka, Member of the 
National Football League Hall of Fame, former NFL Player and 
Coach; Mr. Gale Sayers, the--Member of the NFL Hall of Fame, 
former NFL Player for the Chicago Bears.
    We would ask that those witnesses come forward and take 
their place at the witness table.
    [Pause.]
    Senator Dorgan. Let me thank the second panel for coming. 
And I apologize that you have had to wait, but I think it is 
probably valuable to have heard the first panel. I know many of 
you have traveled long distances to be here, as well, and we 
appreciate that.
    We will hear first from Mr. Gene Upshaw, Executive Director 
of the National Football League Players Association.
    Mr. Upshaw, you may proceed.

         STATEMENT OF GENE UPSHAW, EXECUTIVE DIRECTOR,

          NATIONAL FOOTBALL LEAGUE PLAYERS ASSOCIATION

    Mr. Upshaw. I'm just waiting for a chart that has to get 
up, but I'll start anyway.
    Senator Dorgan. All right.
    Mr. Upshaw. I first want to thank the Chairman and the 
panel for inviting us here and--to be part of this.
    Before I get started, I'd like to introduce a few players 
that came along to hear the testimony: Troy Vincent, who is the 
President of the NFL Players Association, Eddie Mason, Ryan 
Kuehl, Brian Mitchell, and Brig Owens. They're all here because 
they are very interested in this issue, as all active and 
retired players are.
    I would first like to say that I am Gene Upshaw. I am the 
Executive Director of the NFL Players Association. And I appear 
before this committee at your invitation to discuss benefits 
provided for NFL players in the National Football League.
    Prior to becoming Executive Director, I played 16 years in 
the National Football League, and I understand the rewards and 
the risks of playing this game. I'm also distressed when I hear 
about former players who are hurting and are in need. Remember, 
I played with a lot of these guys, I know a lot of these guys, 
and I played against a lot of these guys. So, I've spent my 
entire professional life fighting for the rights of players, 
both active and retired.
    I also recognize that these are emotional issues, that we 
play an emotional game, and this game brings out some emotions 
that it takes to play it, and it just follows you the rest of 
your life.
    I'll ask permission from the Chairman to submit our White 
Paper as part of the record, also my written testimony and my 
summary as part of the record.
    Senator Dorgan. Without objection.
    Mr. Upshaw. Thank you.
    Our benefits in the National Football League were forged in 
collective bargaining. In 1993, as part of my first collective 
bargaining agreement as Executive Director, we dramatically 
improved both pension and disability for all players. I just 
want to make three simple points in my presentation.
    First, the NFLPA is proud of the job that we have done for 
NFL players, both active and retired. Players are well 
compensated and enjoy an outstanding benefit package. Unlike 
many businesses, where benefits have been reduced, benefits for 
NFL players have been maintained and repeatedly improved. We 
represent the best practices of labor relations.
    Second, we're not finished. I think the active players 
respect and empathize with the emotions and concerns expressed 
by retired players. That is why we established, in 1984, a 
Retired Players Division at the NFL Players Association's 
office. And, in 1990, we established a Players Assistance 
Trust, which is funded by the active players to help former 
players in need. In the past 18 months, this fund has 
distributed over $1.5 million to former players in need and in 
financial--that need financial assistance.
    When I became Executive Director, in 1983, about 30 percent 
of the NFL revenues went to the players. That has now doubled 
to 60 percent and--of all of the revenues. Our union had to go 
through some dark times to achieve this. We had to renounce our 
status as a union, we had to decertify, and we had to bring a 
legal challenge that ultimately led to our present success. I 
don't think any union has ever done that. And many thought we 
were crazy, but we made it work. We shifted the battle from the 
picket line to the courtroom and forged a partnership with the 
owners we are proud of today. With labor peace, the game has 
grown and has benefited both the players, the owners, and the 
fans. This success has allowed us to win against prevailing 
trends of reducing workers' benefits.
    I have some charts that I brought me to, sort of, 
illustrate the point that we have.
    Chart 1, that's to my right and your left, shows that, in 
1993, we reached back, for the first time, to include all 
players that had no pension, the pre-59ers, and brought them 
into the pension plan in 1993. This mean that we brought in an 
additional 900 players and their beneficiaries.
    Each succeeding extension--1998, 2002, and 2006--we have 
improved the pension benefit credits for all former players, 
and they've been increased.
    Let's turn to disability. I want to begin by emphasizing 
that the Players Association--the members, the staff, and me 
personally--are sensitive to the medical, financial, and 
emotional needs of professional players, both active and 
retired. We are distressed when we hear about a player in need, 
and we're committed to responding to the needs of all players. 
But we reject the charges that the present disability system 
treats veteran players harshly and denies them access to the 
benefits. The factual record disproves those charges. Of course 
the system can be improved. And Commissioner Goodell and I are 
determined to simplify, expedite the process of these claims.
    Chart 2, it summarized the disability decisions from 1993, 
when the present categories were put in place and established. 
We've had 1,052 applicants. We have 48 cases that are pending. 
We've approved 428 cases, and we have 776--576 that were 
denied.
    Of the cases that are denied, there are several reasons why 
they were denied. Some were already drawing pension, some 
didn't have enough vested years. Just recently, we just added a 
new disability, that's been mentioned earlier--in earlier 
testimony, Plan 88. Plan 88 was established in honor of John 
Mackey, the great tight end Hall of Famer who wore number 88 
and is suffering from this terrible, terrible disease. It was 
negotiated between Paul Tagliabue and myself in the 2006 CBA 
extension. This benefit was extremely important to all of us 
connected to the National Football League. John was the first 
president of the combined union in 1970, and we all have tried 
to remain as close to John as we possibly can as he deal with 
this terrible, terrible disease.
    Chart 3 shows in--as of February, when we instituted this 
plan, that 130 applications were mailed out to players. We 
received 79 back, and, of that 79, 60 have been approved, 4 
have been denied, and 15 are pending.
    Commissioner Goodell and I do not decide disability claims. 
You've heard a lot about the Disability Board that sits, and 
the Retirement Board that sits, on behalf of the NFL players 
and the NFL owners. These claims must first go through a two-
person Disability Committee, then it must--if a player is not 
happy, he can--if a player is not happy and there is a 
deadlock, he can then appeal it to the full board, where there 
are three members, three player--former players--Tom Condon, 
who is a President of the NFLPA--former president; Jeff Van 
Note, another former President of the NFLPA, played 18 years 
for the Falcons; and Dave Duerson, who testified earlier. The 
NFL appoints team owners, and have appointed team owners--Bill 
Bidwell, of Arizona, Clark Hunt, of Kansas City, and Dick Cass, 
who is the President of the Baltimore Ravens.
    If a player is dissatisfied with this board, they have a 
right, which you have heard from Brent Boyd, to appeal to the 
Federal courts. And we have had several appeals to the Federal 
courts.
    Most recently, the NFL and the NFLPA formed an alliance, 
bringing together over $7 million, initially, to fund joint 
replacements and to address financial needs and hardships of 
retired players. The joint replacement surgery will be 
available at no cost to players, without insurance, and 
designated--at designated hospitals across the country. All of 
these benefits are paid for by the active players.
    Chart 4 shows that the current players give up--what the 
current players give up to fund these benefits. Our CBA 
allocates a fixed percentage for salaries and benefits. This 
past year, the active players voluntarily gave up $147.5 
million to fund the benefits for the retired players. That's 
$95 million--I mean $96.5 million to fund pensions, 20 million 
to fund disability benefits, 31 million to fund medical 
benefits, just for the former players. And these numbers are 
growing. We've had 124- percent increase from 2005 to 2006 in 
just pension increase alone.
    The process has cost active players $82,000 per player to 
fund these benefits, which brings me to my third point. I have 
three suggestions for Congressional consideration to help us in 
this.
    First, we need standards for workers' compensation. The 
current state-by-state system causes the vast majority of hurt 
workers, not just NFL players, to settle for a lump-sum payment 
and give up their rights to lifetime medical for their injuries 
on the job. Congress could impose Federal standards to allow 
workers to get immediate medical care, but still maintain 
lifetime coverage.
    Second, the Federal law does not allow a union to manage 
the plans alone. It's negotiated with an--employees, and they 
give a fixed amount. And, since we are getting blamed for not 
granting disabilities, we believe that we should have the only 
voice when it comes to granting of disabilities. We're not 
saying that the six trustees have done anything wrong, or 
have--or we're not criticizing the trustees for the job that 
they've done.
    And, third, the Department of Labor, in 2006, imposed a 
standard, a different--a layer on disability decisions. It's an 
Initial Claims Committee. It's a--we think that Congress could 
eliminate this requirement, which is another bottleneck that 
will help speed up the process.
    Senator Dorgan. Mr. Upshaw, I'm going to have to ask you to 
summarize, please.
    Mr. Upshaw. I'm at the end.
    Senator Dorgan. All right.
    Mr. Upshaw. So, after 16 years as an NFL player, and 
another 24 as Executive Director, be assured that no one cares 
more for the players in the National Football League, both past 
and present, than I do. And I've spent an awful lot of my 
lifetime fighting those battles to protect those rights and to 
give us what we have today. But our job is not over.
    [The prepared statement of Mr. Upshaw follows:]

    Prepared Statement of Gene Upshaw, Executive Director, National 
                  Football League Players Association
    Chairman Dorgan and Members of the Committee, I am Gene Upshaw, 
Executive Director of the NFL Players Association (``NFLPA''). I appear 
today at the Committee's invitation to discuss the benefits provided to 
players in the National Football League (``NFL''). Prior to becoming 
Executive Director in 1983, I played 16 years in the National Football 
League. I know the risks and rewards of the game.
    I am distressed when I hear about any former player who is hurting 
and in need. Remember I played with a lot of these guys. I have spent 
my entire professional career fighting for the rights of players. I 
also recognize these are very emotional issues but we cannot overlook 
the facts. The facts are the facts. I ask permission to submit for the 
record our detailed ``White Paper,'' which describes the retirement, 
disability, health care, and other benefits currently available to NFL 
players.
    Our benefits were forged in collective bargaining. In 1993, as part 
of my first collective bargaining agreement as Executive Director, we 
dramatically improved both pension and disability benefits for all 
players.
    I want to make three simple points.
    First, the NFLPA is proud of the job we have done for NFL Players 
both active and retired. NFL Players are well compensated and enjoy an 
outstanding benefits package. Unlike many businesses, where benefits 
have been reduced, benefits for NFL players have been maintained and 
repeatedly improved. We represent the best practices of labor 
relations.
    Second, we are not finished. I think all of the active players 
respect and empathize with the emotions and concerns expressed by 
retired players. This is why we established a Retired Players 
organization as a division of the NFLPA in 1984. And, in 1990, we 
established the Players Assistance Trust (PAT), funded by the active 
players to help former players in need. In the past 18 months, this 
fund has disbursed over $1.5 million to former players in need of 
financial assistance.
    When I became Executive Director in 1983, about 30 percent of NFL 
revenues went to the players. That has now doubled, to 60 percent of 
all revenues. Our union went through some dark times. We had to 
renounce our union status--``decertify''--to bring the legal challenge 
that ultimately led to our present success. I don't think any other 
union had ever done that; everyone said we were crazy. But we made it 
work. We shifted the battle from the picket line to the courtroom, and 
forged the partnership with the owners we are proud to have today. With 
labor peace, the game has grown enormously, and all have benefited--
players, owners, and fans.
    This success has allowed us to win against the prevailing trend of 
reducing benefits to workers. Before we get into the hype, let's look 
at the facts. The NFLPA has fought hard to increase benefits--
especially pensions, disability, and health care. The charts behind me, 
and our more detailed White Paper, speak the truth.
    Chart I shows in 1993, we reached back and included the ``pre-
59ers'' for the first time in the Pension plan and reduced the vesting 
period. These changes extended coverage to over 900 former players and 
their beneficiaries. In each succeeding extension of the CBA in 1998, 
2002 and 2006, the benefit credits for pension purposes of former 
players were increased.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Let's turn to disability. I want to begin by emphasizing that the 
Players Association, its members, staff and me personally, are 
sensitive to the medical, financial and emotional needs of professional 
football players--both retired and active. We are distressed when a 
former player is in need, and we are committed to responding to the 
needs of all players.
    But we reject charges that the present NFL Disability Benefit 
system treats veteran players harshly or denies them access to 
benefits. The factual record disproves those charges. Of course, the 
system can be improved, and Commissioner Goodell and I are determined 
to simplify and expedite the processing of claims.
    Chart II summarizes disability decisions from 1993, when the 
present disability categories were established, through June 2007.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Of the 1,052 applicants for disability benefits since 1993, many 
were ineligible because they were not vested or were already receiving 
a pension. Since 1993, 428 players, or 42.6 percent of those who 
applied, have received disability benefits. Forty eight cases are still 
pending, and there will be more approvals. This compares to a 47 
percent approval rate for Social Security disability.
    Another recent disability benefit added by agreement between the 
NFLPA and NFL is the establishment this year of the ``88 Plan''. ``88'' 
was Hall of Fame John Mackey's number and the plan is named in his 
honor. It was negotiated and agreed to between Paul Tagliabue and 
myself during our 2006 CBA extension talks. This benefit was extremely 
important to me and our union because of how much John Mackey meant to 
us. He was the first President of the NFLPA after the merger of the old 
NFL Players Association with the American Football League Players 
Association in 1970. John put his name on the line in a major antitrust 
suit which we won in the mid-1970s, and he has long been an inspiration 
to the officers and staff of the NFLPA. I know John well and he is 
always in our thoughts as we continue to make improvements.
    Chart III shows that since February of this year we have 
distributed 130 applications to players. Of those applicants, we have 
received 79 back from players and 60 of the applications have been 
approved. Of the remaining 19, only 4 have been denied and 15 are 
pending.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Commissioner Goodell and I do not decide disability claims. 
Disability claims must first go to a two-person Disability Initial 
Claims Committee (required by Department of Labor regulations since 
January 2002). If the Committee deadlocks or a player is not satisfied 
with its decision, the player may appeal to the full Retirement Board. 
The Board has six voting members; three appointed by the League and 
three appointed by the NFLPA. The 3 members appointed by the NFLPA are 
retired players: Tom Condon, former President of the NFLPA, played 11 
years in the NFL; Jeff Van Note, former President of the NFLPA, played 
18 years for the Atlanta Falcons; and Dave Duerson, who played 11 
years, and was an All-Pro safety. The NFL appointees are team owners 
William (Bill) Bidwell (Arizona Cardinals), Clark Hunt (Kansas City 
Chiefs) and Dick Cass (President, Baltimore Ravens). If a player is 
dissatisfied with the Board's decision, a player may seek review in 
Federal court.
    More recently the NFLPA/NFL formed an ``Alliance'' bringing 
together an initial $7 million fund to pay for joint replacement 
surgery and address other financial hardships of retired players. The 
joint replacement surgeries will be available at no cost to retired 
players without insurance at designated hospitals across the country.
    All of these benefits and improvements are paid for by the active 
players.
    Chart IV shows what the current players give up to help those who 
came before them. Our CBA allocates a fixed percentage of total NFL 
revenues for player salaries and benefits. As you can see, last year 
alone the current players voluntarily gave up $147.5 million to help 
former players. None of this $147.5 million went to current players.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    That's $96.5 million to fund pensions, $20 million to fund 
disability benefits, and $31 million to fund medical benefits. Just for 
former players. And these numbers are growing. Because of the pension 
increases in the 2006 CBA, the cost of funding pensions alone for 
former players more than doubled--from $39 million to $96.5 million--a 
147 percent increase in 1 year.
    In the process each active player essentially reduced his salary by 
$82,000.
    My third point is that Congress can help. I have three suggestions 
for legislative action.
    First, we need Federal standards for workers compensation. The 
current state-by-state system often causes the vast majority of hurt 
workers, not just NFL players, to settle for a lump sum, and give up 
their rights to lifetime medical care for their injuries on the job. 
Congress should impose Federal standards that allow injured workers to 
get immediate medical help and keep lifetime coverage.
    Second, Federal law does not allow unions to manage their own 
plans, even when, as here, the negotiated contribution by employers is 
fixed and plan actions cannot impose extra liability. By proposing this 
I do not suggest that any of the six trustees have not acted in good 
faith and in accordance with their fiduciary duty. But since the NFLPA 
has been criticized when applications are denied (even though a 
majority vote of the six trustees is necessary for a decision), and 
since current players are funding the system, it makes sense for the 
players to be the ones making the disability decisions.
    Third, in 2002, the Department of Labor imposed an extra level of 
decision-making in disability decisions--a new Initial Claims 
Committee--before our six trustees can hear the evidence about a 
particular player's disability. I ask Congress to eliminate this 
requirement. I opposed the creation of this extra committee when the 
Department of Labor proposed it.
Conclusion
    After 16 years as a player in the NFL and another 24 years as NFLPA 
Executive Director, be assured that no one cares more than I do about 
the disability issues and others facing my fellow players. We have made 
great progress and we are not finished. Congress can help.
    I welcome any questions the Committee may wish to ask and will do 
my best to answer them.
                                 ______
                                 
                           NFLPA WHITE PAPER
                Table of Contents and Executive Summary
I. NFL/NFLPA Benefits Overview: All Benefits to Retired Players Paid by 
        Current Players Under Salary Cap--60 percent of NFL Revenues

  <bullet> Active Players Pay For All Benefits.

  <bullet> The NFLPA Has Obtained Repeated and Significant Increases in 
        Benefits for Retired Players.
II. Disability System
A. Disability Benefits Overview

  <bullet> Most Generous and Flexible Disability in Professional Sports

  <bullet> The NFLPA Is Always Working to Improve Benefits and 
        Procedures

B. Disability Eligibility and Award Statistics
C. Disability Categories, Application and Award Process
1. Categories of Disability

  <bullet> Plan Pays Both Total and Permanent and Partial Disability 
        Benefits

  <bullet> Four Categories of Total and Permanent Disability Benefits

    <ctr-circle> Active Football: Football-related, within 6 months

    <ctr-circle> Active Non-Football: Non-football related, within 6 
            months

    <ctr-circle> Football Degenerative: Football-related, within 
            fifteen years

    <ctr-circle> Inactive: Non-football related, no time limit

  <bullet> Line of Duty Benefits (``LOD''): Partial Disability, Player 
        may be working

2. Disability Application and Award Procedure

  <bullet> Decisions Are Made By Plan Fiduciaries, Including 3 Former 
        Players

  <bullet> Disability Claims are Processed as Required by Federal Law

  <bullet> Application

  <bullet> Initial Medical Examination

  <bullet> Initial Decision by Disability Initial Claims Committee

  <bullet> Appeal Rights

  <bullet> Retirement Board

  <bullet> Second Medical Exam

  <bullet> The Retirement Board decides all appeals based on the entire 
        record

  <bullet> Players Can Appeal to Federal Court

  <bullet> Since 1993, the courts have upheld 96 percent of the 
        Retirement Board's decisions in lawsuits filed by retired 
        players (in 24 of 25 decided cases)

D. Facts About Former Players With Public Controversies Over Disability 
        Issues

  <bullet> Brent Boyd

  <bullet> Brian DeMarco

  <bullet> Conrad Dobler

  <bullet> Daryl Johnston

  <bullet> Eugene ``Mercury'' Morris

  <bullet> Mike Mosley

  <bullet> Dave Pear

  <bullet> Mike Webster

  <bullet> Delvin Williams

III. Workman's Compensation

  <bullet> NFLPA Bargained for and obtained Workman's compensation 
        benefits for all players and provides legal counsel to help 
        players apply

IV. Lifetime Retirement Income Security Plans
A. Lifetime Pensions Paid by Current Players

  <bullet> A player needs to be vested to be eligible for retirement 
        and for the third and fourth categories of T&P disability 
        benefits

  <bullet> Benefit Credits

  <bullet> Past pensions have been increased four times since 1993

  <bullet> In 1993, pre-1959 players ``Pre-59ers'' began to receive 
        pensions for the first time

  <bullet> Some players receive a smaller than usual pension because 
        they elected to take their pensions many years before 
        retirement age

  <bullet> Some players receive a small pension because they elected to 
        take a ``Social Security Adjustment''

  <bullet> Other reasons why some retired players are receiving smaller 
        than usual pensions

B. Second Career Savings Plan: 401(k)

  <bullet> 2 for 1 401(k) benefits for players

C. NFL Player Annuity Program
V. Health Care Benefits
A. Five Free Years of Post-Career Medical Coverage
B. Pre-Tax Deposits Into Health Reimbursement Accounts ($25,000 per 
        year/$300,000 max)
C. 88 Plan
VI. Other Charitable Retired Player Programs

  <bullet> Widows and Surviving Children Benefits

  <bullet> Players Assistance Fund

  <bullet> Retired Players Medical and Assistance Fund

I. NFL/NFLPA Benefits Overview

    Active Players Pay For All Benefits: The NFL Players Association 
and the NFL agree in collective bargaining on the benefits to be 
provided. Benefit costs reduce the revenue available for active players 
under the Collective Bargaining Agreement (``CBA''):

  <bullet> The CBA between the Players Association and the NFL provides 
        retirement, medical, and disability benefits to former players. 
        The CBA allocates a percentage of the League's revenues for 
        player salaries and player benefits (currently 60 percent).

  <bullet> The costs of benefits to former players come from the active 
        players' side of the table. In other words, all of the CBA 
        benefits, including the cost of benefits for players no longer 
        active, reduce the amount available for salaries and benefits 
        of active players.

  <bullet> In 2006 alone, active players gave up $147.5 million for 
        benefits to retired players. This means that each active player 
        gave up approximately $82,000 of his salary for medical, 
        disability, and retirement benefits for former players.

    From April 2006 to March 2007--the active players gave up 
approximately:

  <bullet> $96.5 million to fund retirement benefits for retired 
        players;

  <bullet> $31 million to fund medical benefits for retired players;

    <ctr-circle> $18 million in contributions to health reimbursement 
            accounts.

    <ctr-circle> $2 million to 88 Plan for Dementia.

    <ctr-circle> $11 million for 5 years post-retirement fully paid 
            health care.

  <bullet> $20 million to fund disability benefits for former players.

    In 2005-2006, current players contributed $39 million to fund 
retirement benefits for former players.

  <bullet> The current $96.5 million is a 147 percent increase in 1 
        year thanks to the 2006 CBA.
The NFLPA Has Obtained Repeated and Significant Increases in Benefits 
        for Retired Players.
    Beginning in 1993, the NFLPA obtained significantly increased 
pensions for retired players four times. Pre-59ers were included in the 
Retirement Plan for the first time in 1993, and their benefits have 
since been more than tripled.
    Significantly increased Total and Permanent Disability benefits.
    Tripled widow and surviving children benefits.
    Created Plan 88 (see below).
II. Disability System
A. Disability Benefits Overview
    Most Generous and Flexible Disability in Professional Sports: The 
Plan offers total and partial disability benefits--T&P and Line of 
Duty--explained in further detail below.

  <bullet> The disability award process investigates (1) whether a 
        player is able to work; (2) what caused the player's 
        disability; and (3) when the disability began.

  <bullet> Vested former NFL players who become unable to work--for 
        whatever reason--decades after they leave the game may still 
        receive a disability benefit that serves as income replacement.

  <bullet> This is highly unusual. An employee of a corporation like 
        IBM or General Motors does not expect to get--and does not 
        get--disability benefits if he or she becomes unable to work 
        decades after leaving the job.

  <bullet> The Plan also offers partial disability called ``Line of 
        Duty,'' which players may receive even when they are still able 
        to work.

  <bullet> Since 1993--when the current structure was put in place--
        about $140 million has been paid to disabled players.

  <bullet> Once a disabled retired player reaches retirement age, he 
        will begin to receive the higher of either his disability or 
        his pension for the remainder of his life.

    The NFLPA Is Always Working to Improve Benefits and Procedures: 
Even outside of the formal collective bargaining process, the NFLPA 
continues to seek improvements in benefits and in the process.

  <bullet> The NFL/NFLPA recently announced an agreement that 
        automatically grants disability benefits to eligible former 
        players who receive social security disability benefits.

  <bullet> Because of this change, additional players will now receive 
        NFL disability benefits, and players already receiving social 
        security benefits will not have to be examined by a Plan 
        doctor.

  <bullet> The NFLPA has suggested other major changes that could 
        eliminate difficult decisions on effective dates and causation 
        for many players, and allow the Plan to process applications 
        faster.
B. Disability Eligibility and Award Statistics
    Eligibility and Award Statistics: This has been considerable 
misinformation reported about the disability award and eligibility 
statistics, which we would like to clarify below:

  <bullet> From 1993 to June 2007, 42.6 percent of individuals who have 
        applied for NFLPA/NFL disability benefits were awarded 
        disability benefits of some kind. Social security is awarded at 
        roughly 47 percent.

  <bullet> As the table below demonstrates, 428 applicants have 
        received disability benefits--of the 1004 who have received a 
        final decisions--which brings the approval rate to 42.6 
        percent.

    <ctr-circle> There are currently 317 former players who are 
            receiving some kind of disability benefit under the Plan. 
            Since 1993, 41 former players who were awarded disability 
            began receiving their pension when they reached retirement 
            age, and therefore no longer receive disability payments. 
            The remaining players who no longer receive disability have 
            either passed away, or no longer qualify for disability 
            since their initial award because the benefit expired, or 
            because the Plan has determined that they are no longer 
            disabled.

  <bullet> Of the 1,052 people who applied in this period, many were 
        already receiving a pension or were not vested (had not played 
        3 or more seasons), and therefore were ineligible when they 
        applied for disability benefits.

  <bullet> Currently, there are 4,900 vested (3 seasons or more) former 
        players who are eligible to apply for disability benefits under 
        the NFL/NFLPA plan, not 10,000, as has been reported in some 
        media outlets.

  <bullet> In addition to the 4,900 vested former players who are 
        eligible, there are currently 2,100 active players who are not 
        eligible to apply for disability because they are actively 
        playing football, and are therefore not disabled.

  <bullet> There are additionally close to 3,000 former players who are 
        currently receiving a pension from the NFL/NFLPA Retirement 
        Plan, and are also therefore not eligible to receive 
        disability. Since pension and disability are both ``income 
        replacement'' benefits, once a player begins to receive his 
        pension he can no longer apply for disability benefits. (This 
        is standard, if not universal, among all employers.)
    Table 1 summarizes the disability decisions of the Retirement Plan 
from July 1993, when the present disability categories were created to 
June 26, 2007.

                                                     Table 1
----------------------------------------------------------------------------------------------------------------
 
----------------------------------------------------------------------------------------------------------------
Total disability applicants                                                                                1,052
Approved at initial stage \1\                                                                                358
Denied at initial stage                                                                                      675
Awaiting initial decision                                                                                     19
Applicants denied at initial stage who appealed                                                              223
Approved on appeal                                                                                            69
Denied on appeal                                                                                             132
Appeal Pending                                                                                                22
Applicants who have sued                                                                                      32
Retirement Board upheld                                                                                       24
Retirement Board reversed                                                                                      1
Lawsuit pending                                                                                                7
Overall disability applicants                                                                              1,052
Cases pending                                                                                                 48
Benefit approved                                                                                             428
Benefit denied                                                                                               576
----------------------------------------------------------------------------------------------------------------
Prior to January 1, 2002, initial decisions were made by the Retirement Board. After January 1, 2002, initial
  decisions are made by the Disability Initial Claims Committee, as required by a change in Federal law. The
  Disability Initial Claims Committee has deadlocked on whether to grant a benefit 37 times.

C. Disability Categories, Application and Award Process
1. Disability Categories

    Plan Pays Both Total and Permanent and Partial Disability Benefits: 
The Retirement Plan awards both ``total and permanent,'' (``T&P'') 
disability benefits (meaning the retired player is unable to work) and 
partial disability benefits.
    Total and Permanent Disability--T&P: Total and Permanent disability 
benefits are paid when an eligible player is unable to work, and are 
designed to replace income.

  <bullet> Eligible players may receive T&P benefits even when their 
        inability to work occurs many years after a football career has 
        ended, and even when NFL football did not cause the inability 
        to work.

  <bullet> Once a retired player reaches retirement age (55), he will 
        begin receiving the higher of either his disability payment or 
        his pension for the remainder of his life.

  <bullet> Players who begin receiving their pension can not apply for 
        disability. Both are income-replacement benefits; this is 
        standard, if not universal, among all employers.
    Four Categories of Total and Permanent Disability Benefits:

  <bullet> Active Football: Football-related, within 6 months.

    <ctr-circle> A former player receives $224,000 per year if he 
            becomes totally and permanently disabled due to NFL 
            football within 6 months after his NFL career ends.

    <ctr-circle> No vesting required--available to a player who plays 
            in as little as one game.

  <bullet> Active Non-Football: Non-football related, within 6 months.

    <ctr-circle> A former player receives $134,000 per year if he 
            becomes totally and permanently disabled from any other 
            cause within 6 months after his NFL career ends.

    <ctr-circle> Based on a player's benefit credits, this amount could 
            be higher.

    <ctr-circle> No vesting required--available to a player who plays 
            in as little as one game.

  <bullet> Football Degenerative: Football-related, within fifteen 
        years.

    <ctr-circle> A former player receives $110,000 a year if he becomes 
            totally and permanently disabled due to NFL football within 
            15 years after his NFL career ends.

  <bullet> Inactive: Non-football related, no time limit.

    <ctr-circle> A former player receives a minimum of $18,000 a year 
            ($21,000 for applications on and after April 1, 2007) if he 
            becomes totally and permanently disabled and does not 
            qualify for one of the other categories.

    <ctr-circle> Based on a player's benefit credits, this amount could 
            be higher.

    NOTE: Vesting Required for Football Degenerative and Inactive T&P 
benefits:

  <bullet> These two categories of disability are only available to 
        former players who played in the NFL during at least three 
        seasons and are therefore ``vested.'' Generally, a player earns 
        a season if he is paid for three or more games during that 
        season.

    Line of Duty Benefits (``LOD''): Partial Disability, Player may be 
working.
    Partial disability benefits are paid to players who suffer a 
``substantial disablement.'' Whether a player has a substantial 
disablement is generally determined using the rating system created by 
the American Medical Association for measuring impairments.
    LOD benefits are available to players who play in as little as one 
NFL game.
    To receive ``LOD'' disability a player must apply within 48 months 
(4 years) after his NFL career ends. Partial disability benefits are 
paid for up to 90 months (7.5 years).
    A player's LOD benefit equals the sum of his Benefit Credits. 
Therefore, a player who leaves the game today with five seasons would 
have a monthly LOD benefit of $2,350 (5 seasons times $470).
    Regardless of the number of a player's seasons, he will receive at 
least $1,000 per month.
    Most injuries to NFL players are orthopedic. The collective 
bargaining parties have adopted guidelines created by the American 
Medical Association to measure impairments resulting from orthopedic 
injuries.
    For orthopedic impairments, using the AMA guidelines, LOD benefits 
are paid if the player meets any one of the following thresholds:

  <bullet> A 38 percent or greater loss of use of the entire lower 
        extremity;

  <bullet> A 23 percent or greater loss of use of the entire upper 
        extremity;

  <bullet> An impairment to the cervical or thoracic spine that results 
        in a 25 percent or greater whole body impairment;

  <bullet> An impairment to the lumbar spine that results in a 20 
        percent or greater whole body impairment; or

  <bullet> Any combination of lower extremity, upper extremity, and 
        spine impairments that results in a 25 percent or greater whole 
        body impairment.

    Up to 3 percentage points may be added to the impairment ratings of 
a player if he experiences excess pain.
2. Disability Application and Award Procedure
    Decisions Are Made By Plan Fiduciaries, Including 3 Former Players: 
The Players Association and the NFL do not award or deny disability 
claims. Final decisions on disability benefits are made by 6 voting 
members of the Retirement Board--three of whom are former players--and 
all medical decisions are based on the medical reports of one or more 
neutral doctors chosen by all voting members, and all medical 
information submitted by the player.
    Disability Claims are Processed as Required by Federal Law: In 
compliance with Federal law, the Retirement Plan gives former players 
every opportunity to qualify for disability benefits. The process that 
a player goes through is outlined as follows:
    Application: A player seeking disability benefits begins by 
completing a written application and sending it to the Plan Office in 
Baltimore. The Plan Office has a toll-free number that former players 
can call to ask questions and get forms, and also has a website for 
downloading forms.
    Initial Medical Examination: The player is then sent to a neutral, 
qualified physician approved by the Retirement Board for an 
examination. These physicians are called neutral physicians because 
they are appointed jointly by the Retirement Board members appointed by 
the Players Association and the NFL. Based on his examination, the 
physician provides a written report that describes the player's 
condition, measures impairments for purposes of LOD benefits, and 
addresses the player's ability to work.

  <bullet> Initial Decision: The Disability Initial Claims Committee 
        (the ``DICC'' or ``Committee'') makes initial decisions on 
        disability benefit claims. It is comprised of two individuals--
        one appointed by the NFL and the other by the NFLPA. The Labor 
        Department required this layer of decisionmaking by Federal law 
        in 2002.

  <bullet> The Committee reviews the player's entire file, including 
        all medical reports by the Plan neutral physicians and by other 
        physicians submitted by the Player. If the Committee approves 
        the application, disability payments begin immediately.

  <bullet> If the Committee denies the player's claim, or if the 
        Committee is deadlocked (in which case the application is 
        deemed denied), the player may appeal, as described below.

    Appeal Rights: If the Committee denies a claim, is deadlocked, or 
the player is dissatisfied with the Committee's decision in any way, 
the player may appeal to the full Retirement Board for a complete 
review of the claim. On appeal, the Retirement Board will review all 
available materials, whether or not presented to the Committee, and 
will give no deference to the decision of the Committee. The Retirement 
Board conducts a full and fair and totally independent review of all 
appeals.
    Retirement Board: The Retirement Board has six voting members--
three appointed by the NFLPA, and three appointed by the NFL.
    NFLPA-appointed voting members: All distinguished retired players:

  <bullet> Tom Condon played for the NFL for 11 years, and served as 
        President of the NFLPA while he was an active player. Today, he 
        is an attorney and a top football agent with Creative Artists 
        Agency.

  <bullet> Jeff Van Note played for the Atlanta Falcons for 18 years, 
        and served as President of the NFLPA while he was an active 
        player.

  <bullet> David Duerson played in the NFL for 8 seasons, was all-Pro 
        in 4 years, and won two Super Bowl rings. Mr. Duerson attended 
        Harvard Business School after retiring from the NFL and 
        currently works in business.

    NFL-appointed voting members:

  <bullet> William Bidwill, Owner of the Arizona Cardinals.

  <bullet> Clark Hunt, Owner of the Kansas City Chiefs.

  <bullet> Dick Cass, President of the Baltimore Ravens.

    Second Medical Exam: On appeal, the player is sent, as required by 
Federal law, to one or more new neutral physicians for additional 
medical examination. These physicians provide written reports on the 
Player's condition.
    The Retirement Board decides all appeals based on the entire 
record.
    Resolving Deadlocks: 3 to 3 votes--of the Retirement Board are 
resolved by either:

  <bullet> Medical Advisory Physician (``MAP''): If the dispute is over 
        a medical issue, such as whether a player medically is 
        substantially unable to work, either side (the player-appointed 
        trustees or the management-appointed trustees) can send the 
        player to one of the Plan's top, pre-approved, neutral three 
        doctors. These doctors are called ``Medical Advisory Physicians 
        (``MAPs''), and their medical decisions are binding on the 
        Retirement Board. This final review will almost always resolve 
        any deadlock between voting trustees.
  <bullet> Arbitration: In rare cases--and this has happened only once 
        in the last 14 years--the deadlock is resolved by arbitration 
        between the members of the Retirement Board.

    Players Can Appeal to Federal Court: If a player is dissatisfied in 
any way with the decision of the Retirement Board, he has the right to 
file a lawsuit in Federal court for benefits.

    Since 1993, the courts have upheld 96 percent of the Retirement 
Board's decisions in lawsuits filed by retired players (in 24 of 25 
decided cases).
    This record demonstrates the care with which the Committee and the 
Retirement Board decide pension and disability claims.
D. Facts About Former Players With Public Controversies Over Disability 
        Issues

Brent Boyd
    Mr. Boyd played professional football in the NFL from 1980-1986.
    Mr. Boyd is receiving total and permanent disability (``T&P'') 
benefits under the Plan's ``Inactive'' category, which provides a 
minimum of $18,000 per year.

  <bullet> Mr. Boyd is receiving Inactive T&P benefits rather than 
        Football Degenerative T&P benefits because the only doctor who 
        was certain about the cause of his psychological and 
        psychiatric problems--a neutral and renowned expert from Johns 
        Hopkins University Medical Center--determined, to a reasonable 
        degree of medical certainty, that Mr. Boyd's problems could not 
        have been caused by Mr. Boyd's concussion in 1980.

  <bullet> Accordingly, he did not meet the standard for the highest 
        level of payment, the football-related ``Football 
        Degenerative'' T&P benefits.

    Mr. Boyd first applied for T&P benefits in 1997; he claimed that he 
was unable to work due to orthopedic impairments, never mentioning a 
football-related head injury in his application.

  <bullet> After a Plan neural orthopedist opined that Mr. Boyd was 
        capable of sales and other work, the Retirement Board denied 
        Boyd's application.

  <bullet> Mr. Boyd did not challenge that decision by pursuing a 
        Federal court appeal.

    Mr. Boyd reapplied in 2000; he now claimed, for the first time, 
that he was unable to work due to a psychological disorder caused by a 
head injury that occurred in 1980.
    The Retirement Board referred Mr. Boyd for examination by a 
neurologist and a psychiatrist.

  <bullet> Both doctors indicated that Mr. Boyd was then totally and 
        permanently disabled (i.e., substantially couldn't work) due to 
        cognitive and psychiatric impairments. But, both physicians 
        also indicated in their written reports that they were 
        uncertain what caused Mr. Boyd's disability.

  <bullet> The player trustees wanted to award Mr. Boyd the higher 
        Football Degenerative T&P benefit, but the management trustees 
        would not agree, in large part because Mr. Boyd had not claimed 
        head injuries in his 1997 application.

  <bullet> The Retirement Board awarded Mr. Boyd the Inactive T&P 
        benefits (i.e., a minimum of $18,000 per year where a player 
        does not qualify for a higher category) on the basis of these 
        reports, and agreed to further study the causation of Mr. 
        Boyd's impairments for possible reclassification.

    To resolve the deadlock on causation, the Retirement Board referred 
Mr. Boyd to a pre-eminent neurologist at Johns Hopkins, Dr. Barry 
Gordon, who has particular expertise in memory, cognitive impairments, 
and head injuries.
    After an extensive examination by Dr. Gordon, which lasted well 
over an hour, Dr. Gordon concluded, ``to a reasonable degree of medical 
certainty,'' that Mr. Boyd's impairments were not caused by NFL 
Football. Mr. Boyd and his attorneys were given repeated opportunities 
to provide a medical rebuttal, but never did. Contrary to Mr. Boyd's 
public statements, Dr. Gordon's assistant, who performed tests, had 
completed the course work for a Masters in Developmental Psychology at 
Hopkins (which she received 2 months later), was well-trained in 
testing and had performed that test on other patients at least a dozen 
times before Mr. Boyd, and still works as a consultant to John Hopkins.
    Based on this information, the Retirement Board concluded that Mr. 
Boyd did not meet the requirements for a football-related disability, 
and awarded him Inactive total and permanent disability benefits (the 
fourth T&P category, at a minimum of $18,000 per year).
    Mr. Boyd sued the Retirement Plan in Federal District Court in San 
Diego. That court upheld the Board's decision and reasoning that Mr. 
Boyd's psychological impairments were not caused by a football-related 
injury, and rejected Mr. Boyd's arguments.
    Mr. Boyd then appealed to the Ninth Circuit Court of Appeals. A 
three judge panel unanimously affirmed the District Court's decision 
and upheld the findings of the Retirement Board. The Ninth Circuit 
rejected Mr. Boyd's claim that his psychological condition was 
football-related.
Brian DeMarco
    Mr. DeMarco played professional football in the NFL from 1995-1999.
    Mr. DeMarco has never filed a claim for disability benefits, even 
after the Retirement Plan sent him five applications via certified mail 
over the past 5 years.
    The plan sent Mr. DeMarco disability applications in March 2002, 
December 2002, September 2005, August 2006, and July 2007.
    The Plan Office has never received a single disability application 
from Mr. DeMarco. The Plan still has three of the written, signed 
proofs that the application was received.
    Because Mr. DeMarco has declined to even begin the process, the 
Plan cannot be blamed for failing to pay disability benefits to him.
    Mr. DeMarco has claimed that he sent in the application, which was 
misplaced by the Plan office. This is false. As of September 2007, Mr. 
DeMarco has still not sent in an application for disability.
Conrad Dobler
    Mr. Dobler played professional football in the NFL from 1972-1981.
    First, the Board denied Mr. Dobler's 1993 claim for T&P benefits 
because he was able to work at that time, despite his knee and elbow 
impairments. As described above, T&P benefits are reserved for former 
players whose impairments prevent them from being able to work.

  <bullet> Mr. Dobler applied for Total and Permanent Disability in 
        1993.

  <bullet> After evaluating the report of the Plan neutral physician 
        who examined Mr. Dobler, the player trustees wanted to award 
        him T&P disability benefits, but again the management trustees 
        refused to do so, which left the Board deadlocked at 3 to 3.

  <bullet> As a result of this deadlock, the Board sent Mr. Dobler for 
        an additional examination by a Medical Advisory Physician 
        (``MAP''), whose medical determinations are final and binding 
        on the Board.

  <bullet> The MAP determined that Mr. Dobler did not qualify for T&P 
        benefits because he was able to work, and was in fact working. 
        Therefore, the Board denied his application for T&P benefits.

    Second, the Board denied Mr. Dobler's 2006 claim for LOD benefits 
(partial disability, player may still be able to work) because his 
claim for those benefits was more than 2 decades late. The Plan 
requires that a player apply for LOD benefits within 4 years of leaving 
the game.

  <bullet> In 2006, thirteen years after his initial application and 25 
        years after playing football, Mr. Dobler applied for LOD 
        benefits.

  <bullet> His application was more than 20 years late.

  <bullet> A player must apply for Line of Duty disability within 4 
        years of retiring from the NFL, and Mr. Dobler's last season 
        was 1981.

Daryl Johnston
    Mr. Johnston played professional football in the NFL from 1989-
1999.
    Mr. Johnston's neck impairment did not meet the Plan's standards 
for a ``substantial disablement'' for line-of-duty disability (``LOD'') 
benefits when he applied, and he therefore did not qualify to receive 
them.

  <bullet> Mr. Johnston applied for LOD benefits in 2001.

  <bullet> The player members of the Retirement Board wanted to award 
        LOD benefits, and the management members refused, which left 
        the Board deadlocked at 3 to 3.

  <bullet> As a result of this deadlock, Mr. Johnston was sent to a 
        Medical Advisory Physician, whose medical opinion is final and 
        binding on the Retirement Board.

  <bullet> This physician determined that Mr. Johnston did not meet the 
        Plan's standards for LOD benefits.

Eugene ``Mercury'' Morris
    Mr. Morris played professional football in the NFL from 1969-1975.
    In 1992, Mr. Morris accepted a lump sum payment of $295,000 in 
return for giving up all rights to any future disability benefits.
    Mr. Morris made this decision while represented by his attorney.
    In spite of the settlement, Mr. Morris has repeatedly tried to set 
aside the settlement by filing multiple lawsuits and conducting a 
harassment campaign against Plan attorneys.
    Three Federal courts have told Mr. Morris he is bound by the 
agreement and that the agreement clearly does not allow him to obtain 
additional benefits for disability.
    The courts have told him that another lawsuit will result in 
sanctions.
Mike Mosley
    Mr. Mosley played professional football in the NFL from 1981-1984.
    After receiving Football Degenerative total and permanent 
disability benefits for 6 years (third category of T&P benefits, which 
pays $110,000 per year), Mr. Mosley no longer qualified for these 
benefits because he became able to work. It would be unfair to disabled 
players to pay benefits to former players who are not disabled.

  <bullet> Mr. Mosley applied for total and permanent disability 
        benefits in September 1998.

  <bullet> His application was approved in October 1998, and Mr. Mosley 
        began to receive the disability benefits awarded to him.

  <bullet> In 2004, Mr. Mosley was reexamined by a Plan doctor who 
        found that Mr. Mosley was able to work.

  <bullet> A second, neutral Plan doctor confirmed this assessment.

  <bullet> The Plan therefore terminated Mr. Mosley's benefits in 
        October 2004.

Dave Pear
    Mr. Pear played professional football in the NFL from 1975-1980.
    The Retirement Board denied Mr. Pear's 1983 claim for LOD benefits 
based on an arbitration decision finding that Mr. Pear did not meet the 
requirements for those benefits in effect when he applied.

  <bullet> Mr. Pear applied for LOD benefits in 1983.

  <bullet> At that time, the Retirement Board was required to determine 
        that the player's injury caused him to leave football before it 
        could grant LOD benefits.

  <bullet> After evaluating the report of the neutral physician who 
        examined Mr. Pear, the three player trustees wanted to award 
        Mr. Pear the LOD benefits, but the three management trustees 
        refused to do so.

  <bullet> As a result of this deadlock, the Board sent the issue to an 
        arbitrator, who ultimately ruled that the injury did not cause 
        Mr. Pear to leave football.

  <bullet> As a result of the NFLPA's successful negotiations in 
        bargaining, this requirement for LOD benefits--that the injury 
        must have made the player leave the game--was dropped from the 
        Plan after the 1993 CBA.

    The Retirement Board denied Mr. Pear's 1995 claim for T&P benefits 
because the Board determined that he could work after evaluating the 
medical evidence in his file.

  <bullet> Mr. Pear applied for T&P benefits in 1995.

  <bullet> The Plan doctor who examined Mr. Pear determined that he 
        could work.

  <bullet> The Board therefore concluded that Mr. Pear did not qualify 
        for T&P disability benefits.

Mike Webster
    Mr. Webster played professional football in the NFL from 1974-1990.
    Mr. Webster applied for Football Degenerative T&P disability 
benefits (third T&P category that pays $110,000 per year) due to head 
injuries in June 1999. The Board promptly and unanimously determined 
that Mr. Webster could not work, and that football had caused his 
disability.
    Mr. Webster began to receive over $9,000 per month, and he 
collected those benefits for the rest of his life. The Plan also paid 
an additional $300,000 in retroactive benefits after the Board 
unanimously determined that he became totally and permanently disabled 
in 1996.
    The only issue in dispute in Mr. Webster's case was when Mr. 
Webster became unable to work. The Retirement Board unanimously decided 
to pay Mr. Webster retroactively back to 1996, when the evidence showed 
he was first unable to work, and the Board unanimously found that 
football caused his inability to work.

  <bullet> Mr. Webster had worked very hard to set up businesses and 
        real estate deals after he left the NFL in 1991.

  <bullet> The Retirement Plan undertook a thorough investigation into 
        the time of Mr. Webster's impairment, carefully reconstructing 
        the details of Mr. Webster's life almost a decade earlier.

  <bullet> The Plan learned that in the years immediately following 
        football, Mr. Webster set up businesses, bought property, 
        promoted products, traveled extensively, and filed lawsuits.

  <bullet> In 1995 Mr. Webster's own attorney told him that he would 
        not qualify for Social Security disability benefits because he 
        was working.

  <bullet> Although his businesses ultimately failed, there was no 
        indication that Mr. Webster had a serious medical impairment 
        until he was hospitalized in September 1996.

  <bullet> The Retirement Board unanimously decided to pay benefits 
        retroactively to September 1996--an award of over $300,000 in 
        retroactive benefits, in addition to his disability payment of 
        over $9,000 per month for the rest of his life.

    The Retirement Board never improperly delayed payment to Mr. 
Webster.

  <bullet> When Mr. Webster applied for T&P benefits in June 1999, the 
        Retirement Plan awarded Football Degenerative T&P benefits 
        within 3 months (at the first meeting it could do so) of his 
        application because of the head injuries he had sustained, and 
        Mr. Webster promptly began to receive disability payments of 
        over $9,000 per month.

  <bullet> It did take time to reconstruct Mr. Webster's activities in 
        prior years--Mr. Webster's attorney requested and received 
        additional time to make a case that Mr. Webster was totally and 
        permanently disabled upon his retirement from NFL football in 
        1991.

  <bullet> The IRS then presented a tax levy based on unpaid taxes for 
        income Mr. Webster received during 1992 and 1993, during which 
        time Mr. Webster was claiming total and permanent disability.

  <bullet> Mr. Webster's then-attorney took many months to explain Mr. 
        Webster's income during those years.

    Ultimately, the Estate of Mike Webster exercised its right to 
judicial review of the matter, and sued the Retirement Plan in the 
Baltimore, Maryland Federal district court.
    Through his attorney, Mr. Webster argued that he was so mentally 
impaired when he left football in 1991 that he could not even file an 
application.
    The court determined that Mr. Webster was totally and permanently 
disabled as of 1991, 5 years earlier than the date awarded by the 
Retirement Board, and thus awarded his Estate additional $2 million in 
retroactive disability benefits for 5 years and attorneys fees.
    The Fourth Circuit Court of Appeals upheld the district court's 
decision on when Mr. Webster became unable to work, and the Retirement 
Board paid the additional disability benefits awarded by the court to 
the Estate of Mike Webster.
Delvin Williams
    Mr. Williams played in the NFL from 1974 to 1981.
    Mr. Williams applied for LOD benefits in 1983. The player members 
of the Retirement Board believed he qualified for that benefit, but the 
management members did not. The matter was sent to arbitration. The 
arbitrator said that he did not qualify.
    Mr. Williams applied for T&P benefits in June 1995. Based on the 
medical evidence, at its July 20, 1995 meeting, the Retirement Board 
unanimously awarded Mr. Williams Football Degenerative T&P benefits 
starting August 1, 1995.
    Because Mr. Williams desired an effective date of July 1, 1993 for 
his T&P benefits, the Plan requested evidence of Mr. Williams' 
employment during the period between July 1, 1993 and August 1, 1995. 
The Plan learned the following facts:

  <bullet> According to his Social Security Administration earnings 
        records and tax records, Mr. Williams had substantial 
        employment earnings in most of the years after his retirement 
        from the NFL in 1981 and up to 1995. In 1992, Mr. Williams 
        earned $51,583; in 1993, his income was $52,491; in 1994, his 
        income was $55,839; and in 7 months of working in 1995, he 
        earned $31,574.

  <bullet> From December 1, 1991 to December 1, 1992, Mr. Williams 
        worked for Solem & Associates, a San Francisco public relations 
        firm. From January 1, 1993 to April 1, 1995, Mr. Williams 
        worked for the San Francisco Chamber of Commerce. Mr. Williams 
        worked for a company called Sports Lab from April 17, 1995 to 
        July 15, 1995. During these years, Mr. Williams listed his 
        occupation as ``Executive'' or ``Community Relations'' on his 
        Federal income tax returns.

    Based on Mr. Williams' substantial employment during the period 
prior to August 1, 1995, the Retirement Board denied his claim for 
retroactive disability benefits.
    Mr. Williams appealed, and submitted a new medical report from the 
doctor that examined him in 1983, in connection with Mr. Williams' 
unsuccessful claim for LOD benefits. This doctor stated both that Mr. 
Williams had been totally and permanently disabled in 1983 and that his 
medical condition had not changed since 1983. This doctor made these 
statements in 1997 even though he did not find Mr. Williams totally and 
permanently disabled in 1983.
    The Retirement Board found this report unconvincing, because it 
contradicted both that same doctor's report in 1983 and the undisputed 
evidence of Mr. Williams' substantial employment through 1995. The 
Retirement Board unanimously denied his appeal for disability benefits 
for periods prior to August 1995.
    In October 1998, Mr. Williams filed a class action lawsuit for 
retroactive disability benefits for the period from July 1993 to August 
1995. He also asked the court for various other remedies arising out of 
alleged fiduciary breaches and unlawful amendments of the Retirement 
Plan and Disability Plan. His complaint was over 100 pages long.
    The district court dismissed all of the fiduciary breach and 
illegal plan amendment claims advanced by Mr. Williams. The court also 
rejected Mr. Williams' attempt to convert the case into a class action. 
The court, however, did award Mr. Williams an earlier effective date 
for his T&P benefits.
    On appeal, a three judge panel of the Ninth Circuit Court of 
Appeals unanimously overturned the effective date decision of the 
district court. The Retirement Board was completely vindicated.
    Following the Ninth Circuit's decision, the district court awarded 
the Retirement Plan a modest amount of attorneys' fees and costs, to be 
paid gradually out of the $110,000 each year that Mr. Williams 
continues to receive in disability benefits.
III. Workers' Compensation
    NFLPA bargained for and obtained Workman's compensation benefits 
for all players and provides legal counsel to help players apply.
    The NFLPA has negotiated for Workers Compensation benefits to be 
provided to all players. Over the past 25 years the NFLPA has 
established a panel of qualified lawyers to help players file and 
pursue their claims.

  <bullet> Workman's Compensation Benefits are in addition to 
        disability benefits.

  <bullet> Workman's Compensation Benefits are paid for by current 
        players.

  <bullet> The NFLPA strongly advises each player to preserve his 
        rights under Workers Compensation for life-time medical care 
        for his football injuries.

  <bullet> The NFLPA and NFL have agreed that there is no reduction in 
        other disability benefits when a player also receives Workers 
        Compensation.

  <bullet> The cost of Workers Compensation comes out of the players' 
        share of League revenues, like other health and disability 
        benefits.
IV. Lifetime Retirement Income Security Plans
A. Lifetime Pension Payments
    Vesting: A player needs to be vested to be eligible for retirement 
and for the third and fourth categories of T&P disability benefits--
Football Degenerative and Inactive. Currently, a player is vested if he 
is plays for three or more seasons. A player receives a credited season 
if he is paid for three or more regular or post-season games in that 
season.
    Under the 1993 collective bargaining agreement--the first 
collective bargaining agreement negotiated by Gene Upshaw--the vesting 
standard was reduced from four seasons to three seasons for all players 
with a season after 1992.
    Under the 1998 collective bargaining agreement, the vesting 
standard for all older players was reduced from five seasons to four. 
The effect of these changes was to provide many more players with a 
vested pension benefit under the Retirement Plan.
    Benefit Credit: Every vested player qualifies for a pension based 
on the sum of his ``Benefit Credits,'' which are amounts determined by 
collective bargaining for each NFL season.
    The current schedule of Benefit Credits for seasons is:

----------------------------------------------------------------------------------------------------------------
 
----------------------------------------------------------------------------------------------------------------
Before 1982                                                                                                 $250
1982 through 1992                                                                                            255
1993 and 1994                                                                                                265
1995 and 1996                                                                                                315
1997                                                                                                         365
1998 and later seasons                                                                                       470
----------------------------------------------------------------------------------------------------------------

    For example, a player who plays NFL football for 10 seasons 
beginning in 1998 is guaranteed a pension at age 55 of $4,700 per month 
($470 x 10 seasons), which is $56,400 per year, for the rest of his 
life.
    If he takes his pension at age 65--normal retirement age for many 
under Social Security--the benefit rises to $147,711 each year for the 
remainder of his life.
    Past pensions have been increased four times since 1993.
    For the oldest players, Benefit Credits went from $60 prior to the 
1993 CBA to the current level of $250 due to the NFLPA's efforts in 
collective bargaining.
    For current players, Benefit Credit levels went from $150 prior to 
the 1993 CBA to the current level of $470 in collective bargaining.
    In 1993, ``Pre-59ers'' began to receive pensions for the first 
time.
    The Retirement Plan was created in the early 1960s. In the 1993 
CBA, the NFLPA, under Mr. Upshaw, fought for these forgotten former 
Players who played before 1959, and won them the right for the first 
time to a vested pension. In CBAs after 1993, their benefit has more 
than tripled.
    Before the 1993 CBA, these players were receiving a ``stipend'' of 
$60 per season that was not guaranteed. They were bumped up to a 
guaranteed pension of $80 per season in 1993. That $80 has since 
increased to $250.
    The 1993 CBA added 854 former players and 65 beneficiaries to the 
Retirement Plan.
    Some players receive a smaller than usual pension because they 
elected to take their pensions many years before retirement age.
    Because a player who starts payments at age 45 (instead of 55) will 
receive benefits for more years, his age-55 benefit is actuarially 
reduced by more than 50 percent in this situation, since they will 
receive their pension for ten more years.
    The option of taking Retirement Plan benefits early (prior to age 
55) is no longer available to current players. The bargaining parties 
eliminated it 1993 because it was detrimental to retired players.

  <bullet> Because of legal requirements, the option continues to be 
        available to all players who played a season prior to 1993.

  <bullet> Players continue to take their pensions early, even though 
        they are warned that doing so will result in a reduction.

    Some players receive a small pension because they elected to take a 
``Social Security Adjustment''.
    Many former players voluntarily chose to front-load their 
retirement benefits by electing a ``Social Security Adjustment'' form 
of benefit, in which the majority of their retirement benefit is paid 
prior to age 62, with only a token benefit starting age 62.
    The idea behind this concept is that Social Security benefits would 
make up all or part of the difference. In the 1970s, the players at 
that time asked for and obtained this option.
    Electing this option dramatically reduces the retirement benefits 
of players when they reach 62.
    Other reasons why some players are receiving smaller than usual 
pensions.
    Some players are divorced, and must share all or a substantial part 
of their retirement benefit with an ex-wife.
    Many players who complain about the size of their monthly pension 
benefits have at least one, and often a combination, of the factors 
described above reducing their monthly benefits.
B. Second Career Savings Plan: First 401(k) Plan in Pro Sports.
2 for 1 Match
    Beginning in a player's second year, all pre-tax contributions are 
matched at a rate of $2 for every $1 a player puts in, up to $20,000.
    Players can make pre-tax contributions up to the IRS limit ($15,500 
for 2007).
    Players who do not contribute any of their own money receive a more 
modest Club contribution.
    Prior to the 1993 CBA, no professional sport had a pension plan of 
this type. Gene's efforts in the 1993 CBA established this Plan.
    The assets of the Savings Plan have grown from $0 in 1993 to over 
$800 million.
C. NFL Player Annuity Program
    In collective bargaining in 1998, Mr. Upshaw fought for and won a 
new defined contribution plan, the NFL Player Annuity Program. This 
Program also provides deferred compensation to players, as early as age 
35.
    Players receive contributions based on the following schedule:

  <bullet> in their second and third years, $5,000;

  <bullet> in their fourth year, $55,000; and

  <bullet> in subsequent years, $65,000.

    After the law was changed in 2006, Mr. Upshaw persuaded the NFL in 
the 2006 CBA to contribute most of this money in a tax-favored form.
    The total assets of the Annuity Program have grown from $0 in 1998 
to about $340 million.
V. Health Care Benefits
    A. Five Free Years of Post-Career Medical Coverage: After the 
recent 2006 CBA extension, all vested players now receive 5 years of 
free post-career medical coverage for themselves and their families.

  <bullet> In a recent 12 month period, Active Players paid $11.5 
        million to provide this coverage to former Players. This 
        coverage has been improved repeatedly since the 1993 CBA.

    B. Pre-Tax Deposits Into Health Reimbursement Accounts ($25,000 per 
year/$300,000 max): The 2006 CBA created a new plan that can be used by 
former players to pay for medical benefits or medical coverage after 
their 5 years of free coverage ends.
    Eligible players (playing in 2004 and after) are credited (i.e., as 
if deposited pre-tax into their own accounts) with accounts valued at 
up to $300,000 ($25,000 per season up to the maximum of $300,000) that 
can be used exclusively to pay their medical expenses (including 
insurance premiums) and the medical expenses of their family members.
    The player can use account to pay medical expenses--without paying 
taxes, throughout his life, and if any amounts are left over at his 
death, the account passes to his eligible beneficiaries.
    C. 88 Plan: The 2006 CBA also created a new and innovative medical 
benefit exclusively for former Players with dementia. This plan is 
called the ``88 Plan,'' in honor of former Baltimore Colts player and 
Hall of Fame member John Mackey, whose jersey number was 88.
    As far as we know, this is the first plan in the country that 
provides special benefits for employees who are afflicted with 
dementia, even when that dementia occurs decades after their employment 
has ceased.
    In May of this year, NFLPA Executive Director Gene Upshaw and 
Harold Henderson of the NFL Management Council were honored by the 
Alzheimer's Association in New York for this achievement.
    Although this Plan began in February 2007, it has already paid out 
over $500,000 in benefits. Like all other benefits for active and 
former players, this cost is paid for by the active players.
    As of mid-September 2007, the 88 Plan had received 79 applications. 
15 are pending. Out of the remaining 64, 60 have been approved, an 
approval rate of 94 percent.
VI. Other Charitable Retired Player Programs
    Widows and Surviving Children Benefits: Under the 2006 CBA, the 
NFLPA was able to triple the benefits paid to widows and surviving 
children of former NFL Players.
    Players Assistance Fund: In addition to all of the above benefits, 
the Players Association has long had a fund, called the ``Players 
Assistance Fund,'' that provides up to $20,000 to players in need. Last 
year alone the Players Assistance Fund paid over $1 million to 146 
players in need, and provided almost $500,000 for scholarships and 
grants to charities.
    Retired Players Medical and Assistance Fund: The NFLPA/NFL 
recently-formed ``Alliance'' to coordinate medical support services for 
retired players in need of care--comprised of the NFLPA Players 
Assistance Trust (PAT), the NFL Alumni Association's Dire Need Fund, 
and the Hall of Fame Enshrinee Assistance Fund. In July 2007 these 
groups established an initial $7 million unified fund to pay for joint 
replacement surgeries and to address other financial hardships of 
retired players. Additional funding will be provided by current and 
retired players, and NFL clubs. The joint replacement surgeries will be 
available at no cost to retired players without insurance or with 
financial need. The NFLPA/NFL are in the process of identifying 10-15 
medical centers across the country to provide these surgeries.

    Senator Dorgan. Mr. Upshaw, thank you very much for being 
here and for your testimony.
    Commissioner Goodell, welcome. You may proceed.

           STATEMENT OF ROGER GOODELL, COMMISSIONER, 
                    NATIONAL FOOTBALL LEAGUE

    Mr. Goodell. Chairman Dorgan, thank you. I know--members of 
the Committee, I know that we're pressed for time, so I'll move 
as quickly as I can.
    Good morning, and thank you for inviting me to appear today 
and testify on this very important subject. We, in the NFL, 
strive to do everything in a responsible and comprehensive 
fashion, and we can only benefit from objective, thoughtful 
reviews of our policies and our programs.
    I am joined here today by Harold Henderson and Dennis 
Curran, both who have been deeply involved in the development 
administration of player benefit programs for the past two 
decades. If you have any questions regarding individual cases, 
I'm certain that they, or one of Mr. Upshaw's colleagues, could 
respond better than I can today.
    I'm also joined by Jim Irsay, the owner of the defending 
Super Bowl Champion, Indianapolis Colts, who, like all NFL 
owners, has a keen interest in the welfare of our NFL alumni 
and has grown up in the NFL, just like I.
    I recently completed my first year as Commissioner. I have 
spent a considerable amount of time with retired players and 
listening to their views. And, while I would candidly 
acknowledge that we would have more work to do, I want to 
outline both the steps taken thus far and the framework within 
which we are approaching this issue, going forward.
    I begin from a premise which I think no one seriously 
disputes: the men who played professional football decades ago 
deserve our respect and recognition, and their contributions to 
our game must never be overlooked. I honor them, and neither I, 
nor the NFL clubs, will turn our backs on them. And this is not 
Gene Upshaw's problem alone, nor is it the NFL's. The 
responsibility for helping retired players belongs to all of 
us--NFL owners, the union, current and retired players, and me, 
as Commissioner. I must be compassionate, creative, and 
responsible.
    We are proud of the fact that player benefits steadily 
improved over time. While many businesses have terminated their 
pension plans, or turned them over to the Federal Pension 
Guaranty Board, we have both negotiated steady increases in our 
benefits and agreed to apply those increases on a retroactive 
basis. In the last 10 years, owners have increased their 
obligations by roughly $400 million, virtually all of which has 
been for the benefit of retired players. Our disability plan 
offers a range of benefits, including active football, 
inactive, and football degenerative, total and permanent 
disability benefits and line-of-duty partial disability 
benefits. We recently added another benefit, which Gene spoke 
about, known as the 88 Plan, which provides up to $88,000 per 
year for former players suffering from dementia, without 
requiring proof that the dementia is football-related.
    Benefits available under our disability plan have also 
grown substantially over the past 15 years. The football-
related total and permanent disability benefit is now $224,000 
per year. An active player whose total and permanent disability 
is not related to football, but, rather, to an automobile 
accident or some other off-the- field incident, receives 
$134,000 per year. Former players with football-related 
degenerative disabilities receive $110,000 per year. These 
payments continue as long as he remains disabled.
    Players with at least 3 years of experience are eligible 
for benefits, even if the disability is not football-related. 
Eligible players can still apply for football degenerative 
benefits for up to 15 years after they retire from the NFL. The 
NFL plan provides for payment of disability benefits on a 
retroactive basis, so players are not prejudiced if there are 
delays in the application and administration process. And NFL 
disability benefits are not offset by medical or workers' 
compensation payments. We believe these features, far from 
being exclusionary, demonstrate our commitment to providing 
fair and generous benefits to players and their families. And 
the record bears them out. Since 2000, we have paid more than 
$110 million to players from the 1960s to the present who 
qualified for disability benefits.
    Like you, I have heard concerns expressed about red tape 
and the complexity of the application process. We have taken 
recent steps to address that problem, and I think there is more 
we can do. We have tried to ensure that the standards by which 
disability claims are evaluated are clear and understandable, 
and, therefore, more easily and evenly applied. Decisions 
regarding line-of-duty disability are based on standards 
developed by the American Medical Association. We also recently 
agreed to expand the standards for determining total and 
permanent disability. If a player has been determined to be 
eligible for disability benefits by Social Security, that will 
also apply for NFL disability payments.
    Our retirees have my personal commitment to continue the 
effort to identify and implement any reasonable procedural 
changes that would allow disability determinations to be made 
more quickly and reliably. And Gene and I have agreed to work 
hard on this issue.
    This does not mean that every person who seeks disability 
benefits will, or should, receive them. And it does not mean 
that mean, even if approved, every applicant will receive the 
amount he requests. But we will continue to strive to help 
those who need benefits or other support.
    Apart from addressing the workings of the disability plan, 
we have recently taken some additional steps to address 
specific needs of former players. Earlier this year, we joined 
the NFL Players Association, the NFL Alumni Association, and 
the Pro Football Hall of Fame to establish an Alliance to bring 
together different groups seeking to help retired players in 
need. As a first step, we agreed to create a fund, set 
initially at $7 million, to fund two specific medical 
initiatives. First, to provide full or partial funding of hip, 
knee, or shoulder replacement surgery and related 
rehabilitation for former players at a network of leading 
hospitals throughout the country that can guarantee quality 
care. Second, to provide an expanded national program of 
cardiovascular risk screening and education for former players. 
Apart from these two programs, we are also exploring ways of 
providing support for older players in need of assisted-living 
arrangements and other specific medical needs.
    Finally, we are expanding our outreach efforts to better 
identify former players with special needs so that our alliance 
can provide financial assistance to those proud former players 
and their families, who are sometimes hesitant to ask for 
assistance. As needed, our alliance will provide additional 
funding for these initiatives.
    Some of the leaders addressing this issue--former players 
like Jerry Kramer or Hall of Famers Coach Ditka, Willie Lanier, 
and Merlin Olsen--have met with us, and continue to do so. 
Today, there are approximately 4,900 NFL retired players 
eligible to receive disability benefits. Like many groups of 
that size, the circumstances vary widely. Fortunately, the vast 
majority remain active and productive, and do not need to be 
involved in the disability system. But we remain proud of the 
comprehensive and improving package of benefits provided to 
players, and we will continue working to do as much as possible 
to help those in need.
    Thank you for the opportunity to testify before your 
committee today.
    [The prepared statement of Mr. Goodell follows:]

          Prepared Statement of Roger Goodell, Commissioner, 
                        National Football League
    Chairman Dorgan, Chairman Inouye, Vice-Chairman Stevens, and 
Members of the Committee:
    Good morning and thank you for inviting me to appear today and 
testify on this important subject. I do not believe that this subject 
is, or should be, immune from Congressional scrutiny. To the contrary, 
the National Football League has always strived to conduct itself in 
the public interest, and to do everything in a first-class way. We can 
only benefit from objective, thoughtful reviews of our policies and 
programs. And so I welcome the opportunity to be with you today.
    I am joined here today by Harold Henderson, our Executive Vice 
President of Player Programs, and Dennis Curran, our Senior Vice 
President and labor relations counsel. Both Mr. Henderson and Mr. 
Curran have been deeply involved for the past two decades in collective 
bargaining, including on player benefits, and in the administration of 
these benefit programs by the joint NFL/NFL Players Association 
Retirement Board.
    I recently completed my first year as Commissioner of the NFL. 
During that year, I have spent a considerable amount of time with 
retired players and on the concerns raised by a number of them. And 
while I would candidly acknowledge that we have more work to do, I want 
to outline both the steps taken thus far, and the framework within 
which we are approaching this issue going forward.
    In that context I should add that I cannot comment on the specifics 
of any individual case. In my role as Commissioner, I have not read the 
disability claims files, and I am not qualified to speak to the medical 
and legal issues raised in any individual case. Although I appoint one 
half of the Trustees on the Retirement Board, those Trustees act in a 
fiduciary capacity and I never discuss pending cases with them. Insofar 
as you may have questions regarding individual cases, I am certain that 
Mr. Henderson or Mr. Curran, or one of Mr. Upshaw's colleagues, could 
respond better than I can today.
    In considering the subject of benefits for retired players, I begin 
from a premise which I think no one seriously disputes--the men who 
played professional football decades ago deserve our respect and 
recognition, and their contributions to our game must never be 
overlooked. I honor them and their achievements and neither I nor the 
NFL clubs will turn our backs on them.
    Second, while it might be tempting to say--as some have--that this 
is Gene Upshaw's problem to solve, that is neither fair nor accurate. 
The responsibility for addressing the needs of retired players belongs 
to all of us. The retired players, the current players, the clubs, Gene 
as head of the Union, and I as the Commissioner--all of us have a role 
to play. We will continue to address this issue in a way that is 
compassionate, creative, and realistic.
    Third, just as it would be wrong to say this is Gene Upshaw's 
problem to solve, it would be wrong to say that the NFL can or should 
solve the problem by itself. While some may not believe this, the fact 
is that we cannot solve every problem of every type that has been 
identified, and certainly not in a way that will satisfy everyone. NFL 
clubs currently spend close to 60 percent of their gross revenues on 
player benefits and salaries. Our clubs contributed almost $150 million 
last year to finance medical, disability, and retirement benefits for 
former players, and during the term of our current collective 
bargaining agreement, we project that our clubs will spend more than 
$700 million to fund just this package of player benefits. Owners are 
responsibly addressing these concerns, but they are simply not in a 
position to absorb significant incremental costs.
    In meetings with Committee and personal staff, our office and the 
NFLPA have provided you with a comprehensive summary of the benefits 
provided to retired players. Those benefits have steadily improved over 
time, and among the benefits available to a player who retires from the 
NFL today are all of the following:

  <bullet> A defined benefit pension plan with a benefit that is geared 
        only to years of service, not to the player's earnings. If a 
        player with 10 years of service begins to receive his pension 
        at age 55, he receives $56,000 per year; if he waits until age 
        65, he receives $147,000 per year. These amounts have grown 
        steadily, and pension benefits have been increased in each new 
        collective bargaining agreement over the past 15 years. For 
        example, a player who retired 25 years ago--in 1982--and who 
        begins to receive his pension at age 55 has seen his pension 
        benefit credit more than double since he retired as a result of 
        increases agreed to in collective bargaining.

  <bullet> At a time when companies all over America--many of which are 
        considerably larger than the NFL--have terminated their pension 
        plans or turned them over to the Federal pension guaranty 
        board, we have both negotiated steady increases in our 
        benefits, and agreed to apply those increases on a retroactive 
        basis. In our most recent agreement in 2006, we agreed to 
        increase pension obligations by more than $200 million. In the 
        last 10 years, we have increased those obligations by roughly 
        $400 million--virtually all of which has been for the benefit 
        of retired players. I think everyone would agree that this is a 
        substantial additional commitment by our member clubs to former 
        and current players.

  <bullet> We also offer a 401(k) plan, in which player contributions 
        are matched on a 2:1 basis by the clubs up to $20,000 per year. 
        Players have access to these funds as early as age 45.

  <bullet> A player annuity plan, under which eligible players receive 
        an NFL contribution of $65,000 per year to provide transition 
        income to players. They have access to these funds as early as 
        age 35.

  <bullet> Five years of post-career medical care and a health 
        reimbursement account of up to $300,000 for use later in life.

  <bullet> A lump sum severance benefit paid upon retirement from the 
        NFL based on the number of seasons played.

    We also, as the Committee knows, have a disability plan which 
offers a range of benefits, including Total & Permanent, Football 
degenerative, and ``Line of Duty'' benefits. We recently added another 
benefit, known as the ``88 Plan,'' which provides up to $88,000 per 
year for former players suffering from dementia, without requiring 
proof that the dementia is football related. For other categories of 
disability, the benefits range from $18,000 per year to $224,000 per 
year, depending on the nature and severity of the disability. These 
benefits are in addition to any state workers' compensation. In 
addition, not all disability benefits are based on a complete inability 
to work.
    Benefits available under the disability plan have also grown 
substantially over the past 15 years. An active player who qualifies 
for football-related Total & Permanent disability has seen his annual 
benefit increase from $48,000 in 1993 to $224,000 today. An active 
player whose Total & Permanent disability is not related to football 
has seen his annual benefit grow to $134,000. And former players with 
football-related ``degenerative'' disabilities have seen their annual 
benefit grow from $75,000 in 1993 to $110,000 today. These are annual 
amounts paid to the player as long as he remains disabled.
    Our disability plan has a number of features that make it unique 
and superior to many other plans. I am told that most American workers 
have no employer-provided disability benefits. A report released last 
month by the Labor Department showed that barely 3 out of every 10 
workers in the private sector have access to long term disability 
coverage. In certain sectors of the economy that might be perceived as 
higher risk, the rate of coverage is ever lower.
    The NFL Plan covers all players with at least three seasons of 
experience (four years for players retiring before 1993) and provides 
for benefits even if the disability is not football-related. With as 
few as 3 years of NFL experience, a former player can receive benefits 
from the NFL disability plan even if his disability results from a car 
accident, a fall at home, or some other everyday cause. Moreover, 
eligible players can still apply for football degenerative benefits for 
up to 15 years after they retire from the NFL.
    The NFL Plan provides for payment of disability benefits on a 
retroactive basis, so players are not prejudiced by delays in the 
application and administration process. A player who is approved will 
receive benefits retroactive to his date of application. If the 
disability precedes the application, the player can receive up to 42 
months of benefits on a retroactive basis. And, finally, NFL disability 
benefits are not offset by medical or workers' compensation payments, 
or any other NFL benefits, such as injury protection or severance pay. 
As the Committee knows, the workers' compensation system provides 
lifetime medical and other benefits to players. NFL disability benefits 
are in addition to any payments received from those systems.
    We believe these features, far from being exclusionary, demonstrate 
our commitment to providing fair and generous benefits to players and 
their families. And the record bears that out--since 2000, we have paid 
more than $110 million to players from the 1960s to the present who 
qualified for disability benefits.
    Like you, I have heard concerns expressed about ``red tape'' and 
the complexity of the application process. We have taken recent steps 
to address that problem, and I think there is more we can do. One area 
of frustration is the Plan's ``Initial Claims Committee.'' This arises 
out of new regulations adopted by the Labor Department in 2002. At the 
time these regulations were being considered, we filed comments with 
the Department noting that these regulations would likely have the 
effect of slowing down decisions on disability claims, and urged that 
they not be adopted. As we said at the time, because of the sometimes 
complex nature of disability decisions, including the need to have 
medical examinations completed by neutral physicians, and the reports 
analyzed within 45 days, the new rules ``will only force faster 
denials.'' The requirements imposed by the Labor Department have had 
the unintended consequence of making the application process longer and 
more complex, as our people feared at the time they were proposed.
    In the future, we can look more closely at how we decide which 
cases need to be reconsidered. The statistics show that an overwhelming 
number of recipients are approved to continue their benefits, which 
rather strongly suggests that we may not need to review and reconsider 
cases as often as we have in the past. We have begun that process by 
reducing the frequency of medical re-evaluations from annually to once 
every 3 years for players receiving Total & Permanent disability 
payments.
    When decisions need to be reconsidered at the Board level, we will 
begin making decisions outside of the Retirement Board's quarterly 
meetings. Thus once an application is complete, or additional medical 
evaluations have been received, the Board can consider and vote on the 
application by fax or e-mail. This simple change will allow more 
expedited processing of applications.
    Finally, we have tried to ensure that the standards by which 
disability claims are evaluated are clear and understandable, and 
therefore more easily applied. As one example, decisions regarding 
``Line of Duty'' disability, which is a partial disability arising from 
football, are based on standards developed by the American Medical 
Association. We also recently agreed to expand the standards for 
determining Total & Permanent disability by incorporating the medical 
findings of the Social Security Administration. If a player has been 
determined to be eligible for disability benefits by Social Security, 
no separate medical assessments will be needed. Instead, the 
determination of the Social Security Administration will govern the 
former player's medical eligibility for NFL disability benefits. Our 
retirees have my personal commitment to continue the effort to identify 
and implement any reasonable procedural changes that would allow 
disability determinations to be made more quickly and reliably. To that 
end, we have enlisted the assistance of independent counsel and benefit 
consultants to advise us on best practices with respect to disability 
plans and to recommend steps we can take to improve the administration 
of the Plan.
    This does not mean that every person who seeks disability benefits 
will, or should, receive them. That needs to be understood by all 
parties. Disability benefits are meant to assist people who cannot 
work, not simply that they can no longer play professional football. No 
disability plan, whether sponsored by a private insurer, by an 
employer, or by the Federal Government, provides benefits to anyone who 
applies. And it does not mean that, even if approved, every applicant 
will receive the amount he requests. But we will continue to strive to 
do better, and to be seen as doing better.
    I now want to address certain allegations about the manner in which 
decisions are made on disability applications. The administration of 
the disability plan is governed by Federal law and by regulations 
established by Federal agencies. The Plan operates as required under 
those regulations, including the use of an Initial Claims Committee, 
neutral physicians, and the associated time limits. The people who make 
decisions act as fiduciaries, who are obligated to follow the law and 
the terms of the Plan.
    There are those who claim that disability applications are 
nonetheless denied as a result of some sort of grand labor-management 
conspiracy. This claim assumes that an extraordinary number of people--
myself, my predecessor, Gene Upshaw, the Trustees, the Plan 
Administrator, the neutral doctors, Plan counsel, and their various 
staffs--have all agreed to deny benefits without regard to whether an 
applicant actually qualifies.
    Those who adhere to this theory also dismiss that Federal courts 
throughout the country have upheld the Retirement Board's decisions in 
24 of the 25 cases that have been litigated. The critics explain that 
away by saying that the standard of review is too deferential, ignoring 
that the standard is set by Federal law, not by the NFL, and is 
consistently applied in reviewing decisions by benefit plan 
administrators and fiduciaries in all sectors of the American life.
    But no matter how deferential the standard of review may be, no 
court would defer to a decision tainted by collusion or conspiracy. The 
simple reality is that no such claim has ever been proved and no court 
has ever made such a finding. These charges are as cynical as they are 
unfounded, and the Committee should not dignify them here.
    There is one other myth about decision-making that should be 
dispelled--that being that many players are either denied benefits 
altogether, or forced to endure extraordinary delay, because the Union 
and management trustees routinely divide 3-3 on applications. There is 
no basis whatsoever for this suggestion. In fact, since the Initial 
Claims Committee was put into place in 2002, it has deadlocked on only 
six claims in a line-of-duty disability and only 32 cases of Total & 
Permanent Disability. Every other claim filed--almost 600 claims--was 
decided unanimously, one way or another.
    Where claims are appealed to the Retirement Board, the same is 
true. The Board seldom splits in its votes. And even if there is a 
split in the Retirement Board, the case is referred to a neutral 
physician, called the Medical Advisory Physician. That doctor's report 
is final and binding. That report decides the case--not the Union 
trustees or the Management Trustees.
    Apart from addressing the workings of the disability plan, we have 
recently taken some additional steps to address specific needs of 
former players.
    Earlier this year, we joined with the NFL Players' Association, the 
NFL Alumni Association, and the Pro Football Hall of Fame to establish 
an ``Alliance'' to bring together the different groups seeking to help 
retired players. As a first step, we have agreed to create a fund, set 
initially at $7 million, to fund two specific medical initiatives.
    First, to provide full or partial funding of hip, knee or shoulder 
replacement surgery and related rehabilitation for former players at a 
network of leading hospitals throughout the country.
    Second, to provide an expanded national program of cardiovascular 
risk screening, and education for former players.
    Apart from these two programs, we are also exploring ways of 
providing support for players in need of assisted living arrangements, 
and other specific medical needs.
    Finally, we are expanding our outreach efforts to better identify 
former players with special needs, so that our Alliance can provide 
financial assistance to those proud former players and their families 
who are sometimes hesitant to ask for assistance.
    We recognize that this is not a short-term problem. Some of the 
leaders addressing this issue--former players like Jerry Kramer or Hall 
of Famers Willie Lanier and Merlin Olsen--have met with us and continue 
to do so. I am sure that together we have the resources, creativity and 
determination to make a real difference in the lives of our former 
players.
    There are today approximately 8,000 active and retired NFL Players. 
Like many groups of 8,000 people, their circumstances vary widely. We 
are proud of the comprehensive and improving package of benefits 
provided to players, and we will continue working to do as much as 
possible to help those in need.
    Thank you for the opportunity to testify before your Committee 
today.

    Senator Dorgan. Commissioner Goodell, thank you very much 
for being here, and for your statement.
    Mr. Mike Ditka, from--player, coach, Chicago Bears.
    Mr. Ditka----

 STATEMENT OF MIKE DITKA, MEMBER, NFL HALL OF FAME; FORMER NFL 
              PLAYER, CHICAGO BEARS, PHILADELPHIA 
        EAGLES, DALLAS COWBOYS; AND FORMER HEAD COACH, 
               CHICAGO BEARS, NEW ORLEANS SAINTS

    Mr. Ditka: Whatever.
    [Laughter.]
    Mr. Ditka. Mr. Chairman and distinguished members of the 
Committee, I'm--I appreciate you being here, but I'm not sure I 
really understand it. The Congress of the United States of this 
great country has a lot more important things to do than this. 
And it's a shame that it's come to this. But it has come to 
this.
    I want to clarify one thing. We've had one of my former 
players take some pretty good potshots, and that seems to be 
his nature. I'm not mad at anybody, especially this man or that 
man. The system's broken. Fix it.
    Football--and listen to me--football owes me nothing. Not a 
thing. But I owe everything I have in life to this great game. 
From high school to college to professional, I've been able to 
participate as a player, an assistant coach, a head coach, for 
almost 50 years in this League, and now I'm an expert, I get to 
talk about it. That's pretty interesting.
    The system is broke, fix it. They know what's broke, they 
know how to fix it. We're not talking about the money. 
Everybody knows the money's there. Fix the system. Don't make 
proud men beg. Don't make 'em jump through hoops. They have 
dignity. Let people live out their lives with some respect, 
that's all I'm asking. I'm not asking for an increase in my 
pension, as has been mentioned. Nobody cares about that stuff. 
And it was thrown up, what I get in my pension. I also waited 
to age 65 to get it. That--I'm entitled to that. I played in 
this game. But the guys who--these players, today, say, ``Well, 
they're doing--they're making all these contributions to the 
former players.'' They should. The former players are the 
reason this League is what it is, not the total reason, they're 
not the whole of it, they're part of it. The players today are 
only the keepers of a great game. The makers of a great game 
came a long time ago, and will continue to come, long after 
these guys are gone. Just let them live out their life with a 
little bit of respect.
    We started a Hall of Fame Assistance Dire Need Fund about 8 
years ago from a golf tournament I have. We've been giving 
money to former Hall of Famers--or Hall of Famers, and, 
actually, former players who aren't Hall of Famers. And we've 
been helping 'em out. It's a little, here. It's $10,000, it's 
$5,000, it's $2,500--it's no big deal, but it helps out. They 
need the help. And they're not--they don't even know where to 
go to get other help.
    Now, maybe this is being--they're being made more aware of 
the situation and how to get help. But all we're saying is, 
hey, you know, nobody's mad at anybody. I'm grateful. I just 
think--this shouldn't be happening. I really mean that from the 
bottom of my heart. You people have more important things to do 
than what we're doing. And I hope it doesn't come down to--any 
decisions you have to make, I want you to hear the story. The 
League--this man is a good man, he's got a good heart. Gene 
Upshaw, I'm sure, is a good man with a good heart. Do the right 
thing. Fix the system. Quit arguing about it. Everybody'll go 
away. And--especially me, because I didn't ``chose'' this, it 
chose me, believe me. This is not what I'm looking to be doing, 
believe me.
    So, I just want to tell you, I have no charts to show you, 
if--you'll be grateful of that.
    [Laughter.]
    Mr. Ditka. Thank you for your time, and I do apologize. I 
mean it.
    [The prepared statement of Mr. Ditka follows:]

Prepared Statement of Mike Ditka, Member, NFL Hall of Fame; Former NFL 
Player, Chicago Bears, Philadelphia Eagles, Dallas Cowboys; and Former 
             Head Coach, Chicago Bears, New Orleans Saints
    Chairman Inouye, Subcommittee Chairman Dorgan, Ranking Member 
Stevens, Subcommittee Ranking Member DeMint, Members of the Committee 
and distinguished guests, my name is Mike Ditka. I played for the 
Chicago Bears and the Dallas Cowboys from 1961 to 1972. I also was an 
assistant coach for the Cowboys and the head coach of the Bears 1985 
Super Bowl championship team. Since 1992, I have been involved in 
broadcasting of NFL games as a color commentator and analyst, as well 
as other business ventures. I have been fairly successful and, at the 
outset, I'd like to clarify that nothing could interest me less than 
the size of my own NFL pension. I am here today on behalf of many other 
retired NFL players who have not been as fortunate as I in the years 
since their retirements because the injuries they received playing the 
game of football prevented them from making a living.
    For some time, now, I have been involved in charitable efforts to 
aid disabled and economically challenged NFL retirees through nonprofit 
organizations such as the Gridiron Greats and the Mike Ditka Hall of 
Fame Trust. For some time, these and other organizations have picked up 
the slack left by an NFLPA that does not do enough for disabled retired 
players and an ownership that seeks to avoid doing anything at all, 
both of which seem to have handed the operations of the Plan to an 
aggressive litigation firm charged with delaying or denying every 
legitimate claim that players bring forth. What these charities do, all 
they can do, is place a band-aid upon the huge wound these other groups 
are, at best, ignoring by minimizing it's gravity and keeping it's true 
extent secret. We will continue to do this work as long as the problem 
exists. But we will also continue to point out the responsibility the 
other parties I've mentioned have for perpetuating and worsening this 
problem, and their corresponding duty to shoulder the burden of fixing 
it before those who suffer under the current system conveniently die 
and reduce the excess financial burden upon the Plan's funds.
    I'd like to address the question of disability pensions under the 
Bert Bell Retirement Plan. It is hard to say what is more disturbing: 
what we know, or what we don't know. What we know is bad enough. To 
start with, the Plan provides disability benefits to too few players 
(no more than 200 or so, although this statistic often goes up or down 
in statements by the Plan's lawyers). According to the Plan, there are 
more than 7,000 retired players who are entitled to receive some kind 
of retirement benefit. (The actual number is probably significantly 
higher, but I'll use 7,000 here to describe the Plan as generously as I 
can.) This means that, at most, 3 or 4 percent of retired players are 
receiving any kind of disability benefit. And this is in a game that 
pushes most players out of the league within a few years--often due to 
injury (the average playing career is around 3.5 years). It is a 
collision sport, not merely a contact sport, which is probably the most 
violent public spectacle since the gladiatorial games. So the idea that 
only three or four out of every 100 retired players are entitled to ANY 
kind of disability benefit (not just the top level, but any kind at 
all) just clashes with common sense.
    On top of that, look at the number of retired players who have 
received disability benefits for brain injuries caused by multiple 
concussions. Again, according to statements by the Plan's lawyer in 
Sunday's Charlotte Observer, there have only been four--ever, in 
history! One of them was Mike Webster. And the Plan's representatives 
claim not to know the number of players who have applied for disability 
due to such injuries. Anyone who has played the game, especially in the 
recent past when it was often played on a concrete parking lot covered 
with a quarter-inch layer of indoor-outdoor carpeting called 
``Astroturf'', will tell you that NFL football often results in 
concussions and that players commonly receive multiple concussions over 
the course of their careers. Again, the idea that only four men who 
have ever played pro football have had disabling brain injuries just 
doesn't make a lot of sense.
    Why don't more players receive the disability benefits they need? 
There are lots of answers, starting with the bargaining process between 
the union and the NFL. Gene Upshaw described his attitude toward the 
retired players last year, when he told a newspaper that retired 
players ``don't hire me and they can't fire me. They can complain about 
me all day long.'' It's possible that the union leadership doesn't push 
harder for fair disability benefits because they think it might mean 
less for current players. But part of the job of union leadership is to 
explain to current players that they could be ex-players next week or 
next month, as a result of injuries or salary cap decisions. It's 
actually in the interests of current players to push hard for fair, 
generous disability benefits--and to get that money from both the team 
owners and from current players.
    Look at it this way: the Plan says that retired players receive 
only $20 million per year in disability benefits today. The players' 
share of revenues under the salary cap system is about $4 billion a 
year. Tripling the disability payments to $60 million--an increase of 
$40 million--would be only 1 percent of the players' total share. If 
the players and the owners each gave an extra .5 percent of the 
player's current share for disability pensions, they could easily cover 
this amount.
    Another big barrier to fair disability benefits is the way the Bert 
Bell Plan is run. We've heard the same stories from too many retired 
players to chalk this up to complainers, the way the Plan would like to 
have it. All claims are reviewed by two office staff who possess no 
relevant skills for reviewing disability claims. If they deadlock, the 
claim is denied. None of the members of the Retirement Board have any 
medical training, and several of them have close ties to the union 
president--including the agent who negotiated Mr. Upshaw's $7 million 
contract. The Plan will delay decisions over and over again--Mike 
Webster's case took 4 years before he had a final decision. Often these 
delays are so that the Plan can request multiple reports from doctors 
in the same specialty or closely related ones--``doctor shopping'' is 
the right word for it. We all know that if you ask for enough medical 
opinions, someone will eventually find that there is no disability, or 
disability at a lower level. And the Plan spends extraordinary amounts 
on its attorneys--$3.15 million last year. In fact, that's almost one-
sixth of what the Plan claims it spent on all disability payments. Once 
again, those numbers just don't add up.
    All of this suggests that, under the Bert Bell Plan, the main 
emphasis is on minimizing the benefits paid out, not on making sure 
it's done fairly. The website for the Plan's lawyers has boasted about 
how many times they have defeated claims by retired players. But the 
number of lawsuits suggests that something is broken in the Board's 
procedures. According to the Plan's attorneys, it has been sued by 
almost one-quarter of the retired players whose claims were denied. 
This is not the sign of a healthy process.
    If you want to get an idea of how the Plan really works, take a 
look at the Mike Webster case. Here was a guy who started almost 250 
games for the Steelers, and played every offensive down for six 
straight seasons. He wasn't called ``Iron Mike'' for nothing. He played 
when the head slap was legal, and probably had thousands of serious 
hits to his head and dozens of concussions. He couldn't work after he 
retired, and was hired by the Kansas City Chiefs as a favor. His 
friends told the pension plan's investigator that he wasn't right 
mentally and never held a job. But the Bert Bell Plan told Mike that 
his brain injuries weren't the direct result of playing football, and 
told him that he wasn't disabled until years after he retired. They 
ignored the opinion of their own doctor, and refused to look at the 
evidence from Mike's doctors. And it took so long to decide his claim 
that he died in 2002 before the Plan had made a final decision.
    After he filed suit, the first judge who looked at the case said 
that given the overwhelming evidence, the Bert Bell Plan had probably 
acted in bad faith. Did the Plan pay Mike's children then? No. They 
appealed. And this time it was three judges in a Court of Appeals that 
said the Plan had ignored the unanimous medical evidence. They said it 
would require a ``leap of faith'' to agree with the Plan. And so the 
Plan paid hundreds and hundreds of thousands of dollars in attorneys' 
fees to fight the case, and also paid for the time that Mike's 
attorneys spent pursuing it. That helps explain why the Bert Bell Plan 
ran up a $3.5 million bill for attorneys last year--money that could 
have gone to injured players. And even today, just a week ago, 
representatives of the Players Association claimed that Mike Webster 
was actually working after he retired from football. That's not true, 
and they know it.
    I've talked about some of the things we know about the Bert Bell 
Plan. But it's just as important to point out what we don't know, and 
what I hope this Committee can help find out through the hearing and 
oversight process. Right now, the Plan gives out virtually no 
information about the number of players receiving disability benefits, 
how many people get each type of benefit, even the total dollars paid 
out each year for disability. The information that gets handed out by 
the Plan--only in response to Congressional and media scrutiny--is 
fragmentary and unreliable. What we really need is full disclosure by 
the Bert Bell Plan of all the key information behind the disability 
benefits, so that the retired players, and the union, can negotiate for 
better procedures, changes in the way the Plan is administered, and 
more money for disabled retirees. I hope that this kind of necessary 
disclosure is one result of this Committee's work, and I look forward 
to working with you so that the great men who built this league can 
lead lives of dignity after their retirement.

    Senator Dorgan. Mr. Ditka, thank you very much.
    The baseball folks said no one has any business holding 
hearings on steroids, either.
    Mr. Ditka. Yes.
    Senator Dorgan. But the fact is, because there were 
hearings on steroids, the changes were made in baseball in a 
very significant and a very positive way. Perhaps public 
pressure is important when you're talking about people's lives, 
people who can't get up and walk in the morning, and so on. So, 
I understand, I don't--my preference is that--although there is 
an antitrust exemption and various things, my preference is 
that Congress do nothing more than hold hearings and applying 
some pressure, and, perhaps, through that approach, we'll get 
to the right result.
    Mr. Gale Sayers, Chicago Bears, Hall of Fame.

STATEMENT OF GALE EUGENE SAYERS, MEMBER, NFL HALL OF FAME; AND 
                FORMER NFL PLAYER, CHICAGO BEARS

    Mr. Sayers. Thank you, Mr. Chairman, members of the 
Committee, distinguished guests.
    My name is Gale Sayers. I was a running back for the 
Chicago Bears from 1961--1965 to 1971, when my career ended as 
a result of a knee injury. I have since had rewarding careers 
in athletic administration and sports marketing. I started a 
computer business, in 1983, which has grown into a major 
provider of technology products and services. In short, I'm a 
man truly blessed by God and life, like my friends, Mike Ditka 
and Gene Upshaw.
    I'm not a typical NFL retiree who has suffered through the 
disability process we discuss today. As a board member of a 
charity that helps retired players, however, I have seen many 
horror stories. I am here for those who are not as lucky as I 
was. I'm also here as a member of the NFL family who is worried 
about the effects of--our broken disability system is having on 
the entire game. At its best, football is a family, but extreme 
success has strained its relationships. Today, the NFL is a $7-
plus billion industry, yet it still struggles to do right by 
the retired players whose sacrifices built this game.
    I believe this failure is at the core of a general crisis 
in the game. You've been hearing about the symptoms almost 
every day. What family can remain healthy if its younger 
players are convinced that every dollar spent on the health of 
its elders is a dollar out of their pockets? Does that message 
promote the respect among generations that support rules of 
good conduct? Doesn't this attitude endorse the selfish 
behavior we observe in some young players? The current 
disability system routinely bars retired players from fair 
access to disability payments that offer a minimum standard of 
care. This is not the way a family works, and is not the face 
the NFL should be--to--should present to the world, to the 
other families that pay for the tickets, the TV subscriptions, 
the hotdogs and jerseys.
    I do not blame anyone for this failed system, but we will 
all share the blame if we don't pull together and fix it now, 
while these players are still alive and in need.
    I heard Gene speak about his efforts to obtain more 
benefits for retirees. I take him at his word. But whatever has 
been done to date has not been enough, because the problem is 
still there. He, the NFLPA, and today's players must do more. 
I've also heard a statement attributed to Mr. Goodell that the 
owners see this 40:60 revenue split with the active players as 
so generous that they cannot do more for retired players. I'm 
glad to hear him say that, you know, the owners take, you know, 
a stake in helping the retired players.
    This problem belongs to the entire NFL family, including 
the owners. As for the charitable efforts that retired players 
have engaged in for the disabled among us, they will continue. 
We will all know when we've done enough, because the problem 
will simply not exist anymore. Until then, there is 
responsibility to take and work to do. Some legislative action 
might help this situation, but today I want to make a more 
immediate appeal to the Committee. Please help us try to fix 
this problem. You call this an oversight hearing, and I think 
that's just what we need. At its best, football is a family 
with no need for an overseer, where bargaining power is not an 
issue. But, in this new rich NFL, bargaining power is crucial, 
and the retired players have none without your help. I don't 
ask you to play for our side, only keep the game fair and keep 
it going until the job is done. I ask this committee to take 
oversight over a bargaining process among all of the parties 
represented at this table by asking for periodic reports to the 
Committee on our progress, perhaps every 30 days or so. If you 
do this, I think we can get the job done.
    For my part, if you will be the referee, I promise to give 
you my best game.
    Thank you for your consideration and for your oversight on 
this very important subject.
    [The prepared statement of Mr. Sayers follows:]

  Prepared Statement of Gale Eugene Sayers, Member, NFL Hall of Fame; 
                  and Former NFL Player, Chicago Bears
    Chairman Inouye, Subcommittee Chairman Dorgan, Ranking Member 
Stevens, Subcommittee Ranking Member DeMint, Members of the Commerce 
Committee and distinguished guests, my name is Gale Sayers. I was a 
running back for the Chicago Bears from 1965 to 1971, when my career 
ended as a result of a knee injury. I have since had rewarding careers 
in athletic administration and sports marketing, until I launched a 
business in 1983, which has grown into a major provider of technology 
products and services. In short, I am a man truly blessed by God and 
life, like my friends Mike Ditka and Gene Upshaw. Like them, as well, I 
am not at all a typical NFL retiree who suffered a career-ending injury 
and then suffered again through the current disability process that is 
the subject of today's hearing. But my own blessings bring 
responsibilities, and I am here for those who were not as lucky as I 
was, many of whom have gone through that unfortunate experience. As a 
board member of a charity that helps retired players, I have heard many 
of their horror stories and I want that system reformed. Moreover, as 
Mike has often said, football owes us nothing and we owe football 
everything. I agree. So, as I see it, I am here for football, too--a 
game I love and a family I love. As a member of that family, I am 
worried about the effects our broken disability system is having on the 
fabric of the entire game. I call football a family because that's what 
it has always been at its best. Now, families don't always get along 
perfectly. Ask my old friend and teammate, Dick Butkus, about 
negotiating a contract personally with our old coach and owner, George 
Halas, as was the common custom in my day, and you might hear a 
response that I would not dare put in writing before the eyes of the 
Senate. If, however, you were to speak harshly of Mr. Halas yourself, 
Dick would jump to the defense of ``Papa Bear'' the way any of you 
would respond if a stranger criticized a member of your own family. The 
violent nature of our game makes us pull together like family members. 
When someone is playing hurt, we all know in the locker room. We 
protect the secret so he won't be vulnerable, and we watch his back 
during the game in an effort to protect him from further injury. Like a 
family, we watch out for one another.
    Extreme financial success can put strain on any family's 
relationships. The football family is no exception. Today, the NFL is a 
$7-plus billion per year industry, yet it still struggles to do right 
by the retired players whose blood, sweat and sacrifice built the game. 
Sometimes it seems as if football has been torn apart by its own 
success. I believe that is what has happened with the NFL today. I also 
believe that the failure to address this disability issue is at the 
core of a more general crisis in the game. You've been hearing about 
the symptoms of that crisis almost every day recently. But what family 
can remain healthy if its senior members are thought of as a useless 
burden on its budget? Or if its younger members accept the idea that 
every dollar spent on the health of their elders is a dollar out of 
their pockets? Will that family engender respect among its generations 
and a sense of authority to support rules of good conduct or common 
sense? If this disrespect for the history of the game, which is 
embodied in its retired players, is allowed to continue unchallenged, 
if generations of older players continue to be seen as expensive and 
irrelevant, can anyone be surprised if the recent displays of 
selfishness, irresponsibility, even of criminality, continue to be 
exhibited by growing numbers of young players? When families break down 
in this way, such behavior is always the result.
    When I came into the league, older players and retired players 
were, generally, treated with respect and seen as sources of authority 
and wisdom. Reverence for them inspired reverence for the game itself, 
its history, its rules and the need to project some image of integrity 
to the fans who, believe it or not, look to football as more than just 
a game on the field. This reverence for the people who built the game 
is no longer common and the results are on display everywhere. I'm not 
saying my generation of players was a bunch or angels or that the 
current one is the opposite--far from it. I see a young man like 
Ladanian Tomlinson or Peyton Manning and I know there is still a sense 
of stewardship and honor alive among the current generation. But that 
ethic is coming under greater attack today than ever before and 
exclusive worship of the bottom line is eroding the strength the game 
derives from the extended family culture it was founded upon 
generations ago. We need to turn that around and we must begin that 
effort today.
    We at this table, all members of football's family, must pull 
together and fix this disability problem. If we fail to do so, I 
believe we will continue to see more and more signs of moral and social 
decay in our game. If we succeed, however, I believe many good things 
will follow. I truly believe we can pull together as a family and save 
our game, but I am also certain that we will need the help of this 
Committee to do so, as I will explain.
    The current disability system routinely bars retired players from 
fair access to disability payments that offer a minimal standard of 
care. The word often heard is that the inconvenient ``problem'' of 
disability will eventually pass away--a nice way of saying that the 
retirees themselves will conveniently die. This is not the way a family 
should work and it is not the face the NFL should present to the 
world--to the other families that pay for all the tickets, the TV 
subscriptions, the hot dogs and the jerseys. A game worth over $7 
billion per year owes the fans that support it something more than just 
a mirror held up to all of society's problems. Much is given to this 
game, so much should be expected of it, I would argue, and the game and 
its players should be held up to a higher standard. My friend Charles 
Barkley once famously said, ``I am not a role model.'' He meant that as 
a caution to society at large not to hold up athletes up as heroes. I 
agree with that warning wholeheartedly, but I do not agree that 
athletes, as public figures, and the games that benefit from presenting 
their images to the world, do not have a special burden of 
responsibility to the public. This is not something we choose, it is 
something that is thrust upon us as and we must accept some sense of 
responsibility because, frankly, children are watching. Their parents 
should pay heed to Charles' warning and teach their children 
accordingly, but it is our responsibility and the game's to act as if 
they cannot.
    The image this disability issue projects to the public is beneath 
the dignity of the NFL and it must come to an end before it damages our 
relationship of trust with the fans. I do not blame any single person 
for this failed system, whether at this table or elsewhere, but we will 
all share the blame if we don't pull together and fix it now, while 
these players are still alive and in need. If we do not do so, if we 
simply allow this problem to ``solve'' itself by waiting for a 
generation of gravely injured retirees to die before they can succeed 
in claiming disability support to which they have a right, then the 
stain upon the game and it's history will never be removed.
    I have heard Gene speak of his efforts to obtain more benefits for 
retirees. I take him at his word. But whatever has been done to date 
has not been enough because the problem is still with us. He, the NFLPA 
and today's players must do more to fund this system adequately.
    I have also heard a statement attributed to Mr. Goodell that the 
owners consider their 40-60 revenue split with the active players to be 
so generous that they cannot do more regarding disability for retirees. 
I want to believe that this was a misunderstanding or misquote and I 
hope he will correct it here today. But if it is a true reflection of 
the owners' sentiments, then it is an absolutely inadequate response 
and an evasion of responsibility to the game and the people who built 
it into the financial success the owners enjoy today. As Gene has often 
pointed out, neither the ownership nor the NFLPA directly represented 
the interests of retired players in collective bargaining, so the 
revenue split produced by that bargaining offers the owners no shield 
whatsoever from their responsibilities to disabled retirees.
    No, this problem belongs to the entire NFL family and the owners 
are not exempt from their proportionate share. I'm glad the NFL has 
hired a ``crisis manager,'' but I disagree with their definition of 
this ``crisis'' if it simply means that they might have to spend some 
more money on healthcare for the men who helped build their fortunes. 
The crisis, to me, is this broken system that dishonors our game by 
compounding the injuries suffered in honest competition by its retired 
players, and ``managing'' this crisis must not mean finding ways for 
the NFL owners to evade their responsibilities. This is not just 
another stadium that will be built with public money if the owners 
threaten to leave town. This is a system that demoralizes, shames, 
bankrupts, injures and, at the extreme of it's cruelty, even kills 
people. Everyone is responsible for a share of curing this misery.
    I thank the NFL and the Players Association fo proposing their new 
``Alliance'' plan. It is an important step in that it is a public 
recognition that this serious problem exists. As a substantive response 
to the problem, however, it falls far short. That was predictable 
since, unfortunately, virtually none of the people on the retirees' 
side of the ball who have worked on this issue for years were invited 
to contribute to that proposal. Perhaps because the collective 
bargaining process has habituated them to think this way, the NFL and 
the NFLPA are, unfortunately, accustomed to keeping the retirees locked 
out of actual discussions concerning their fate. As such, as was done 
with this plan, they simply hand us a plate that we didn't order and 
tell us to eat it with full enjoyment. This is not an adequate way to 
construct a plan for the retirees care and, therefore, this plan is not 
as good as the one we could have hammered out together. We must do 
better. We can. To do so, we must come together and negotiate. For 
that, as I said, we will need the help of the Senate.
    As for the charitable efforts in which we retired players have 
engaged for the sake of our NFL family members, as Mike has said, they 
will continue. We must do more, too, and we will. But such private 
charity is a mere band-aid upon this enormous systemic problem. It 
cannot ever substitute fully for responsible engagement with the 
problem on behalf of the rest of the NFL family, the owners and the 
NFLPA, which are obviously not doing enough. We will all know when 
we've done enough because the problem will simply not exist anymore. 
Till then, there is responsibility to take and work to do.
    But funding this system adequately is not the only problem that 
must be addressed. The unfairness of the system's procedures must be 
reformed immediately, before they do further harm to retirees and their 
families. Inconsistent and arbitrary administration of retirement 
benefits is common under the Plan and the tragic consequences are 
everywhere. Because of weaknesses in the Employee Retirement Income 
Security Act, which is the Federal employee benefits law regulating 
employee benefit plans, including the Plan, and the Federal Labor 
Management Relations Act, which regulates collective bargaining, those 
practices have been allowed to continue. I would direct the Committee's 
attention to the letter provided it by my fellow Kansas Jayhawk alumus 
and running back for the San Francisco 49ers. Miami Dolphins and Green 
Bay Packers, Delvin Williams, for a fuller discussion of these issues 
and an example of the punitive lengths to which the representatives of 
the disability plan have gone in litigation against a disabled player 
who dared to pursue his rights in court. Because that letter treats 
these issues in detail, I have attached it to this testimony as an 
``addendum'' and ask the Committee to accept it into the record as an 
extension of my own remarks.

    Here are but some of the problems I see in the Plan, as it exists 
today, which I hope can be addressed in negotiation or, failing that, 
through legislative action:

        1. There is no one on the Retirement Board of anyone with a 
        sufficient incentive either adequately to represent the 
        interests of the disabled retired players or to ensure that 
        benefits are provided uniformly and objectively. Indeed, there 
        are inherent conflicts of interest among members of Retirement 
        Board in favor of the owners of the NFL teams and the active 
        players.

        2. Many severely disabled retired players have had their valid 
        disability benefit claims denied because there is no objective 
        oversight over the actions of the Retirement Board and its 
        staff and the members of the Retirement Board have inherent 
        conflict of interests in their service to the participants in 
        the Plan.

                a. Representatives on the Retirement Board who are 
                appointed by the owners of the NFL teams recognize that 
                denying benefits to the disabled retired players will 
                minimize future contributions to the Plan by the NFL 
                teams.

                b. Representatives on the Retirement Board appointed by 
                the Union have included among them agents of active 
                players who do not represent retired players. If the 
                executives of the union are inherently more concerned 
                with the active players who re-elect them as 
                executives, they lack sufficient incentive to look out 
                for the best interests of the disabled retired players, 
                which is their charge under ERISA. If those Union 
                representatives are more concerned with the pay for the 
                active players, they will also recognize that denying 
                benefits to the disabled retired players will minimize 
                current and future payments for their clients.

                c. Gene has often said that the Union has negotiated 
                new benefits for retired players, even though he does 
                not represent them, and that the active union employees 
                have ``subsidized'' those benefits. He has not, 
                however, sufficiently emphasized that these benefits 
                are, in fact, also for the current players and that, 
                once those benefits are established, the Union has a 
                moral and legal obligation to ensure that they are 
                administered objectively and uniformly among both 
                current players and retirees. That has not happened. If 
                the Committee would request and obtain data concerning 
                the actual relative distribution of these funds, the 
                full picture would become clear and public, as it 
                should be.

        3. The Retirement Board and its staff have not been required to 
        prescribe, publish or adhere to objective standards for 
        determining the eligibility for benefits under the Plan or to 
        publish Plan changes in a timely manner.

        4. There is no adequate administrative help for applicants, 
        many of which have brain injuries and corresponding short-term 
        memory loss due to multiple concussions, to fill out 
        applications and proceed through the process. Simply posting 
        application information on a website, without the availability 
        of objective, real-time human help, is a particularly egregious 
        shortcoming in the context of such injuries, which are common 
        among ex-NFL players. Moreover, since the NFL has frequently 
        argued that players have not sent in their paperwork (a claim 
        which stretches credulity when referring to totally disabled 
        people who have little else to depend upon but a successful 
        application, but which is nevertheless conveniently impossible 
        to disprove in the absence of better recordkeeping safeguards), 
        these interactions should be recorded and an evidentiary chain 
        firmly established to keep the process honest.

        5. The time for processing of claims is inordinately long. Plan 
        representatives have often quoted an ``average'' processing 
        time of 18 months, which is interminable in itself if one is 
        disabled, but if the Committee could look behind this 
        ``average'' time to a true distribution of processing times 
        (considering that many claims are disallowed almost 
        instantaneously), I believe it would find that the processing 
        of claims actually meriting the largest levels of compensation 
        takes a much longer period. Those that cannot be denied 
        immediately are, thus, often delayed inordinately. This, again, 
        is particularly egregious because, by the NFL's own 
        computations, the average ex-player lives to an age of only 55, 
        with linemen averaging only 52. [It should be noted that these 
        figures have been used historically by the Plan's 
        representatives to urge ex-players to take retirement at an 
        earlier age, which results in dramatically lower levels of 
        compensation]. This convergence of facts has given rise to a 
        popular characterization of the Plan's tacit strategy as 
        ``Delay, Deny and Hope They Die.''

        6. There is no adequate deference given to medical opinion in 
        the entire process. As noted above, Plan medical experts are 
        routinely undermined and circumvented after they have made a 
        disability finding in favor of a retired player. Moreover, as 
        in the case of Brent Boyd, non-Plan experts have been 
        specifically enlisted to overturn the decision of Plan doctors 
        who made disability findings. Medical expertise functions as 
        sword to deny disability, but it is no shield against the 
        aggressive strategies of administrative denial and, if 
        necessary, litigation by the Plan staff and the Groom Law 
        Group.

        7. All numerical data associated with the Plan is non-public 
        and inaccessible, making misrepresentations by the Plan's 
        representatives common and not immediately arguable. How many 
        retirees are there? The Plan's own representatives have given 
        numbers ranging from 8,000 to 13,500, seemingly dependant upon 
        which number was more advantageous under the circumstances. How 
        many receive disability payments? At a hearing earlier this 
        year before the Administrative Law Subcommittee of the House 
        Judiciary Committee, Plan representatives said 317. Later, they 
        amended this to 428. On information and belief, which is as 
        good as we can get with respect to such unpublished data, the 
        number is actually less than 200. Crucially, at what levels 
        have people been compensated? (Again, like the ``average'' 
        claim processing time, what is the distribution?). This has 
        never been answered. How many have applied for disability 
        predicated upon brain injuries resulting from concussions? As 
        recently as this Friday, Plan representatives told Senate staff 
        that they did not know this number--this even though the NFL is 
        supposedly seeking to implement a new, progressive policy to 
        protect players from the effects of concussions. How many have 
        been successful in obtaining disability based on concussions? 
        According to a statement by Attorney Douglas Ell of the Groom 
        Law Group to a reporter, that number is four (4)--for the most 
        violent game since the Roman Arena, often played on a surface 
        consisting of concrete covered with a quarter-inch layer of 
        indoor-outdoor carpeting called ``Astroturf'', which was 
        incorporated in stadium construction to save on grounds-keeping 
        bills, without regard to the havoc it visited on men's bodies. 
        If that number is accurate, the Committee can draw it's own 
        conclusions about the adequacy of the Plan's protections. I 
        implore the Commerce Committee, consistent with its oversight 
        function, which is the reason for this hearing, to seek 
        extensive and complete data on all aspects of the Plan, its 
        procedures and its funding. The truth, which has been artfully 
        and thoroughly hidden to date, is in these numbers. Without the 
        thorough examination and publication of these data by the 
        Committee, any private negotiations held in an attempt to solve 
        this problem cannot bear fruit.

        8. The NFL Retirees have no bargaining power to negotiate an 
        end to this inequitable situation without the continuing 
        oversight of the Senate. The collective bargaining entities, 
        the NFL and the NFLPA, do not and cannot represent the retired 
        players. Indeed, as noted above, the Plan representatives have 
        not even fulfilled their fiduciary and representative duties to 
        the retired players with respect to the distribution of pension 
        and disability distributions. The light of common day and, with 
        it, the power of public and governmental scrutiny of this 
        process is the only bargaining power available to the NFL 
        Retirees. Nevertheless, if the Committee would continue its 
        oversight of this issue and demand regular reports of 
        negotiating progress by the parties represented at this 
        hearing, the NFL Retirees would like to engage the collective 
        bargaining entities in a true negotiation in an effort to 
        settle this matter privately, without the need for specific 
        legislative relief. I therefore ask the Committee to exhort the 
        parties to come together in such a negotiation immediately 
        after this hearing and to subject that process to your regular 
        oversight in the form of such periodic reports, which we 
        propose be produced to the Committee every 30 days from the 
        date of this hearing.

    Some legislative actions might help this situation but today I want 
to make a more immediate appeal to the Members of the Commerce 
Committee: please help us pull together as a family and try to fix this 
problem ourselves.
    You've called this an ``oversight'' hearing. I like that word. I 
think that's just what we need. As I've said, at its best, football is 
a family, with no need for an overseer, where ``bargaining power' is 
not an issue. But in this new rich NFL bargaining power is crucial and 
the retired players have none without your help. I don't ask you to 
play for our side, only to keep the game fair and keep it going until 
the job is done. We need a referee. I think that if this Committee 
would ask the parties to come together, starting tomorrow, and 
negotiate a true solution to this problem, and if it would take 
oversight of a bargaining process among the owners, the Players 
Association and representatives of the retired players, with each party 
making periodic reports to the Committee about the progress of those 
negotiations every thirty days or so, we should be able to get this job 
done ourselves. I ask this Committee to take such oversight and to 
request and publish all numbers and data necessary to a fair 
negotiation, so that one can go forward. I am told the most effective 
mechanism to obtain such data is a study and report by the Government 
Accountablity Office. I respectfully request that such a study be 
performed and such a report be written. If you do these things, I think 
we in the NFL family can get this job done and clean an ugly stain upon 
our great game before it becomes permanent. For my part, if you will be 
referees, I promise you my best game.
    Thank you for your consideration and for your oversight of this 
important subject.

    Senator Dorgan. Mr. Sayers, thank you very much.
    I wish all of you could have heard testimony previously 
before this committee at other times and other occasions, when 
pediatricians would come forward and tell us that these young 
kids, taking a look at baseball and football players, idolizing 
these players, are finding ways and searching for ways to 
become a 300-pound lineman while in high school. So, when 
people say to me--or the issue of steroids in baseball--when 
people say to me, ``Well, Congress has no business in any of 
these areas.'' My preference is that be the case, but if 
Congress can play a role, in my judgment, for applying some 
pressure and shining some light on what's wrong and how to fix 
it, perhaps Congress will do something very important, not just 
for players and former players, perhaps for young kids, who are 
going to come through this system to be the future of baseball 
and football and other professional sports.
    So, let me make a comment. As a result of oversight 
hearing, I'm not particularly anxious or interested in 
legislating. It seems to me that professional football players 
and owners control a big pot of money, very substantial pot of 
money. The profits and salaries and ticket prices are very 
substantial, frankly. And it seems to me that they ought to 
find a way--when I say ``they,'' I'm talking about owners and 
players and all those involved in this professional sport--
ought to find a way to use the substantial amount of money that 
exists in this industry to respond to these issues.
    Now, let me ask one opening question, then I'm--in 
deference to my colleagues, I want them to be able to ask 
questions before we have a time problem.
    The one question I would ask, of Mr. Goodell and Mr. 
Upshaw, is this. I come to this knowing very little about it. 
I've done a lot of reading about it in preparation for this 
hearing. But if I were in your two seats, and I heard the 
testimony in the first panel, I would say, ``Gotta be something 
wrong here.'' There's a former football player that goes to a 
third doctor, after the first two have said, ``Look, you've got 
a problem here, a very serious medical problem,'' and the third 
doctor doesn't look at the brain scan and says, ``No, you're 
OK.'' I would look at that, and I would say, ``Boy, there is 
something broken, and we ought fix it.''
    Give me your assessment of what we hear today at this 
panel.
    Mr. Goodell. Well, Senator, let me respond to that first, 
and then Gene can respond.
    I agree with you--and Gene and I have talked about this--
that there has got to be a better system, there has got to be a 
way to improve our system to be more responsive to players that 
have injuries. We have made some changes in the short term. I 
have changed out two of the trustees, not because they were 
fiduciarilyy--irresponsible--but because I felt it was time to 
get fresh thinking. In addition, we have tried to address this 
issue on a more regular basis; rather than quarterly meetings, 
we're meeting on a much more regular basis, and our staffs are 
working on this in between the quarterly meetings.
    In addition, we have looked to outside counsel, independent 
counsel, that we are--that are experts in this area--I am not--
but what we could do to try to make the system more 
intelligent, more responsive and fair.
    So, I think we are looking at what to do. I would agree 
with you that, when you hear these stories, it is difficult, 
and you want to be responsive.
    Senator Dorgan. And, while you answer, Mr. Upshaw--and, Mr. 
Goodell, you may want to comment--Charlotte Observer, this 
weekend, reported that there are only four retired players who 
have received total and permanent disability. That's just 
counterintuitive to everything you would expect would be the 
case with respect to professional football. Is that a right--is 
that an accurate number? And, if so, do you find it as 
counterintuitive as I do?
    Mr. Upshaw. To receive active T&P--total and permanent--it 
would have to be like the player that just experienced that 
this weekend, or this past weekend, in Buffalo, a player that 
is totally and permanent, on the field--or applies for total 
and permanent within 6 months after the injury. There are four, 
and there are other players that are receiving total and 
permanent, that have become age 55, that are now getting a 
retirement benefit, not a total-and-permanent benefit. Our 
system provides that, once a player becomes 55 years old, he 
then switches from disability to retirement, but he still 
continues to get the higher of the two benefits.
    Senator Dorgan. Senator Klobuchar?
    Senator Klobuchar. Thank you, Senator Dorgan.
    And thank you--I was listening to Mr. Ditka and thinking 
back to those old days when my dad was a reporter. He was 
actually friends of these players when Norm Van Brocklin was in 
our living room, getting into a fistfight with my father, and 
when the players used to practice on a field formerly owned by 
the Animal Rescue League.
    Mr. Ditka. I got in a fistfight with Norm Van Brocklin.
    Senator Klobuchar. That's what I figured.
    [Laughter.]
    Senator Klobuchar. But what I remember most is that it was 
a different time in the game, and there was less money, and now 
a lot of those players are old and they're injured.
    And I guess my question of you, Mr. Goodell, is just--I've 
heard about the differences between National Football League 
and the other leagues, and, when considered as a percentage of 
league revenue, how does the amount that football spends on 
disability payments, retired players, compared to the amount 
spent by other sports leagues?
    Mr. Goodell. It's a very good question. We have looked at 
that. And when we look at our entire retirement benefits, 
versus baseball, we think they are comparable. We have more 
players in the NFL, we have less, obviously, than Major League 
Baseball. We have more revenues, we have a different cost 
structure. But we do look at that, and we want to make sure 
that we are treating our players in the same fashion, or 
better--hopefully better--than other leagues.
    When you look at it in isolated cases with respect to, 
potentially, just a disability case or a pension case, there 
will be differences. But when you look at the entire scope of 
benefits for players, we think they're comparable.
    Senator Klobuchar. But I'm curious about why, just until 
recently, you didn't accept the determination, for Social 
Security purposes, of disabled, that you didn't use that as 
your standard. And you said you recently agreed--in your 
testimony today--to accept as totally and permanently disabled 
any player determined to be disabled for purposes of Social 
Security, why wasn't that done before? And what difference has 
that made now?
    Mr. Goodell. Well, I've only been in this position for 1 
year, but it's something Gene and I talked about 6 months ago, 
and, frankly, agreed to 6 months ago. If a individual is 
already qualified under the Social Security standard, we should 
move the process forward quickly and allow them to qualify 
under our disability program, and we have done that.
    Senator Klobuchar. Mr. Ditka, did you want to respond?
    Mr. Ditka. Yes, I only want to say one thing. You know, I--
delivering mail, working as a mechanic, being a newscaster, 
what--football is completely different. I mean, I don't want to 
bring it up. You know, we have a 12-year window to file for 
disability. You know, the average career of a football player 
is less than 4 years, or right under 5 years or something. You 
have to be 4 years to be vested. OK, supposing a guy comes 
into--21, 22--he's out at 28, 29. Nothing shows up before he's 
41. Very normal. And then things start showing up. I'm not sure 
I understand it. You know, it's fine to sit here and say, ``Oh, 
we have ERISA law, we have Social Security, we're tying it in. 
This is all''--this is an exception. Football is an exception. 
It is not a contact sport, it's a collision sport.
    This young man, the other day, did nothing but make a 
tackle, and he almost lost his life. Those things happen. The 
first week of the NFL season this year, you've got five guys, I 
think, that are out for the year. It's tough. It--you've got 
200-, 300-pound bodies flying around at great speeds. It's 
different than delivering mail or working in a factory or 
building cars. You can't tie it into Social Security the way 
everybody wants to do. It's a different thing.
    Senator Klobuchar. Thank you, Mr. Ditka. And I just want to 
end, so I can let Senator McCaskill go, by saying--we talked a 
little bit about, why should Congress be looking at this? And 
Mr. Sayers was talking about how football is a family. Well, 
it's a very public family. And I think the way that we treat 
people with disabilities--people are watching this--the way we 
treat people that have built, basically, an empire for others 
to profit from, people are watching this.
    So, thank you.
    Senator Dorgan. I mentioned the Charlotte Observer article, 
the four retired players, total and permanent disability, that 
was for brain injuries caused by multiple concussions. So, I 
wanted to make that point, because there has been testimony 
today, and it relates to what Mr. Ditka suggested, that this 
may show up 10, 15, or 20 years later.
    Senator McCaskill?
    Senator McCaskill. Thank you, Mr. Chairman.
    I also want to mention--he's not here, but I want to 
mention Fred Arbanas. Fred and I served together on the county 
legislature for a number of years. I've watched his body fall 
apart. I've watched him going from a very proud man who's 
recognized everywhere in Kansas City for all the right reasons 
to basically not being able to do much before noon, because it 
takes him that long to get his body moving.
    I want to ask a couple of questions. It's my understanding, 
Mr. Upshaw, that the money that is given over to the pension 
and disability fund is, in fact, negotiated by the Players 
Association, and it is set aside at the negotiation, and it is, 
in fact, their money.
    Mr. Upshaw. Yes.
    Senator McCaskill. Then, why is it three and three? Why do 
the owners have just as much say on how that money is being 
spent as the players? If that money has already been negotiated 
away from the owners, and that belongs to the players, then why 
do they get to veto, by a 3-3 vote, a disability finding that 
the players decide is valid?
    Mr. Upshaw. Because the plan operates under the Taft-
Hartley laws, and the Taft-Hartley laws give both the players 
and the owners an equal vote.
    Senator McCaskill. Well, do you need us to amend the Taft-
Harley players----
    Mr. Upshaw. I think I suggested----
    Senator McCaskill.--to allow----
    Mr. Upshaw.--I suggested that as----
    Senator McCaskill. OK.
    Mr. Upshaw.--part of--one of the solutions.
    Senator McCaskill. So, it seems to me that it--you know, 
it's almost like you negotiate to try to get this money, and 
this comes off the top, I understand.
    Mr. Upshaw. Yes.
    Senator McCaskill. This isn't a line item on people's 
paycheck.
    Mr. Upshaw. No.
    Senator McCaskill. This is off the top. And if that's the 
case, and you worked hard to negotiate, it seems to me you 
ought to be here asking that--and demanding for this 
legislation on behalf of the Players Association, that the 
players have the ability to decide what former players are 
entitled to disability, under what circumstances.
    Mr. Upshaw. Well, that's why we end up with a 3-3 vote. We 
do have unanimous votes from time to time, but there is no 
dispute over the facts in a unanimous vote, either for an 
approval or for a denial. But, in a lot of cases there are 3-3 
votes, which is no reason whatsoever for a player--the former 
players to vote against another player if he qualifies. There 
are a lot of players that file claims that do not qualify.
    Senator McCaskill. Mr. Goodell, would you have any problem 
with that, if we amended the Taft-Hartley, to allow, under 
these circumstances, since the money has been negotiated away 
from the owners at the bargaining table, would there be any 
problem with the people that have negotiated for that making 
the decision as to how the money was going to be spent?
    Mr. Goodell. Well, I'd make a couple of points, Senator. 
First off, and most importantly, anything that would improve 
the system, that is responsible to do for the parties, we would 
consider. Most importantly. Second of all, it somewhat implies 
that we have been a negative influence in this circumstance, 
and I don't believe we have. I think the facts don't support 
that.
    Senator McCaskill. Well, I think it----
    Mr. Goodell. Second of all----
    Senator McCaskill.--I think that 3-3 votes are tough. I 
think 3-3 votes are tough.
    Mr. Goodell. But the facts are, there haven't been that 
many 3-3 votes, and what happens is, the process is set up 
through Federal regulations and through the law that it would 
go on to see an independent doctor. And, ultimately, it goes to 
an independent doctor, who makes the final decision. And we 
have had some cases that have been taken and litigated. We've 
had 25. Twenty-four have returned back in favor of the 
retirement board; only one was reversed.
    Senator McCaskill. I know what's involved in filing a 
Federal lawsuit, and I don't think we want to make these guys 
have to go to Federal court----
    Mr. Goodell. I agree with that.
    Senator McCaskill.--to do this.
    Mr. Goodell. And----
    Senator McCaskill. I--let me--because I don't have much 
time. I don't mean to cut you off. But the other area I really 
wanted to cover here was the LOD disability, the line-of-duty 
disability. I mean, you're going to have a whole lot of these 
players that are going to have a line-of-duty disability, 
particularly if you talk about orthopaedic needs. I mean, I got 
a new knee this year, and, I've got to tell you, I never played 
a day of football, and it hurts, and it's a pain, and I'm 
limping around here today, and I--and, you know, I was just a 
cheerleader in high school, for gosh sakes. Nobody----
    [Laughter.]
    Senator McCaskill. Nobody was--no 300-pound linemen were 
flying at me--well, I'll take--well, no----
    [Laughter.]
    Senator McCaskill. I--in all seriousness, the idea that an 
LOD disability has to be--you have to apply within 48 months--I 
mean, 4 years--if you've got a guy that's retiring at 27 or 28 
because of a minor injury or for some other reason, or just 
doesn't make it the next year, gets cut, I mean, you're asking 
that orthopaedic, serious surgery, to show up within 4 years? I 
just think that is wildly unreasonable. And are you in favor of 
extending the LOB--LOD disability to a filing period that would 
be much longer than 4 years? Is that something that you all 
would object to? Mr. Upshaw?
    Mr. Upshaw. No, we wouldn't object to it at all. Matter of 
fact, we've actually increased that. It used to be 36 months, 
and it's been increased to where it is today. But the line-of-
duty disability is not the last place that you can go. We have 
players that come in on a line-of-duty, and then move up the 
chart to degenerative, which will now let you into the door, 
which Mike talked about, is 15 years. So, 15 years after you 
leave the game, you can still apply for a--that disability.
    Before 1993, we had none of these disabilities. All of 
these improvements, we've made since 1993. So, we're not 
opposed to that, but we also have another total-and-permanent 
disability that Brent Boyd is getting, that someone that 
doesn't qualify for anything in our plan can still get a 
disability, even though it was not caused by football. So, if 
you get hit by a bus, and you come back and file for disability 
under this plan, you can receive it. That is what Brent Boyd is 
getting, because the doctor said--not Mr. Ell; Mr. Ell is not 
the doctor, he is the attorney that represents the plan that 
is--he's co-counsel to the plan--the doctor said Brent Boyd did 
not--you couldn't connect one concussion in 1980 to his present 
condition today.
    Senator McCaskill. Total-and-permanent is different than 
partial. And you're going to have a lot more partials than 
you're going to have total-and-permanent. And 4 years is not 
enough. I think, as a show of good faith, you ought to get busy 
and get that fixed. What Mr. Ditka said is correct, this is 
common sense. Take care of these guys. They're taking care of 
us, they're taking care of the Players Association officers 
that are here, their colleagues are going to be in the same 
position in 15 years as Conrad Dobler and Fred Arbanas and all 
the other great heroes that are here.
    And thank you all for being here, and I appreciate the 
answers to my question.
    Senator Dorgan. Senator McCaskill, thank you very much.
    Senator Nelson?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman.
    I can't help but come to the table to note the difference 
between the NFL and Major League Baseball on the question of 
handling some of the former players. It was this Senator that 
had to get right in the middle of it with regard to the 
compensation for the members of the old Negro Leagues in Major 
League Baseball. And it has been slowgoing with Major League 
Baseball, and there has been a recognition of that. I'm 
grateful we don't have those issues before us here today, and I 
thank you for that.
    Now, the question that occurs to me is, Why should there 
not be a medical doctor on either one of those boards?
    Mr. Upshaw. Well, we don't have a medical doctor on the 
board, but we rely on the medical evidence that's presented by 
the player, both the board doctors and any evidence that the 
player might bring from his doctor.
    Senator Nelson. Mr. Goodell?
    Mr. Goodell. I would respond to that, Senator, by saying 
that the board is not making a medical decision, they are 
taking the information from medical doctors who examine the 
players, who take all of their medical records, make an 
evaluation, and make a recommendation to the board. I'm not 
opposed to it. We would have to find a representative. But I 
believe that's the best explanation I can give you today.
    Senator Nelson. Does anybody else want to comment on that?
    Mr. Ditka. Why not take it away from 'em completely, the 
owners and the Players Association--take it totally away from 
'em and create a board, completely independent--completely 
independent, made up of medical people. And then, if they turn 
it down, then there must be a reason to turn it down. But when 
these other people turn it down, people think there is an 
ulterior motive for turning it down. That's all I ask. Make it 
completely independent and see what happens.
    Mr. Goodell. Senator, if I might add, then if it moves down 
the process of being a 3-3 tie, it goes to an independent 
doctor, and it's binding--whatever that doctor's decision is, 
it is binding, so it is ultimately made by a doctor, if there 
is a dispute amongst the Retirement Board.
    Senator Nelson. Mr. Chairman, is that a vote?
    Senator Dorgan. Yes.
    Senator Nelson. Well, then I'll just conclude by saying 
that, you know, one of the phoniest problems that we have, over 
and over, is the question of disability for veterans. And they 
go through all of these disability claims procedures that are 
quite extensive. Maybe we ought to take a lesson from the 
experience that we try to determine the degree of disability 
with our veterans and have that be a lesson to apply here.
    Thank you.
    Senator Dorgan. Senator Nelson, thank you very much.
    A vote did start at 12, noon, and I would normally ask if 
we could stand in recess, but, because there is a vote 
following this, it would require at least a half-hour recess, 
and I don't want to inconvenience you. All of you who have 
testified today have come here and provided, I think, some real 
assistance in giving us your perspective of what's happening.
    It seems to me there is something that's not connected 
here. I don't know what it is, exactly, but something's not 
connected. Something is not working the way it should work. 
And, as I indicated earlier, there is plenty of money around. I 
watch football from a living room, but I understand what ticket 
prices are, I understand what owners' profits are, generally, 
from what I read, and I understand how much some of these 
contracts, some players, are. And so, there is plenty of money 
around. It seems to me that sufficient money should be 
available to provide the kind of assistance that is necessary 
for those that helped build this professional sport, called 
football. I think it is, perhaps, the most widely watched 
professional sport in our country. And my guess is, most of 
those who would hear stories, or read about them in the 
newspaper, as is frequently the case, or hear the testimony 
today, would be flabbergasted that there are people who spent 
their lives in this professional sport and are now living in 
poverty, are now living in a circumstance where they can't find 
the kind of healthcare that they need, or the kind of medical 
assistance they need.
    We will certainly evaluate the testimony and try to 
consider what kinds of things might be available. And I think, 
Mr. Commissioner and Mr. Upshaw, you, I hope, will take a look. 
What I'm going to do is, I'm going to send you two packets, 
like this, individual letters from former players. I would 
think that, in this business, in this industry--I know you will 
want to go through it and understand it and then evaluate, what 
is it here that's wrong? how do we fix it?
    So, I thank all of you very much for your willingness to 
come to this hearing.
    This hearing's adjourned.
    [Whereupon, at 12:12 p.m., the hearing was adjourned.]
                            A P P E N D I X

Supplementary Information Provided by Eugene ``Mercury'' Morris, Former 
           NFL Player, Miami Dolphins and San Diego Chargers
The Black Paper: A Response to the Claims Set Forth in the NFLPA's 
        ``White Paper''
    I have been asked to address the specific content of the document 
produced by the joint efforts of the two collective bargaining parties, 
the NFLMC and the NFLPA. The NFLPA ``White Paper'' was prepared for the 
September 18th hearing on Capitol Hill before the Senate Committee on 
Commerce, Science, and Transportation. The content, however, is 
virtually the same as the NFLPA written statement submitted for the 
June 26, 2007 hearing before the Subcommittee on Commercial and 
Administrative Law of the House Judiciary Committee. My statement in 
response to the remarks made by Douglas Ell at the House hearing 
addresses most of the issues ``repackaged'' and reintroduced in the 
September 18, 2007 hearing and I refer the reader to that statement. I 
will address some of the issues that require clarification as to the 
factual content of the declarations made in the White Paper the NFLPA 
has distributed both to traditional media and Internet-based news 
outlets. The NFLPA has also initiated a ``new'' campaign called: ``The 
Truth Squad: Fact vs. Fiction,'' which I will show is neither 
substantively new nor factually accurate in the following paragraphs.
    In keeping with the theme ``fact vs. fiction,'' I respond on behalf 
of the NFL Retired Players whom I have represented involving disability 
and retirement issues. For the record I have, on three (3) different 
occasions since 2001, been successful in recovering disability benefits 
that had been arbitrarily taken by the retirement board from Players 
who were qualified under the Plan's Terms.
    I have over 21 years of experience in dealing with this group, who 
cast themselves as caretakers of the retired Players' future welfare as 
fiduciaries, in the role of trustees to the Plan, governed by ERISA 
Law.
    I have watched the evolution of the language of the Plan, I can say 
with absolute explicit facts and evidence that fiduciary misconduct has 
occurred and it is documented by the very words of the author of the 
White Paper.
    For the record, the term ``White Paper'' is defined as a detailed 
or authoritative report. The following is a quote from a docketed Bar 
Complaint filed against a former Groom Counsel, John McAllister, for 
lying to a Plan participant. Mr. McAllister is no longer on the Case 
and has left the Groom Law Group.

        If you have information but it's misinformation, the best you 
        can be is misinformed, if someone is allowed to perfect a 
        concept based upon that misinformation, then what you have is a 
        misconception.

    It is with that premise in mind that I set forth my response to the 
White Paper in this ``Black Paper'', the title of which describes the 
ironic distance between what the NFLPA asserts to be true, pure and 
``white'' and the actual practices and policies inherent in their 
administration of the Plan's disability provisions.
    Page 4, paragraph one of the White Paper states: ``Active Players 
pay for all benefits.''
    That statement is categorically false according to the Plan's own 
terms. The Bert Bell/Pete Rozelle Plan document at page 10, paragraph 
3, Article 3.2 states the following:

        The sources of revenue to be used to satisfy any contribution 
        obligation of the employer will be exclusively within the 
        control of the employers.

    Webster defines the term ``exclusive'' as ``limiting or limited to 
possession control or use by a single individual or group.''
    It is clear that the active Players in fact do not contribute to 
the fund under ERISA that is governed by the Plan's terms; therefore 
the statement made in the ``White Paper'' regarding Player 
contributions to the Plan is fiction not fact.
    Sec. 3.1of the Plan states that, ``a contribution to the trust will 
be made by the employers.'' Players do not contribute to the ERISA-
governed fund.
    Another statement from the White Paper, made in paragraph ``three'' 
page 4, declares that, ``the cost of benefits to former Players comes 
from the active Players side of the table". That statement is also 
false and misleading.
    Under ERISA law and the Plans terms, there is no ``active Players 
side of the table,'' in fact there is no ``table,'' there are only 
fiduciary responsibilities to do two things:

        1. Pay benefits.

        2. Pay expenses.

    Under ERISA Law, the language of the Plan, at one time, did have 
specific instruction as to the course of conduct of the trustees of the 
Plan regarding specific language under Sec. 404; that defines the 
duties of those trustees who accept that fiduciary responsibility by 
Law and operate under the spirit and the letter of the intention of the 
Plan's terms.
    The White Paper states that the active Players each gave up 
$82,000.00 in salary for medical, disability and retirement benefits.
    That statement is misleading because it implies that currently 
active Players are paying medical and disability benefits for retired 
Players, which is false. See Sec. 3.2 page 10, Plan Document.
    From the White Paper, page 5, paragraph one, Mr. Ell seems to imply 
that ``pension for the Retired Players'' significantly increased four 
(4) times, and their benefits ``have since been more than tripled.''
    Webster's defines the term ``significant'' as: Having the meaning 
of a noticeably or measurably large amount.
    Clearly the amount involved here is large only if expressed in 
relative terms. If the benefits for retired Players were in fact 
increased 4 times and ``triple'' the amount they were originally, then 
the resulting $250 per month, per credited season only shows up as a 
``large amount'' when compared with the paltry size of the original 
pension benefit.
    In 2002, in a collective bargaining negotiation, a new retirement 
benefit increase of a $100-per-month per credited season was initiated. 
As I detail in my response to Doug Ell's House testimony, however, in 
2004 the same collective bargaining parties devised a ``new'' benefit 
paying each current Player $200 each and every time he steps on the 
field.
    The collective bargaining parties in 1993 ``segregated'' themselves 
from the retired Players. This has now grown into a full-fledged 
``business within a business.'' The disability benefits, in fact, have 
dramatically improved, however, not for the retired Players. The 
statement involving ``significant increase over the years'' by the two 
(2) collective bargaining parties is false and misleading because it 
omits what the NFLPA did for the current Players in the 2004 CBA 
extension.
    ``The most generous and flexible disability in professional 
sports.''
    However ``generous'' the collective bargaining parties say these 
benefits are, the fact is these ``benefits'' are not accessible to the 
Players without their meeting complicated requirements. Moreover, even 
if they are able to do so, the bottom line still rests upon the 
judgment of the Trustees as to whether or not a person with a 
disability is ``able to work''--a judgment that is entirely up to their 
discretion, rendered according to a criterion itself is so vague that 
it has no specific definition. How can a doctor, untrained in 
occupational therapy, make a determination on a person's ability to 
work in a 25-minute office visit? Moreover, if the theoretical capacity 
to work any job is the de facto standard, as experience would suggest 
it is, and it is subject to the unfettered discretion of the retirement 
board in application, does this standard have any meaningful function 
other than to exclude virtually every applicant?
    Since my personal involvement with this process began, I have seen 
the administrative complexities grow steadily to the point where the 
average Player applying for benefits must now meet technical 
requirements that involve a mountain of red tape designed to make the 
Player seeking benefits either give up or sue the Plan. If he has the 
tenacity to sue, then The Groom Law Group reaps the true ``benefits'' 
of this system--litigation to the tune of almost $20 million over the 
last 6 years against retired Players pursuing their rights. Yet, when 
questioned about the make up of the ``legal team'' in question, Mr. Ell 
says; ``Oh we try to keep the lawyers down to an absolute minimum.'' 
And those ``few guys'' make millions.
    Ironically, the suggestion to ``give up'' often comes from the 
NFLPA representatives. When you examine the actions of the retirement 
board you get a completely different perspective about what they are 
trying to accomplish, which in no way accords with the standard of what 
a ``prudent person acting in a like capacity and familiar with such 
matters would use in the conduct of an enterprise of like character 
with like aims,'' which is their charge in the Plan document in words 
that are mirrored in the specific language of Sec. 404 of ERISA.
    The Groom Law Group, by its own admission, changed the terms of the 
Plan to exclude the specific language that would permit the 
``circumstance'' in which a fiduciary could make a decision to spend an 
amount that would rectify the disparity in value between the benefits 
of the current Players and the benefits of the retired Players. Under 
ERISA, the fiduciaries are to ``minimize the risk of large losses 
unless under the circumstances, it is clearly prudent not to do so.'' 
ERISA, Sec. 404(C).
    This specific language appears in the Bert Bell Plan at Sec. 8.20. 
It also appears in the Bert Bell/Pete Rozelle Plan. Somewhere between 
1998 and September 2005, however, the Groom Law Group changed the 
language of the Plan. This language now appears under Duty and Care, 
Sec. 8.2 of the Plan. The new plan states:

        Except that the retirement board and the DICC will follow the 
        terms of the Plan.

    This changed the ERISA language from Sec. 404 of the ERISA code--a 
change, in itself, which violates ERISA Law.
    By law, you cannot change the terms of a Plan that contains ERISA 
guidelines. Yet that is exactly what the NFLPA did at Groom's 
suggestion. Groom claims that, ``they (Groom), do not make decisions 
regarding benefits,'' yet Doctor Alfred J. Tria, the first neutral 
Medical Advisory Physician (MAP), states in the Public Record, that 
Groom chastised him for qualifying a Player under Line of Duty. In 
1989, I was the first Player qualified by Dr. Tria under Line of Duty 
Disability. I was sent to Dr. Tria due to a deadlock of the retirement 
board pursuant to the Plan's terms. The Owner-Members rejected the 
qualification even though it was final and binding on the retirement 
board, which violated the Plan's Terms.
    I will focus on several issues of material fact that are not in 
dispute in the applicable language of the Plan's Terms. These specific 
facts contradict what is presented in the NFLPA White Paper on behalf 
of both collective bargaining units.
    On page 5, under ``Disability Benefits Overview,'' the White Paper 
states:

        Point 1: The award process investigates whether a Player is 
        able to work. (Emphasis added).

    The question would be why the ``extent of the disability'' is not 
considered first. ERISA states that the retirement board must carry out 
its duties in a manner that considers the Player's interest first, with 
the secondary inquiry being ``what caused the Player's disability?''
    But this clear ERISA requirement again is construed as an 
``opinion'' and the retirement board reserves the right to disregard 
any medical finding that does not support the agenda of the retirement 
board trustees who, as representatives of the collective bargaining 
unit, not surprisingly have established a record of disqualifying 
Players seeking any type of disability unless that Player is a ``friend 
of the NFLPA.''
    The Doug Betters Case is illustrative of this point.
    Doug Betters was paralyzed in an accident while skiing in 1998. 
Doug, retired from the NFL in 1988 because of back and neck injuries. 
When Doug applied for disability, he was denied because the retirement 
board trustees, with no expertise in the medical field and no expertise 
in spinal chord injuries, declared that Doug Betters did not get hurt 
while playing football: ``he got hurt skiing''. An unlicensed opinion 
thus became a denial of disability to a classified quadriplegic with no 
improvement and continued degeneration.
    Doug is paralyzed and has been in a wheelchair since 1998. He 
receives a pension equal to his retirement. Doug is entitled to the 
active non-football disability. Doug receives something called an 
``inactive'' disability benefit, which is equal to his retirement 
benefit. They call it a disability benefit, but his check comes from 
the retirement fund. Inactive disability is a fictional term-of-
convenience used to categorize Players in a manner so that they cannot 
obtain a class of benefits that pay more. (If you have an ``inactive'' 
driver's license can you drive?)
    In 1989, the retirement board said, ``Traditionally, we use Darryl 
Stingley as a test case for the total and permanent disability.''
    Tom Condon assured Doug that ``there was nothing to worry about!'' 
The retirement board vote was 6 to 0, unanimous against a paralyzed 
Player. In a retirement board quarterly meeting, Bill Bidwell, the 
owner of the Arizona Cardinals, theorized that paralyzed players in 
wheel chairs could ``sell pencils on the street corner''--a form of 
gainful employment that would presumably preclude the disbursement of 
disability benefits.
    The third category of analysis is ``When the disability began.'' 
This issue is at the heart of the Mike Webster case, in which the Court 
declared that it was an ``abuse of discretion'' by the retirement board 
to refuse to assign Webster the proper ``effective date'' on which the 
disability began.
    This, too, is an area of contention, having roots as far back as 
1984, documented in explicit detail revealed in the minutes of the 
Retirement Board meetings.
    Under the Bert Bell Plan, the language was clear that disability 
began according to the physician's report, which asked the question of 
the MAP ``Date of Disability?'' (The answer was to be determined by the 
Doctor.)
    That question has appeared for the last 30 years on the form to be 
filled out by the MAP. As stated by the White Paper, the MAP's decision 
was final and binding on the retirement board.
    This became a problem for the collective bargaining units because 
it meant that a Player could collect a payment that was retroactive 
back to the date of disability, which meant that a Player's accrued 
disability benefit could pay as much as 15 years in retroactive 
payments.
    The Groom Law Group removed the ``date of disability'' space from 
the Doctor's report form. This gives the retirement board the 
``contrived discretion'' to construe the ``effective date'' to be any 
date they choose, as opposed to correctly using the Physician's date of 
disability on the physician's form. All this was done to control the 
amount of the retroactive portion of the disability benefit, which the 
Trustees were obligated to pay in full.
    I sent a letter to Commissioner Roger Goodell detailing the 
specific facts and evidence that The Groom Law Group violated Sec. 302 
of the ERISA code, as described in my complaint sent to the 
Commissioner on June 4th, 2007 titled ``Fiduciary Misconduct.''
    For the record, the Commissioner has stated the following: We will 
continue to do what we have always done, rely on the facts.
    However, in this particular case the Commissioner has ignored ``the 
facts'' and has refused to act under the Integrity Clause of the NFL 
Bylaws. This clause allows the Commissioner to rectify almost any 
situation concerning the NFL.
    To date, however, he has refused to investigate any wrongdoing by 
the Management, the people who put him in that office as Commissioner 
of the NFL.
    The next issue is on page 10, titled: ``Disability application and 
award procedure''.
    I have addressed this issue in my response to Doug Ell's written 
testimony on June 26, 2007, however, I will make an additional comment 
concerning the ``truth'' and regarding the ``facts'' surrounding the 
``neutral physician''. In the White Paper the author repeatedly 
declares the importance of the neutral physician, yet on page 15, 
bottom paragraph, Mr. Ell describes to a Federal investigator 
``exactly'' what is the real role of the neutral physician, Mr. Ell 
contradicted his own words in the White Paper regarding the 
responsibilities of the neutral physician. Mr. Ell states:

        Neutral physicians have no authority and are simply instructed 
        to report their best medical findings.

    Unless, as in the case of Don Bessilieu, the retirement board uses 
the ``opinion'' and medical findings of the neutral physician to 
disqualify the Player, then the ``neutral physician's'' opinion is used 
by the disability claims committee member (one person) to disqualify 
the Player who was already receiving disability benefits for 5 years, 
as was the case with Don Bessilieu.
    I can say that the description of the responsibilities declared by 
the author of the White Paper regarding the neutral physician is false. 
Any evidence to support the contention in the White Paper would also be 
false. Mr. ElI told a Department of Labor investigator exactly the 
opposite of what appears in the White Paper. One of the two statements 
by Mr. Ell is a false statement made to a government investigator, a 
criminal violation.
    Page 11, ``Appeal Rights''.
    This section is a perfect example of the ``deception'' described in 
the White Paper as ``Appeal Rights''.
    First of all, appeal rights depend on various situations concerning 
exactly what is being appealed and who is appealing. One case in point 
is when a Player is denied by the DICC and it is the Player's initial 
disability claim, the retirement board must follow the decisions made 
by the DICC, which amounts to a circle, with no possible way of 
overcoming the denial, because Groom has changed the language of the 
Plan from Sec. 8.2 which says:

        Except that the retirement board will follow the decisions made 
        by the Disability Initial Claims Committee.

    Prior to this change, for over 45 years, Sec. 8 of the Bert Bell 
Plan and the Bert Bell/Pete Rozelle Plan both stated:

        The retirement board will have the power to decide claims 
        (except that the retirement board will follow the decision made 
        by the Medical Advisory Physician. [whose decision will be 
        final and binding on the retirement board]).
    The retirement board now uses whatever language ``fits'' the 
denial. This section of the Plan's Terms was changed in order to 
accommodate the retirement board's ability to have what would appear to 
be ``absolute discretion'' \1\ and authority over the outcome of 
disability determinations.
---------------------------------------------------------------------------
    \1\ This specific language was changed under the Bert Bell Plan at 
Sec. 8.4: ``The Retirement Board will have the broadest discretion 
permitted by the Act.'' This is the protective language of ERISA. This 
means, where there is ``no permission there is no discretion.'' In 1995 
Groom changed the Plan's Terms to exclude the specific language that 
restricted the retirement board's ability to act ``outside'' the Plan's 
Terms. In 1995 they removed ERISA governing terms and replaced them 
with their own made up authority.
---------------------------------------------------------------------------
    In the White Paper under ``appeal rights'' the author declares that 
the retirement board gives no deference to the decisions made by the 
DICC, a patently false statement. The evidence points to the Groom Law 
Group as the principal architect and administrator of the attempt to 
control the disability process on behalf of the two collective 
bargaining units.
    The specific language in the Plan's Terms under Sec. 8.2 of the new 
Plan document makes that declaration false and the premise declared in 
the White Paper fiction. In fact, the majority of the three topics I 
have reviewed in this ``Black Paper'' all contain ``fiction'' in their 
premises and falsehood in their factual content.
    I have, in the details contained in my 26-page response to Doug 
Ell's written testimony on June 26, and the White Paper written for the 
September 18, 2007 hearing provided a significant amount of facts and 
evidence to support the contention that misconduct has occurred at the 
hands of the authors of the White Paper.
    There are numerous misstatements of fact that I have not addressed, 
all of which point to the same conclusion . . . ``Fraud'' is defined by 
Webster as:

        A. Deceit, trickery, intentional perversion of the truth in 
        order to induce another to part with something of value or to 
        surrender a legal right.

        B. An act of deceiving or misrepresenting: A trick. One who is 
        not what he pretends to be. An imposter. One who defrauds. 
        Cheat. One that is not what it seems to be or is represented to 
        be.

        C. Synonym . . . Deception.

    I have presented some of the ABCs of the White Paper, which may 
well be misleading and fraudulent in its design.
    I welcome any effort by the NFLPA or the NFLMC to refute any of the 
statements contained in the Black Paper.
    Sooner or later the truth about the ``Truth Squad'' will become 
clear in the form of facts vs. fictions, which will spell themselves 
out in black and white.
    Submitted to the Members of the Committee on Commerce, Science and 
Transportation of the U.S. Senate to aid in their oversight of this 
issue, and to the NFLPA for its analysis and response.
            P.S. I am waiting for your response.
                                 ______
                                 
            Joint Response to Written Questions Submitted by
 Hon. John D. Rockefeller IV to the National Football League (NFL) and 
        the National Football League Players Association (NFLPA)
    Question 1. Identify each of the 6 members of the Retirement Board 
(the ``Board''), the person(s) who selected each member to serve on the 
Board, and the reason each member was chosen for such service.
    Answer. The Retirement Board is composed of seven members. Three 
voting members are appointed by the NFL Players Association (``NFLPA'') 
and three voting members are appointed by the NFL Management Council 
(``NFLMC''). The Commissioner of the NFL is an ex-officio, non-voting 
member. The Commissioner's designee, NFLMC Executive Vice President 
Harold Henderson, presides at all meetings of the Retirement Board.
    The Retirement Board members appointed by the NFLMC are:

        William Bidwill, Owner, Arizona Cardinals, appointed by Terry 
        Bledsoe, former NFLMC executive.

        Clark Hunt, Owner, Kansas City Chiefs, appointed by Harold 
        Henderson, Executive Vice President.

        Dick Cass, President, Baltimore Ravens, appointed by Harold 
        Henderson, Executive Vice President.

    During the last 5 years, Taylor Smith, Owner, Atlanta Falcons, and 
Eddie Jones, President, Miami Dolphins, also served on the Retirement 
Board. Each was appointed by Harold Henderson.
    The Retirement Board members appointed by Gene Upshaw on behalf of 
the NFLPA are three retired veteran NFL players:

        Tom Condon, who played 12 years in the NFL from 1974-1985;

        Jeff Van Note, who played 17 years in the NFL from 1970-1986; 
        and

        David Duerson, who played 11 years in the NFL from 1983-1993.

    Tom Condon and Jeff Van Note were appointed prior to 2002. Dave 
Duerson was appointed in 2006. Len Teeuws, deceased, preceded Mr. 
Duerson on the Retirement Board.
    The NFLMC and NFLPA appointments are made based on ability, 
interest in, and familiarity with employee benefit plans, the 
investment process, collective bargaining history, and/or player 
welfare, and their knowledge of the types of injuries that NFL Players 
may incur. In addition, the members agree to carry out the terms of the 
plan and to accept personal fiduciary liability.
    The NFLPA and the NFLMC may name a proxy for each of the members 
they have appointed, for any meeting for which that member is 
unavailable.

    Question 2. Identify each member of the Disability Initial Claims 
Committee (the ``DICC''), the person(s) who selected each member to 
serve on the Committee, and the reason each member was chosen for such 
service.
    Answer. The Disability Initial Claims Committee (``DICC'') consists 
of two members--one appointed by the NFLPA and one appointed by the 
NFLMC. The NFLPA appointed Chris Smith and the NFLMC appointed Mary-ann 
Fleming. Mary-ann Fleming is an employee of the NFLMC, Manager of 
Player Benefits, and was chosen for her familiarity with NFL players 
and benefits after agreeing to carry out the terms of the plan. Harold 
Henderson and Director of Player Benefits Valerie Cross selected Ms. 
Fleming for the NFLMC. Chris Smith is Assistant Director of Benefits at 
the NFLPA. Ms. Smith was chosen for her familiarity with NFL players 
and benefits and her knowledge of the types of injuries that NFL 
Players may incur, after agreeing to carry out the terms of the plan. 
Executive Director Gene Upshaw and Director of Benefits Michele Yaras-
Davis selected her for the NFLPA.
    Both Chris Smith and Mary-ann Fleming have served on the DICC since 
it was created, pursuant to regulations of the Department of Labor, in 
2002.

    Question 3. Explain the process for choosing members of both the 
DICC and the Board.
    Answer. The Bert Bell/Pete Rozelle NFL Player Retirement Plan 
designates the NFLPA and the NFLMC as having the authority to appoint 
and to remove the voting members to the Retirement Board and to the 
DICC. The Executive Vice President who leads the NFLMC exercises this 
authority with respect to NFLMC appointments. The Executive Director of 
the NFLPA exercises this authority with respect to NFLPA appointments.

    Question 4. State the total amount paid for disability pensions 
from both the Bert Bell/Pete Rozelle Plan and the NFL Supplemental 
Disability Plan (together, the ``Plans'').
    Answer. Below are the total amounts of disability benefits paid by 
the Bert Bell/Pete Rozelle NFL Player Retirement Plan and NFL Player 
Supplemental Disability Plan for the full calendar years 2002 through 
2006 and for 2007 through November, based on records provided by the 
Player Benefits Office. These amounts may differ from the amounts 
reported for Plan Years (April 1 to March 31).

----------------------------------------------------------------------------------------------------------------
                         Year                                                    Amount
----------------------------------------------------------------------------------------------------------------
2002                                                                                                 $14,856,632
2003                                                                                                  15,882,616
2004                                                                                                  16,934,525
2005                                                                                                  18,237,320
2006                                                                                                  20,266,009
2007 (through November)                                                                               19,981,483
----------------------------------------------------------------------------------------------------------------
    Total                                                                                           $106,158,585
----------------------------------------------------------------------------------------------------------------

    The figures above include all payments to players deemed to be 
totally and permanently disabled, including payments to these players 
after they attain normal retirement age, and payments for line-of-duty 
disability benefits.

    Question 5. State the total number of players receiving disability 
payments, broken down by category (i.e., Active Football, Football 
Degenerative, Line of Duty, etc.).
    Answer. The following table, based on records provided by the 
Player Benefits Office, shows the average number of former players paid 
for each kind of disability benefit per month for each calendar year 
2002 through 2006 and for 2007 through November 2007.

----------------------------------------------------------------------------------------------------------------
                                               Active        Active       Football                   Retirement
            Year              Line of duty    football     nonfootball  degenerative    Inactive    continuation
----------------------------------------------------------------------------------------------------------------
2002                                   93             5            12            65            50            44
2003                                   96             6            11            71            45            49
2004                                  109             5            10            75            46            57
2005                                  122             5            10            81            47            63
2006                                  144             5             9            85            46            71
2007                                  158             5             9            87            46            76
(through
11/07)
----------------------------------------------------------------------------------------------------------------

    Question 6. Please provide a breakdown of these categories into 
types of injury (i.e, Concussion, Spinal injury, Joint Replacement, 
etc.).
    Answer. Awards of line-of-duty disability benefits for orthopedic 
impairments are based upon a qualifying percentage impairment of one or 
more of the cervical spine, lower extremity, lumbar spine, thoracic 
spine, upper extremity or whole body, using a system developed by the 
American Medical Association. Awards of total and permanent (T&P) 
disability benefits are based on whether a player is able to work, 
taking into account all facts and circumstances. The Player Benefits 
Office automated record system records the decisions of the DICC and 
the Retirement Board, but not the underlying types of injury or 
impairment.

    Question 7. State the process for choosing doctors or other 
healthcare providers who are eligible to administer medical 
examinations to claimants for consideration by the DICC or the Board. 
Identify any qualifications which are considered or required for such 
service.
    Answer. Neutral physicians are selected by the Retirement Board. 
The Retirement Board is advised by two prominent orthopedic surgeons, 
who are not neutral physicians, and who recommend Board-certified 
orthopedists of exceptional quality who have substantial experience 
with the orthopedic problems of athletes. If a non-orthopedic neutral 
physician is needed in a particular location, then, pursuant to a 
procedure set up by the Retirement Board, the nearest orthopedic 
neutral physician is asked to recommend a highly qualified physician 
with the needed medical specialty in that area.
    Medical Advisory Physicians are selected by mutual agreement of the 
NFLPA and the NFLMC, pursuant to section 11.4(a) of the Retirement 
Plan. Medical Advisory Physicians are Board-certified orthopedists who 
previously were Plan neutral physicians, or are physicians of 
exceptional quality in other specialties.

    Question 8. State the process for removing doctors or other 
healthcare providers from the list of those eligible to administer 
medical examinations to claimants for consideration by the DICC or the 
Board. [Next question is not limited to 5 years] Identify every doctor/
health care provider who has been removed from that list, and the 
reason(s) for such removal.
    Answer. A neutral physician can be removed at any time by the 
Retirement Board. A Medical Advisory Physician can be removed at any 
time jointly by the NFLPA and NFLMC, or 30 days after the NFLPA or 
NFLMC gives written notice of the Medical Advisory Physician's removal 
to the other party, the Medical Advisory Physician, and the Retirement 
Board.
    The automated record system of the Player Benefits Office does not 
record the reason why a particular neutral physician is no longer being 
used. The reasons include:

  <bullet> The physician has died or retired,

  <bullet> The physician has voluntarily elected not to be active,

  <bullet> A physician was needed on occasion in a specific location 
        and was used so that a player would not have to travel,

  <bullet> A physician was needed on occasion to evaluate a specific 
        type of injury or medical condition of a player, and

  <bullet> The physician did not perform the requested tasks in a 
        timely manner.

    Exhibit A* is a list of neutral physicians furnished by the Plan 
Office who have performed evaluations for the Retirement Board since 
1985 but who are not currently performing evaluations for the plan.
    *(All exhibits mentioned are retained in Committee files.)

    Question 9. Identify every change in or amendment to the Plan 
Document, or in the rules or procedures governing disability claims, or 
in the benefits offered by the Plans in the past 3 years (e.g., use of 
a Social Security standard, the ``88 Plan''). State the reason for each 
such change. Produce a current copy of the Plan Document, and any 
rules, regulations, or guidelines which are used to administer the Plan 
Document.
    Answer. Exhibit B contains the Retirement Plan amendments adopted 
from 2004 to the present, and Exhibit C contains the current Retirement 
Plan Document and a listing of all amendments to that document. 
Exhibits D and E contain the NFL Player Supplemental Disability Plan 
and the 88 Plan, respectively, and all amendments to those plans from 
2004 to the present.

    Question 10. State the mean and median time between initial filing 
of an application for disability benefits, and (a) decision by the 
DICC, as well as (b) decision on appeal by the Board.
    Answer. The Player Benefits Office automated record system does not 
maintain the information needed to calculate the mean and median time 
taken by the DICC to make an initial decision or the Retirement Board 
to decide an appeal. In particular, the time taken for the applicant to 
respond, and to provide any additional information or to be examined, 
is not tracked.

    Question 11. [Next question is not limited to 5 years] Identify 
every case in which the Board or the DICC has requested more than one 
medical examination of a claimant by a Plans-selected doctor in the 
same specialty, and state the reason for each such request.
    Answer. Exhibit F lists the cases for which the Retirement Board 
referred an applicant to a second medical examiner, based on records 
provided by the Player Benefits Office. This examiner is referred to as 
the ``Medical Advisory Physician'' (MAP). Such referrals are generally 
made when there is uncertainty or ambiguity in the medical records 
presented to the Retirement Board. The referral is made at the option 
of three or more Retirement Board members. The specific reason for each 
referral is not in the automated record system of the Player Benefits 
Office.
    In addition, in rare cases, a player has been referred to an 
examining physician in the same specialty, below the MAP level, when 
the initial examination was unclear or inadequate for any reason. The 
number of times this has occurred is not available on the Player 
Benefits Office system.
    Finally, in 2002, the Disability Initial Claims Committee selected 
14 applicants for line-of-duty disability benefits to be reexamined. 
The purpose of these reexaminations was to measure their impairments 
using a rating system developed by the American Medical Association.

    Question 12. Identify any training or education provided to members 
of the DICC or the Board in order to perform their duties. Provide a 
copy of any documents which are used by them to administer the Plans or 
to decide claims or appeals, other than the case files submitted by 
individual claimants.
    Answer. As indicated in the answers to questions 1 and 2, the 
members of the DICC and the Retirement Board were selected based on 
their ability and their interest in employee benefit plans, among other 
factors. The members of the DICC have attended numerous seminars on 
employee benefit issues. The members of the Retirement Board are 
extensively briefed for 2 days at each quarterly meeting. Other 
meetings on special topics and conference calls occur as needed 
throughout the year. In addition to the plan documents provided in 
response to question 9, the DICC and the Retirement Board use a variety 
of forms to help them administer the Plans. These forms are in Exhibit 
G.

    Question 13. Explain the role of Sarah Gaunt in the DICC and the 
Board's consideration of individual claims and appeals.
    Answer. Sarah Gaunt is Plan Director of the Bert Bell/Pete Rozelle 
NFL Player Retirement Plan. In this capacity, she performs ministerial 
functions including maintaining records and presenting documents, such 
as disability applications, physician reports, and other documents, to 
the DICC and Retirement Board. She has no discretionary authority or 
discretionary responsibility in the administration of the Plan, 
including the determination of disability benefits or the evaluation of 
medical reports, nor any discretionary control with respect to the 
management of the Plan or its assets.

    Question 14. [Next question is not limited to 5 years] Explain the 
role of the Medical Advisory Physician in the decision of individual 
claims or appeals. Identify each case in which the Medical Advisory 
Physician was asked to address a claim or appeal, and the role played 
by the Physician in each case.
    Answer. Section 8.3(a) of the Retirement Plan, which is reproduced 
below, describes the role of the Medical Advisory Physician:

        ``If the voting members of the Retirement Board are deadlocked 
        with respect to a decision as to (1) whether a claimant 
        medically is substantially prevented from or substantially 
        unable to engage in any occupation or employment for 
        remuneration or profit within the meaning of Section 5.2, or 
        (2) whether an applicant meets the requisite percentage 
        disability requirements to be eligible for line-of-duty 
        disability benefits, the Retirement Board may by an affirmative 
        vote of three voting members submit such disputes to a Medical 
        Advisory Physician for a final and binding determination 
        regarding such medical issues.''

    Exhibit F contains the requested list of cases, based on records 
provided by the Player Benefits Office.

    Question 15. With respect to the summary table provided at p. 16 of 
the 6/26/07 written testimony of Douglas Ell before the House Committee 
on the Judiciary Subcommittee on Commercial and Administrative Law, 
please state the following:

        a. In the line identified as ``Approved at initial stage,'' 
        please state whether this includes claims which were approved 
        for any benefits of any kind, or whether it includes only 
        claims in which the entire benefit sought (i.e., Active 
        Football) was approved. Also state whether it includes claims 
        in which the DICC or the Board awarded a retroactive date later 
        than was sought by the claimant. For example, if a claimant 
        sought a retroactive date of 11/02, and was awarded a date of 
        11/04, was that counted as an approval or a denial?

        b. In the line identified as ``Approved on appeal,'' please 
        provide the same information. Does this include cases in which 
        the appeal resulted in any change in the benefits awarded or 
        the retroactive date, or does it include only claims in which 
        the claimant was awarded both the benefits and the retroactive 
        date requested?

    Answer. The table provided at page 16 of the June 26, 2007 written 
testimony of Douglas Ell lists claims and appeals as ``approved'' if 
disability benefits of any kind were awarded at that level. The table 
does not capture the complexities of effective dates or categorization. 
At each level, a claim is listed as ``approved'' if disability benefits 
of any kind were awarded at that level, whether or not the participant 
was awarded all the benefits for which he applied, and whether or not a 
retroactive award was made. Cases listed on appeal are cases where no 
benefit was awarded at the initial level.

    Question 16. Is it true that you plan to use Social Security 
standards for disability approval? And what does that mean?
    Answer. The NFLMC and the NFLPA have agreed to amend the Bert Bell/
Pete Rozelle NFL Player Retirement Plan such that an eligible player 
who is receiving Federal Social Security disability benefits will be 
considered to have met the Retirement Plan's standards for total and 
permanent disability. Such a player will not, during the period he is 
receiving Social Security disability benefits, be required to further 
demonstrate that he is totally and permanently disabled. The Retirement 
Board will determine the level of total and permanent disability 
benefit to which he is entitled.

    Question 17. What is the ``four point'' plan that will try to 
simplify approval process for disability benefits?
    Answer. We do not know to what ``four point'' plan you refer. The 
NFLPA and the NFLMC are, however, taking a number of steps in 
cooperation with the Retirement Board and the DICC in order to 
streamline our process as much as possible under the Federal rules 
protecting plan participants. The NFL has hired independent benefit 
consultants and independent counsel to identify best practices that 
could be incorporated into the administration of the plans. In 
addition, as described in the answer to question 16, the Plans will now 
recognize the Federal Social Security determination of disability for 
eligible players. The bargaining parties have asked the DICC and the 
Retirement Board if they could meet more often, and more frequent 
meetings should take place soon.

    Question 18. What is the ``Coalition'' planned by Mr. Goodell and 
Mr. Upshaw in the July meeting with retired players ``that will try to 
ease suffering among former players''? What will it do?
    Answer. The ``coalition'' that we have planned has also been 
referred to as the ``Alliance'' and is described in the answers to 
questions 19 and 20 below.

    Question 19. What is the new assistance program that will be 
created to address several critical issues drawing from the league, 
union and ``charities affiliated with pro football'' called the 
``Alliance''?
    Answer. The NFL, the NFLPA, the Pro Football Hall of Fame and the 
NFL Alumni, Inc. have come together to form an alliance to help former 
NFL players in need. We have established a new charitable foundation 
called the NFL Player Care Foundation. The Foundation has been 
established ``to provide relief to the disadvantaged and distressed, 
with preference to former players in the NFL, including, but not 
limited to, the support, promotion or funding of medical and other 
healthcare or assistance and improvement of the qualify of life.''
    The Foundation has a number of projects it will immediately pursue. 
The Foundation will provide, to former players in need, substantial 
financial assistance for the costs associated with the new NFL Player 
Joint Replacement Benefit Plan, a plan for retired NFL players who need 
joint replacements, and will also provide necessary rehabilitation care 
after joint replacement surgery. The Foundation also provides free 
cardiovascular screening and referral services for former players, and 
is also exploring long term care and other assistance for former 
players.

    Question 20. How does the Coalition plan to continue studying ways 
to improve benefits for the pioneers of the NFL?
    Answer. The NFLMC and the NFLPA continually monitor, through many 
sources both personal and institutional, such as the NFL Alumni, the 
Pro Football Hall of Fame, and the NFL Clubs, all of which employ 
former NFL players, the status and condition of former players, both 
``football-related'' and the normal process of aging. Each and every 
CBA between the NFLPA and the NFLMC has addressed and provided 
significant additional past service benefits for former players, mostly 
from improvements to the pension plan. We are interested not only in 
the condition of former players but in continually improving the care 
and environment for current players. The Alliance and Player Care 
Foundation are also exploring long term care and other assistance for 
former players and we expect to announce initiatives in these areas in 
the near future.

    Question 21. In a Sept. 13 RTT News story about the likely life-
altering spinal injury received by Buffalo Bills tight end Kevin 
Everett in a game a week ago says he will receive compensation from the 
National Football League Players Association, an organization that has 
come under fire recently from retired football players. Is it the NFLPA 
who determines benefits under the current plan?
    Answer. The NFLPA does not decide claims for benefits. In 
accordance with regulations of the Department of Labor, initial claims 
for disability benefits are decided by the DICC, whose members are 
described in the answer to question 2. Appeals of disability claims are 
decided by the Retirement Board, whose members are described in the 
answer to question 1. For benefits other than disability benefits, 
please refer to the table contained in the answer to question 22.
    We understand that the reference to compensation in the news story 
refers to disability benefits under the Plan. In the event Mr. Everett 
applies for disability benefits, the Disability Initial Claims 
Committee and Retirement Board will address that claim under its normal 
claims procedures.
    Mr. Everett is receiving his entire salary and all medical care 
under his player contract at this time, and will be eligible for other 
collectively bargained benefits, including pension, disability 
benefits, 401(k), continuing medical benefits, injury protection, a 
health reimbursement account and a severance benefit.

    Question 22. Can we clear up which sources are responsible for 
which benefits? NFLPA? Retirement Plan? Worker's Compensation? New 
benefits in the 2006 CBA imply that some of the benefits do not include 
the older retired players. Is that true?
    Answer. The collective bargaining agreement (``CBA'') between the 
NFLPA and the NFLMC provides retirement, medical, disability, and other 
benefits to active and former players. The 2006 CBA included large 
increases in the benefits for older retired players; for example their 
pensions were increased by 25 percent. The benefits provided to 
players, and which players are eligible for which benefits, are 
summarized below.
    Since 1993, the NFLPA and the NFLMC have agreed four times in 
bargaining to increase retirement and disability benefits.

------------------------------------------------------------------------
                                                     Benefits players on
         Plan/Program            Responsible entity      or after \1\
------------------------------------------------------------------------
Retirement Benefits             Retirement Board     All NFL Players
 (Retirement Plan)
Death Benefits (Retirement      Retirement Board     All NFL Players
 Plan)
Total and Permanent Disability  Retirement Board     All NFL Players
 Benefits
(Retirement Plan)
Line-of-Duty Disability         Retirement Board     All NFL Players
Group Insurance \2\             NFLMC                1970 Forward
Severance Pay                   NFLMC                1982 Forward
Retiree Medical                 NFLMC                1993 Forward
Savings Plan (401(k)Plan)       Savings Board        1993 Forward
Total and Permanent Disability  Disability Board     1993 Forward
 Benefits
(NFL Player Supplemental
 Disability Plan)
Annuity Program                 Annuity Board        1998 Forward
88 Plan                         88 Board             All NFL Players
NFL Player Health               HRA Board            2004 Forward
 Reimbursement Account Plan
Cardiovascular Health Program   NFLPA/NFL            All NFL Players
                                Alliance
Joint Replacement Surgery       NFLPA/NFL            Approved for
                                Alliance             Implementation
Assisted Living Program         NFLPA/NFL            Approved for
                                Alliance             Implementation
Workers' Compensation           NFL Clubs            All NFL Players
------------------------------------------------------------------------
\1\ This column indicates which NFL players are eligible for these
  benefits by year of play. In some cases, vesting or other eligibility
  requirements may apply.
\2\ For active players, group insurance includes life, medical, and
  dental benefits. For vested former players, group insurance includes
  medical and dental benefits for 5 years after their NFL careers end.

                                 ______
                                 
          Combined Response to Written Questions Submitted by 
         Hon. Trent Lott and Hon. David Vitter to Roger Goodell
    Question 1. In oral and written testimony before the Committee, 
several witnesses stated that conflicts of interest impair the fair 
operation of the Retirement Board, because those who appoint the Board 
will gain economically if the Board rejects disability claims. What is 
your response?
    Answer. Simply put, there is no evidence to support their claim. 
The Retirement Board operates in accordance with Federal law as defined 
by the Taft-Hartley and Employee Retirement Income Security Acts, and 
as supplemented by regulations issued by the Department of Labor and 
Internal Revenue Service. Board members and staff make decisions, as 
they are required to do, based on the terms of the Disability Plan and 
based on the medical evidence submitted by an applicant for benefits 
and by one or more neutral physicians. In cases where the Retirement 
Board is unable to reach a decision on a particular application, the 
matter is referred to a third neutral physician (called the ``Medical 
Advisory Physician''), whose medical decision is final and binding on 
the Board.
    The collective bargaining parties, the NFL and the NFLPA, are 
committed to delivering the negotiated benefits, have budgeted ample 
funds to do so, and have appointed Board members and staff who are 
directed to do so. No member of the Board or staff has an economic 
incentive to do otherwise.

    Question 2. As to the inference of collusion between the appointing 
authorities and the Retirement Board, I note that dissatisfied former 
players can appeal Board decisions to court. Although courts have been 
deferential to the decisions of the Retirement Board trustees and the 
trustees of other plans, would collusion between the trustees and the 
appointing authority be a basis to overturn a Board decision? Has any 
court anywhere found evidence of such collusion or a similar violation 
of the trustees' fiduciary duties?
    Answer. Collusion between the trustees and the appointing authority 
would be a basis for a court to overturn a Board decision. We submit 
that no court would defer to a decision tainted by collusion. That 
said, of the 25 occasions on which decisions of the Board have been 
challenged in Federal court, the Board's decision has been upheld in 24 
of those cases. In no case--including the one case that did not uphold 
the Board's decision--was there any finding or credible evidence of 
collusion, either among the Trustees themselves, or between the 
Trustees and the party appointing them to the Retirement Board.

    Question 3. It has been suggested that since disability and 
retirement benefits are paid from the current players' portion of 
league revenues, management should support leaving administration of 
the Plan strictly to the players. What is your response? Further, are 
management-appointed trustees an obstacle to the fair and proper 
administration of the Plan?
    Answer. While it is true that disability and retirement benefits 
are negotiated and treated as part of the portion of NFL revenues 
assigned to players generally, that is not the same as saying that 
these are the current players' funds, and we do not agree that they 
are. Rather the bargaining parties, in budgeting a sum of money for 
benefits, have agreed again and again to earmark amounts for retired 
players, thus allowing both parties to participate in addressing the 
needs of former players.
    Joint management-labor administration of benefit plans has been 
part of Federal law for six decades, and is well recognized as being 
consistent with and in furtherance of Federal labor policy. Far from 
being an obstacle to the fair administration of benefit plans, such 
joint administration serves important interests, including developing 
support from management for those benefit plans, and ensuring that 
unions--which, after all, have the statutory duty of representing the 
interests of current workers who comprise the bargaining unit--do not 
ignore the needs of retirees. Further, as I testified, clubs do not 
believe that the needs of retired players are simply a ``problem'' for 
the union to ``solve.'' Instead, the needs of retired players are a 
concern of both the clubs and the union, and of current and retired 
players alike.
    Not only are the management-appointed trustees not ``an obstacle to 
the fair and proper administration'' of player benefits, the management 
trustees contribute valuable business and investment insight, 
administrative capacity and employer perspective to the process. 
Moreover, the overwhelming number of decisions of the Retirement Board 
are unanimous, reflecting the fact that both management and labor 
trustees administer the plan fairly, and in accordance with its terms 
and the medical evidence presented in each case.

    Question 4. Several witnesses complained that the Plan and its 
operations are opaque and difficult to understand. Are there steps you 
have taken or can take to simplify plan operations and make them more 
transparent? If legal requirements obstruct your ability to streamline 
the plan, do you recommend modifications to address these obstructions?
    Answer. As I testified, we will continue our effort ``to identify 
and implement any reasonable procedural changes that would allow 
disability determinations to be made more quickly and reliably.'' We 
have engaged independent counsel and benefit consultants to advise us 
in this regard, particularly with respect to identifying best practices 
in the administration of disability plans outside professional sports. 
We have attempted to ensure that the standards for making decisions are 
clear and understandable. The Retirement Board relies on standards 
developed by the American Medical Association for deciding partial 
disability, or ``Line of Duty'' cases. And we recently agreed to 
incorporate the medical findings of the Social Security Administration 
in deciding cases of total and permanent disability. Thus, if a player 
has been found to be totally and permanent disabled by Social Security, 
that finding will govern the player's medical eligibility for NFL 
disability benefits.
    Much of the complained-of complexity is the result of the complex 
Federal statutory and regulatory scheme that governs benefit plans. We 
continue to believe, as we advised the Department of Labor in 2002, 
that the regulations governing the operation of the Initial Claims 
Committee have not served the process well and have in fact delayed the 
adjudication of benefit claims. We submitted extensive comments to the 
Labor Department when this requirement was first proposed addressing 
this subject.

    Question 5. Several witnesses alleged that the Plan ``doctor 
shops'' in order to find physicians who will deny disability claims or 
promote conflict in medical evidence that will create a basis to deny 
claims. What is your response?
    Answer. This claim is without substance. For example, the 
orthopedic doctors, who evaluate most of the claims, were identified by 
two acknowledged leaders in the profession, and not by the Plan 
administrators, the parties, or the trustees on the Retirement Board. 
Doctors are chosen based on their skills and experience. The Plan 
maintains, particularly for orthopedic issues, a national network of 
neutral physicians.
    No doctor has been retained because of any record of hostility 
toward disability claims, and no doctor has been dismissed because of a 
history of decisions favorable to disability claimants. The neutral 
physicians are obligated to follow the terms of the Plan, and to apply 
well-recognized standards, such as those established by the American 
Medical Association (in cases of partial disability or ``Line of Duty'' 
claims). In cases involving claims of total and permanent disability, 
the Plan will accept medical findings of the Social Security 
Administration and will not require separate medical exams in those 
cases.
    In addition to the report(s) prepared by the neutral physician(s), 
the Plan will always consider medical evidence submitted by a player's 
physician, as well as medical records from the Player's club. Players 
are free to submit their own medical records to the neutral physicians 
who examine them. Because the Plan's fiduciaries are obligated to make 
decisions based on medical evidence, players applying for disability 
claims have an opportunity to supplement the record and ensure that it 
is complete and accurate.

    Question 6. The Committee notes that you and the NFL Players 
Association have formed an ``Alliance'' of programs designed to help 
former players in need. Please describe the current status of the 
Alliance and how you see it evolving.
    Answer. The Alliance is made up of the NFL, the NFL Players 
Association, NFL Charities, the NFL Alumni Association and the Pro 
Football Hall of Fame. We are actively seeking the support of other 
interested parties, including the Gridiron Greats, the group endorsed 
by Coach Ditka. The five parties currently part of the Alliance have 
each agreed both to initial funding commitments, as well as to further 
fundraising efforts to ensure that there will be adequate resources 
available to carry out its program.
    The Alliance is currently focusing on several specific medical 
projects to benefit retired players. Those projects include joint 
replacement surgery and rehabilitation, which will be provided free or 
at reduced cost at leading medical centers throughout the country. A 
second initiative involves comprehensive cardiovascular health 
screening and education, which will be provided at no cost to retired 
players under the oversight of the League's Medical Committee on 
Cardiovascular Health. A third initiative involves identifying a 
network of assisted living facilities throughout the country that will 
provide favorable access to retired players in need of these services.
    Apart from these initiatives, the Alliance is exploring other 
targeted medical services and ways of providing various forms of 
supplemental health insurance to retired players and their families.
    Finally, the Alliance is committed to coordinating all of the 
different services offered by its various members. Doing so will allow 
us more effectively to communicate to retirees and their families and 
identify those in need. By pooling our financial and administrative 
resources, we can better achieve our goal of providing help to retired 
players in need in a timely, confidential, and dignified way.

    Question 7. If the standard for awarding Total and Permanent 
disability claims is that the former player is substantially unable to 
work, what programs do you have to assist former players who do not 
meet this standard but who suffer from football-related injuries?
    Answer. The Disability Plan offers both total and permanent 
disability and partial disability benefits. Retired players who are 
able to work but nonetheless have a disability may seek partial 
disability or ``Line of Duty'' benefits. (They may also seek workers' 
compensation benefits.) As I testified, we are considering further 
measures with respect to partial disability benefits, including 
expanding the time in which retired players may apply for Line of Duty 
benefits to make that benefit available to a greater number of retired 
players. In addition, the Plan offers a total and permanent disability 
benefit based on football degenerative conditions, so if a player 
becomes unable to work within 15 years of his retirement from the NFL, 
he may still apply for and receive a total and permanent disability 
benefit.

    Question 8. Former players have said that they have insufficient 
input into the benefit programs that affect them. Understanding that 
they are not parties to the Collective Bargaining Agreement because 
they are not members of the bargaining unit, will you establish a 
process by which the concerns of former players can be expressed and 
heard?
    Answer. As the question recognizes, Federal labor law requires the 
clubs to bargain with the NFL Players Association as the representative 
of current employees. Nonetheless, the parties to the NFL-NFLPA 
Collective Bargaining Agreement have an admirable and consistent record 
of steadily increasing benefits and of applying those increases on a 
retroactive basis. In the last ten years, the clubs have assumed 
additional retroactive benefit obligations of nearly $400 million.
    We are acutely aware of the concerns of retired NFL players. We 
have consulted with them and will continue to do so, through the 
Alliance, the Hall of Fame, the Alumni Association, the many former 
players who currently work in and around the NFL, and in other ways. 
While it may not be possible to satisfy all of the desires of retired 
players, we will continue to work to ensure that we have a complete 
understanding of their concerns. We are committed through these and 
other mechanisms to listen to the concerns expressed by former players.

    Question 9. What are the current and accurate figures regarding the 
number of players who have applied for disability benefits, and the 
number who have been approved?
    Answer. The information set forth in the NFLPA ``White Paper,'' 
which was filed as part of the hearing record, shows that from July 
1993, roughly 1,052 people have applied for disability benefits. Of 
that number, 428 applications have been approved, 576 applications have 
been denied, and the remaining 48 applications are pending.

                                  <all>

</pre></body></html>
